<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 DEPARTMENT OF THE INTERIOR AND RELATED
                    AGENCIES APPROPRIATIONS FOR 1999

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION
                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES

                      RALPH REGULA, Ohio, Chairman

JOSEPH M. McDADE, Pennsylvania         SIDNEY R. YATES, Illinois
JIM KOLBE, Arizona                     JOHN P. MURTHA, Pennsylvania
JOE SKEEN, New Mexico                  NORMAN D. DICKS, Washington
CHARLES H. TAYLOR, North Carolina      DAVID E. SKAGGS, Colorado
GEORGE R. NETHERCUTT, Jr., Washington  JAMES P. MORAN, Virginia
DAN MILLER, Florida                    
ZACH WAMP, Tennessee                   

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher Topik,
                            Staff Assistants

                                ________

                                 PART 10
                                                                   Page
 Smithsonian Institution..........................................    3
 National Gallery of Art..........................................   77
 John F. Kennedy Center...........................................   87
 National Endowment for the Arts..................................  107
 Woodrow Wilson Center............................................  175
 National Endowment for the Humanities............................  193
 IMLS--Office of Museum Services..................................  259
 Commission of Fine Arts..........................................  277
 Advisory Council on Historic Preservation........................  289
 National Capital Planning Commission.............................  325
 Holocaust Memorial Council.......................................  357
 Testimony of Members of Congress.................................  373
                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
47-908 O                    WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director








=======================================================================


                        Smithsonian Institution

=======================================================================







DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1999

                              ----------                              

                                           Tuesday, March 17, 1998.

                        SMITHSONIAN INSTITUTION

                               WITNESSES

I. MICHAEL HEYMAN, SECRETARY
CONSTANCE B. NEWMAN, UNDER SECRETARY
J. DENNIS O'CONNOR, PROVOST
MICHAEL H. ROBINSON, DIRECTOR, NATIONAL ZOOLOGICAL PARK

[Pages 4 - 7--The official Committee record contains additional material here.]


                           Opening Statement

    Mr. Regula. We will get started with the committee hearing. 
I am pleased to welcome all of you from the Smithsonian. Your 
statements will be made a part of the record.
    Secretary Heyman, if you would like to summarize for us.
    Mr. Heyman. Yes, sir, I would. Thank you for the 
opportunity.
    Last year was really a good one for us. We had over 30 
million visits between the museums and the zoo here in 
Washington, and that was up 23 percent from the year previous. 
That says something about Washington, in general.
    Mr. Regula. A 23 percent increase in visitation?
    Mr. Heyman. Yes, sir.
    Mr. Regula. Just think what that would do if you had a fee.
    Mr. Heyman. That is what I thought you would say, sir. 
[Laughter.]
    I walked right into that one, did I not?
    We opened the Geology, Gems, and Minerals Exhibition, which 
is sterling. We had a host of other exhibitions that were very, 
very good. I do not have to go through all of them, just a 
couple. The Ansel Adams show, turned out to be, I think, the 
largest draw the American Art Museum has ever had. That museum 
is just crowded every day. Unfortunately, the show ends in 
about a week, but it has been wonderful, and that has been true 
throughout the whole of the Smithsonian. We have had really 
very fetching exhibitions.

                       ``america's smithsonian''

    ``America's Smithsonian,'' that big traveling show, is now 
back. Its last stand will be and is in the Ripley Center, which 
gives people from the Washington area an opportunity to see it 
and gives staff at the Smithsonian an opportunity to see it. It 
drew over 3 million people when it went around the country. So 
it was exceedingly successful.
    Mr. Regula. Let me ask you, did you break even on cost?
    Mr. Heyman. No, sir. We are still in the hole, but I trust 
that we will dig our way out considerably by a number of 
devices; one is the NOVUS credit card; the other is the 
possibility, although I am not sure yet how imminent, that we 
will do an international tour, which will be a profitable 
venture.
    Mr. Regula. International?
    Mr. Heyman. Yes. Not with the same artifacts, but with 
other materials from the Smithsonian. If that works well, that 
will be a nice offset against losses from ``America's 
Smithsonian.''
    But I do not really look at them so much as losses as an 
investment, especially now that we have begun to be as 
successful as we are on the Web, which is really outreach, and 
as we have begun to be in the Affiliations Program with museums 
around the country.
    So, in a sense, this kind of established us around the 
country and, perhaps, it will also prove to be very useful as 
we get into a capital campaign. It is a little hard to know, 
but it can be viewed in investment terms, I think, properly.

                         smithsonian home page

    Digitization remains a large priority for us, and you know 
in our budget we have a request for $3 million for the base to 
increase the amount of digitization we can do. The Web 
continues to enlarge. We are we getting over 12 million, close 
to 14 million--hits a month.
    Mr. Regula. A month?
    Mr. Heyman. A month. It is, as you know, a very dense site 
with each of the museums and the research institutes having 
Home Pages under the Smithsonian Home Page. People spend a lot 
of time with us. It is not simply coming in and coming out. As 
far as we can determine, people are spending some significant 
time with us.
    We are beginning to put exhibitions on the Web. The site 
has two presently and various museums have exhibits as well.
    We are in the process of doing the first exhibition that I 
think was ever designed solely for the Web. It never existed 
other than on the Web, and it is going to open up new areas.

                         digitization of images

    I detailed the digitization matters considerably in my 
written statement. It is obviously about access to our 
collections. The sums that we are getting from the Federal 
Government and hope we will have in hand are being combined 
with grants from IBM, and Intel, and Hewlett Packard.
    Mr. Regula. Give us an example of what you would digitize. 
I hear it is quite expensive to do.
    Mr. Heyman. Where we are putting our attention right at the 
moment is a whole bunch of photographic images that are in the 
American History Museum. They are not all American History 
materials, but what else do they include, Dennis?
    Dr. O'Connor. There is a lot of two-dimensional material, 
Mr. Chairman, that we will be digitizing. For example, as part 
of collection management, when an object comes in it is 
photographed. We can just simply take that photograph, scan it, 
and then it becomes part of a digital record that we can either 
use for collection management or we can use to put it up on the 
Web as part of a virtual exhibit.
    So there are two-dimensional materials; photographs, 
negatives, art work, and then the more difficult task--and, 
indeed, you are correct, more expensive--will be to digitize 
three-dimensional images with the technology such that you can 
turn the image around to be able to see all sides of it.
    Mr. Regula. This would be on your Web site then.
    Dr. O'Connor. Yes.
    Mr. Heyman. It will be on our Web site, and it will be 
connected with our Collection Information Systems [CIS], so 
that it is going to be possible to find the images that you 
want.
    When we finish combining the CIS materials from the various 
museums, you are going to be able to come in on subject matter, 
let us say American Indian, and you are going to be able to 
find what we have in all our museums under a single subject 
matter, so that you are not going to have to scan museum-by-
museum in order to find images, and the images will have with 
them the reference materials--essentially, the labels--that 
identify and explain the images.
    Mr. Regula. Mr. Skaggs, we can be sort of informal this 
morning. So, if things occur to you, as we go along, do not 
hesitate.
    Mr. Skaggs. Thank you.

                  web access for educational programs

    Mr. Heyman. And, obviously, we are using Web access for a 
number of educational programs. Natural Partners continues to 
expand. There are lesson plans on the Web now from a lot of the 
Smithsonian organizations. The Smithsonian Office of Education 
has posted a whole series of lesson plans----
    Mr. Regula. Teachers would pick this up?
    Mr. Heyman [continuing]. That teachers can pick up and 
download, and then they can download materials, also, in 
support of the lesson plans.
    Mr. Regula. Do you have interactive potential, so that a 
school that is so wired could actually have an interactive 
classroom with the Smithsonian?
    Mr. Heyman. Obviously, we do with Natural Partners. Now, 
what else are we doing presently?
    Dr. O'Connor. The most significant interactive environment, 
Mr. Chairman, is the Natural Partners Program, and there is a 
downloading site, I believe, in many states of the Union, at 
least onesite.
    Mr. Regula. Then the schools can plug into that.
    Dr. O'Connor. That is correct.
    Mr. Regula. This has enormous potential.
    Mr. Heyman. It has enormous potential. It also has a lot of 
problems that are going to have to be faced over time, not the 
least being that interactive electronic potential is 
interesting, but you have to have somebody on our side to be 
interactive with, and so that increases the load on curators 
and research people, many of whom are really quite willing and 
excited about doing it, but they cannot do it all of the time, 
obviously, and also do their jobs.
    So sorting all of that out over time, for all institutions, 
not simply ours, is going to be a real challenge.

                          affiliations program

    We are continuing the outreach of the Affiliations Program. 
You will recall the Affiliations Program is one in which the 
Smithsonian is entering into agreements with museums around the 
country. We are up to, I think, really nine now, or at least 
eight, where we have Memoranda of Understanding.
    I look forward to this as probably the most interesting new 
activity of the Smithsonian that has occurred during the time 
that I have been Secretary because I think this has the 
potentiality over the next 10 or 15 years to spread all over 
the United States, with portions of the Smithsonian collection 
in many places which will give people access to those artifacts 
and will bolster the efforts of regional museums around the 
country.
    I was worried whether our museums would want to be in a 
position to cooperate in this, but the ones that have so far 
been asked, primarily, which are American History and Natural 
History, seem to have absorbed this level of activity well and 
are really getting interested in it.
    The Provost has a small staff of people who are the 
facilitators, which is really critical for making these 
arrangements work.
    The amount of publicity that the Smithsonian is getting in 
each of the venues, where agreements are being reached, is 
considerable, and the amount of notice, with respect to the 
programs that are occurring through the American Association of 
Museums and other like sources, is considerable.
    So we have now got inquiries from organizations in 30 
states, and we know that a number of those are going to work 
out over time. So it just keeps mounting in terms of the number 
of people picking up our invitation.

                                research

    The research continues apace at the Smithsonian. I do not 
have to go through it. I have that in my written testimony. But 
we have been doing, for instance, a lot of work on El Nino in 
Panama. That has been one of the places with drought, and it 
has been very interesting to view what has been occurring, as 
Dennis was telling me, with regard to the adaptation by plant 
life, even in a single year.
    Up at SAO we are trying to find planets elsewhere than in 
our solar system, and so far we have found one. That discovery 
was made, I guess, at Arizona using the multiple-mirror 
telescope.
    But there is an enormous amount going on.
    Mr. Regula. Would that be the new scope in Arizona that was 
put up on Mount Hopkins?
    Mr. Heyman. This was found with the old one. When will the 
new one be in operation?
    Dr. O'Connor. We just closed the multiple mirror, and the 
single mirror is due to arrive up on top of the mountain, 
hopefully, by April. The first light we are anticipating 
sometime in July.
    Mr. Heyman. It is going to be a heck of an experience 
taking this huge single mirror up that mountain. As you might 
know, it is a very narrow trail that goes up, and there has 
been a lot of testing going on with respect to how to assure 
its safe arrival.
    Mr. Skaggs. Maybe we could visit, Mr. Chairman. I think it 
would be a good time.
    Mr. Heyman. We would be delighted to have you visit there 
and then to visit the new site on Mauna Kea in Hawaii.
    Mr. Skaggs. That might be pushing our luck. [Laughter.]
    Mr. Heyman. And then we are in a partnership in Chile on 
the Magellan Project.
    Mr. Skaggs. We might be in the vicinity. [Laughter.]
    Mr. Heyman. It would be a delight. We would be really 
pleased if you came.
    Dr. O'Connor. Choose an evening with a new moon, Mr. 
Skaggs, because with a full moon it is too light. The stars do 
not show well.
    Mr. Heyman. One of the things that amazed me when I went 
was that people do not look directly at stars any more. They 
really see the stars on a television set, and that is the way 
they are received. The image is enhanced electronically. You 
could be sitting here, and you could be looking at the same 
image that one is looking at right on the site.
    Dr. O'Connor. Nowhere near as fun.
    Mr. Heyman. No, nowhere near as fun.
    Mr. Regula. It's not like being on the site, though.
    Mr. Heyman. We have five telescopes now that are dedicated 
to schools in the United States. I spoke about them once. They 
are through the Smithsonian Astrophysical Observatory. Schools 
can sign up, and then once----
    Mr. Regula. Schools meaning colleges?
    Mr. Heyman. Elementary schools and secondary schools, 
basically.
    Mr. Regula. Really?
    Mr. Heyman. Secondary schools, more so junior high schools 
than high schools, but most of the astronomy that is offered at 
the K through 12 level is at the high school level.
    But they can sign up, and then they can scan portions of 
the sky by prearrangement on these dedicated scopes, and then 
they get the results of that scanning back into the classroom 
over the Internet. It is an extraordinary opportunity with 
regard to being able to export experience in the manner that I 
was indicating, which is visually through the Internet.
    So it is just expanding in all kinds of ways is the point, 
I guess, I am really seeking to make.

                       smithsonian budget request

    Let me turn to the budget request. Our total budget request 
is $419.8 million. That is up about 4.4 percent from last year.
    In salaries and expenses, we are asking for mandatories, 
and we have three program improvements that we are seeking; one 
of those is $3 million for digitization--the subject I was 
speaking about just recently. Some portion of that is for 
Natural History for relocation and moving in the East Wing, now 
that that is finishing, and for staffing in the West Wing. That 
is the wing that we are constructing with the proceeds of the 
bond that was successfully launched. So that is not being 
federally supported on that side.
    And then $11 million for the NMAI--for the National Museum 
for the American Indian--to begin to support the move of 
artifacts from the Research Branch up in the Bronx down to the 
Cultural Resources Center in Suitland, Maryland. That will be a 
process that will take a while, obviously, because each of 
those items has to be conserved, and then packed, and then 
moved. So it is a real process and there is a lot to do with 
that.
    So it is the move; it is the staffing up of the Cultural 
Resources Center in Suitland; and it is the beginning for 
exhibit design with regard to a Mall museum which, hopefully, 
will be up--what did we say?--2002, and for which, of course, 
we are seeking federal funding for the last portion of that.
    We have requested $40 million, up $8 million for R&R. We 
still need, of course, the eventual $50 million so that we can 
be on a sustaining basis in relation to the analysis we have 
shown you in the past, and I hope we can be seeking that in the 
near future.
    As far as construction is concerned, obviously, we are 
asking for the last portion of the National Museum of the 
American Indian, and that is a bifurcated request; $16 million 
in terms of this fiscal year, an advanced appropriation of $19 
million for next year. If both of those could occur presently, 
the probabilities are high that we would be able to start 
construction later in this fiscal year. That is the reason for 
including the advanced appropriation, as well as the 
appropriation for this time.
    Then $2 million for minor construction and alterations and 
modifications in planning. We are requesting $4.5 million for 
the Zoo for construction. $3.8 million of that is really R&R, 
and then $700,000 is for planning in relationship to the Holt 
House, which is a minor amount, but a more major amount in 
terms of master planning.

                            capital planning

    Let me just say before I end my statement and invite your 
questions, that there are other buildings that we have been 
involved with; one, of course, is the Dulles Center, and we 
will have finished construction drawings, which are, at about 
65 percent now, by next fall. We are hard at work seeking to 
raise money for that. We have some asks out presently, which is 
the first stage of that money raising, including some up in the 
State of Washington, obviously Boeing. We hope very much that 
they are going to be a major donor.
    Virginia is coming through on the Dulles Center project 
with its promises in its Fiscal 1999 budget. It has 
infrastructure money, and the extra million dollars that it 
added at the request, really, of this committee some time ago, 
and we are quite confident that all of that is going to come 
through. So we will see how this proceeds because, obviously, 
it depends an awful lot on the success of the capital campaign 
for Dulles.
    I spoke with you, Mr. Chairman, and I do not think with 
other members of the committee, about the possibility of our 
seeking to purchase with non-Federal funds a building in the 
area of American Art and the National Portrait Gallery. The 
obvious target has been the old Hecht Building, which is 
diagonally across the street from the Patent Office Building 
that contains those museums.
    The purpose of it would be, first of all, to give swing 
space when we do the major remodeling, the repair and 
restoration, on the Patent Office Building itself. It would be 
very good to move everybody out and get that done more 
efficiently than otherwise would be true if we have to do it in 
sections with people still in the building.
    Thereafter, we would look forward to that building being 
occupied by some of the uses that are presently in the Portrait 
Gallery and in the American Art Museum because we would very 
much like to increase the exhibition space in the Patent Office 
building, and that would mean moving some offices out and 
moving some other facilities out that are presently in there; 
like conservation, like archives, like photography, and putting 
them elsewhere.
    In addition to that, we would see that building being used 
for trust-funded leases, especially, that are elsewhere in the 
city, so that we could be occupying it ourselves and get out of 
other lease space.
    I have no idea whether we are going to be successful in 
arranging the financing in order to do this. If it looks as if 
we are, I will be coming to you, Mr. Regula, and to staff with 
a written proposal that explains this in great length and, 
certainly, we would look forward to discussing this with you 
and getting your views as to whether or not you think it is 
permissible for us to go forward. But I am not at that stage 
yet in terms of knowing whether I am going to be able to find 
the financing.
    From time to time, you have all asked about the balance 
between repair and restoration of our existing facilities and 
building new facilities. I have never been able, and I shall 
not be able now, to answer that in a definitive way.
    I can only say that, given the fiscal preoccupations, 
understandably, of the Congress, the potential of getting money 
from the Federal Government to do new buildings has been 
minimized, which means that if we are going to do new 
buildings, or at least increase our space in the foreseeable 
future, we are going to have to be finding sources of funding 
outside of the Federal Government.
    That will raise, of course, the problem of adding to the 
operating budget and what the sources of that additional 
funding are going to be. But it is going to be self-regulating 
in itself. The potential of raising that kind of money outside 
will dampen our attempts to go forward to increase space.
    But I must say that an institution like the Smithsonian, 
which is in the collection business and exhibition business, 
simply cannot stop collecting. We can minimize it; we can limit 
it; we can be more and more careful about what we get; we can 
try to de-accession some of the things that no longer seem to 
be of great interest, but in the end, the numbers of things we 
have will increase if we are doing our job.
    Some expansion is clearly in the cards, but it is going to 
be very moderate, I think, given the fiscal circumstances that 
I have indicated to you.
    This concludes my statement, Mr. Chairman, and I thank you 
all for your attention. I look forward for the three of us, if 
not the four of us, to cope with whatever questions you might 
like to ask.
    [The information follows:]

[Pages 15 - 21--The official Committee record contains additional material here.]


                  percentage of collections of exhibit

    Mr. Regula. Thank you, Mr. Secretary. I have a few, and 
then we will go to the other members.
    What percentage of your collections is actually on exhibit?
    Mr. Heyman. Well, first, I want to say that in the Museum 
of Natural History that contains a huge number of our objects--
120 million out of the Institution's 140 million--there are 
lots of items that will never be exhibited, and there are lots 
of items that are very tiny. So you might get beetle 
collections or other kinds of insect collections with hundreds 
of thousands of items that are there for research purposes and 
I would say for archival purposes.
    The Museum of Natural History is one of the world's 
greatest archives of materials that were once alive, which are 
just very valuable for a whole variety of reasons, especially 
as new techniques come, for analyzing those objects.
    In any event, that is 120 million. Of that 120 million, we 
probably show 100,000 or maybe even less.
    Then in the balance of the museums we have many fewer 
items, and we show a larger proportion of them. If you consider 
all of the items we have, we exhibit about 3 percent. I have 
not yet calculated what it would be if you took away those 
research collections. We still are not exhibiting a high 
proportion of what we have there in collections.
    Mr. Regula. In the minutes of your board meeting you have a 
whole list of new construction item proposals. I wonder if you 
analyze what you have and determine if there is some way to 
consolidate some of this. As you point out, even if you get 
private funding for a new building, the operation costs over a 
period of time will be greater than the cost of the building. I 
think there will be, in the foreseeable future, budget 
limitations.
    It would seem to me that you have to consolidate some of 
what you have that probably is not relevant now, nor will it 
ever be.
    Mr. Heyman. Well, I think we have to do somewhat more of 
that, and we are de-accessioning. I hope we are going to be 
able to find homes for a number of the items through the 
Affiliation Program. As that grows, more of our materials will 
no longer be in our own hands--physically, in our own 
collections--but I do not know how major that is going to be in 
terms of the numbers.

            strategy for fulfilling facilities requirements

    I think that the pressure will come when we simply cannot 
hold any more, and that has a way of self-regulating itself in 
terms of those who are in charge of collections. But I did 
really want to say something about that paper that was in the 
Regents' agenda the last time, which is called, ``Strategy for 
Fulfilling Facilities Requirements.''
    The reason that that paper was in there is because the 
regents have gotten very interested in space planning, and the 
Regents are as inquisitive of what we are proposing to do, as 
this committee is, with respect to going forward, especially if 
the proposal is that we go forward with money that is not 
Federal money.
    So the desire for oversight is considerable, which I 
respect and I think is very proper. We are going to come before 
the Regents in the next meeting or the one following with a 
space plan, but we thought we would give them the kinds of 
analysis that had been rattling around the Institution for some 
time to prepare them for when we come in with the space plan, 
and that was the ``Strategy for Fulfilling Facilities 
Requirements,'' the paper that was in the Regents' agenda.
    I took that, actually, this morning at home, and with my 
trusty calculator I took a look at what the 4.6 million 
additional square feet are all about. I found out that 1.252 
million of that 4.6 million square feet are already approved 
because those are the Natural History wings, the Dulles, and 
the NMAI.
    Mr. Regula. Right.
    Mr. Heyman. So that leaves me the balance, which is about 
3.2 million. Of that balance, 720,000 square feet are in 
buildings like the Hecht Building that I just discussed. They 
are in the Federal Office Building on Independence Avenue, 10-
B, which we have coveted because we could see ourselves taking 
all our Federal lease spaces--for instance, in L'Enfant Plaza 
and thelike--and putting them in one place, and also have an 
arrangement with regard to chillers for the Air and Space Museum, for 
the Arts and Industries Building and the Castle that would work 
exceedingly well. That is another 251,000.
    A third is some plan--it is not an actuality at all, we 
have never discussed this with the Regents at all--to acquire a 
building in Southwest, which would be a replacement for the 
large building that we lease at 1111 North Capitol, where the 
Office of Exhibits Central, mail, and a whole variety of those 
kind of activities are located. I do not know whether we can 
swing that, but that would be put and take space; again, 
relieving a lease.
    And then the last is a small item, which is the Nichols 
School, which is near the Anacostia Museum, which is surplus 
property of the District School System and would just be a 
great enhancement to the Anacostia Museum. Again, I have no 
idea whether we can, in fact, swing this, but we are trying 
hard to see whether we, on a lease or whatever, could relieve 
some of the crowding at Anacostia.
    That leaves approximately 2.5 million square feet, which I 
call ``dreams.'' They are somewhere between the next 15 and 30 
years, and I think all one can say is that they are dreams, and 
they are not ones that are, in actuality, being planned.
    So that is a report which, on the face of it, seems very 
grand. But I think when one looks at it with care, it is not 
nearly as grand as it otherwise would seem.
    Mr. Regula. How many square feet do you lease?
    Ms. Newman. We will get that for you. It is about $6 
million worth.
    Mr. Regula. You can submit it for the record.
    [The information follows:]

                  Smithsonian Institution Leased Space

    The Smithsonian Institution leases approximately 450,000 
square feet of space in buildings located throughout the 
Washington, D.C. metropolitan area.

                     backlog maintenance at the zoo

    Mr. Regula. Backlog maintenance. I know you have the $250 
million backlog that you have alluded to in the past, which did 
not include the National Zoo. Now, it is my understanding that 
there is about $65 million in the combination of Front Royal 
and the Zoo, $26 million of which is critical. How are you 
planning to address all of this?
    Mr. Heyman. I think I would ask Mr. Rice or, Connie, do you 
want to do that?
    Ms. Newman. Mr. Chairman, what has happened is that the Zoo 
has gone through the same process as the Institution, as a 
whole, analyzing the buildings and the systems in the 
buildings. So the amount that you have is a result of the total 
analysis, but priorities will be set.
    Mr. Regula. You mean the $65 million?
    Ms. Newman. $65 million, yes. The priorities will be set 
determining what requires the restoration right now because 
there is an iminent safety problem, what is active, and then 
what is less important.
    It will come to you in the same way that we have come to 
you with the Institution as a whole. So that you should not 
expect a request for the total amount because the priorities 
are quite different. In some of the buildings, it is a desire, 
but it is not of major concern to the Institution.
    We are going to submit a full report to you on the Zoo 
analysis, as we did on the Institution, when it is completed. 
When will that be? Dr. Robinson?
    Dr. Robinson. Well, it is well on the way at the moment. 
The reason all of this transpired, of course, is we have a new 
head of our Office of Construction and Maintenance, and she set 
this in place two years ago, and it takes a long time to work 
this out.
    Mr. Regula. Would the $40 million you have requested for 
maintenance include some at the Zoo?
    Ms. Newman. No. The Zoo is a separate request.
    Mr. Regula. So that would be an additional item.
    Mr. Heyman. We put in approximately $3.8 million in the Zoo 
Construction request for R&R, but that was true last year, too. 
In fact, the lion's share was for repair and restoration.
    Mr. Regula. The lion's?
    Mr. Heyman. The lion's share, that is right. [Laughter.]
    Mr. Regula. I will stop at that one. [Laughter.]
    We could have a menagerie here.

                  smithsonian management efficiencies

    One question, and then we will go to Mr. Skaggs.
    You have heard me talk a lot about management. Could you 
cite any examples where, by applying good management 
techniques, you have been able to either become more efficient 
or reduce costs?
    Mr. Heyman. Well, yes. We went through, in the first two 
years that I was Secretary, taking out a whole level of middle 
management. So we no longer have six assistant secretaries, as 
we did have when I came. We have centralized a number of those 
functions in a single office of the Provost with a smaller 
staff than existed for the totality of the assistant 
secretaries who were in that activity area, and we have done 
the same over on the Under Secretary side.
    So what we have done is to go from a circumstance in which, 
at least at the top management, we had a big horizontal line of 
assistant secretaries, we have gone to the Secretary, the 
Provost, and the Under Secretary as the decision-makers in the 
Castle rather than eight people.
    I think that, first of all, saved money just simply because 
of the reduction in numbers of positions, although the full 
savings of that is slow in terms of attrition. But I think what 
it really has done is that it has made decision-making, 
certainly in the Central Administration, a lot more efficient 
with the trade-offs occurring within offices rather than 
between multiple Assistant Secretaries, each with their own 
budget.
    Mr. Regula. Do you constantly review the things that you do 
to say is this function still appropriate in 1998? You have 
such a wide range of areas of research. You mentioned the 
telescopes. I do not know what your so-called customer base is 
for that information; likewise, what you do in Panama and 
probably things that I have no knowledge of.
    Do you have some review process to say is this function 
still--maybe it is nice--but is this still appropriate, given 
the constraints on our budget, in 1998 and future?
    Mr. Heyman. Let me turn to my two chief operating officers. 
Dennis, do you want to talk about that a little at the unit 
levels on your side?
    Dr. O'Connor. Briefly, Mr. Chairman, we meet regularly with 
the directors, and part of their planning is an annualized plan 
that they will perform during the course of the year, and that 
provides a forum for questions that you have just raised; is it 
appropriate, are there things that we are doing that we should 
no longer do?
    I guess my question to them is, are there things that you 
would like to do more than you are doing now and, if so, what 
are those and where are the trade-offs?
    I think that we can see, programmatically, a movement in 
that direction; a movement, for example, that has occurredwith 
the fusion of the management of the Environmental Research Center at 
the Chesapeake Bay with the Natural History Museum. That integration, I 
think, is going to provide a new programmatic thrust that did not exist 
before, and it will not lead to any increase in personnel.
    So unit-by-unit we do reviews, both annually and then 
during the course of the year every month in conversations with 
the directors.
    Ms. Newman. On the administrative side we do the same thing 
through the budget process. One way you get at asking the hard 
questions is, ``If you were to have a 10 percent reduction, how 
would you reduce? What would be your decision-making process 
for reducing the amount?''
    The other way in which the question gets raised is, ``What 
would you out-source?'' Now, when we ask the question ``What 
would you out-source?'' you are also asking the question, 
``What is it that you need to be doing, period?'' and then, 
``What do you need to be doing within the Institution?''
    I find that the most valuable discussions about what we 
need to continue to do internally come through the question of 
out-sourcing because it pulls people out to ask the very tough 
questions when they are attempting to defend what it is that 
they are doing and when the questions are being asked, ``Why 
are you doing what you are doing and could it be done in a more 
cost-effective way externally or do we still need to be 
providing those services?''
    The last couple of years there have been some very 
interesting and tough discussions along those lines.
    Mr. Regula. Mr. Skaggs.

                  peer review of smithsonian research

    Mr. Skaggs. Thank you. Good morning, again.
    I had in mind, and I think it follows on the Chairman's 
last question to pose what, I guess, has become sort of an 
annual question of my own about coordination of research 
activities with your sister institutions, both governmental and 
university.
    For instance, you mentioned the El Nino research in Panama. 
How have you structured what may be going on in that area to 
avoid duplication with what NOAA may be working on or NSF 
through its grantees?
    Dr. O'Connor. Congressman Skaggs, actually, it is 
interesting that much of the information on the intensity of El 
Nino has come from a cooperative work with NOAA and the 
satellites that are providing these very rich color-coded 
images on temperature of the surface water and below.
    Our scientists are using that to correlate with this rather 
substantial decrease in rainfall, and then scientists at the 
Smithsonian Tropical Research Institute have begun to do very 
precise measurements of budding and flowering--increased 
budding and flowering--as a result of the decreased water.
    All of that then is coupled together with yet another group 
of scientists, who are studying carbon dioxide fixation as a 
result of that process.
    So we try to cooperate with a number of agencies. 
Currently, for example, there are 32 visiting scientists from 
the Department of Agriculture, the Department of Commerce, and 
I am missing one other department, who are resident at the 
Natural History Museum cooperating with our scientists.
    Mr. Skaggs. The Smithsonian's research activities are done, 
essentially, in-house, as I understand it. You are not making 
grants to others.
    Dr. O'Connor. That is correct.
    Mr. Skaggs. Which then raises the question that, let's say, 
compared to NSF, in which its grants or applications for grants 
are, I believe, generally, put through a pretty rigorous peer 
review process, what is the analog to that peer review stage of 
things to sort of check on the pursuits of scientists in your 
institutions?
    Dr. O'Connor. First of all, for example, at the 
Astrophysics Lab, all of their research is almost 100 percent 
externally funded. So they go through the same kind of peer 
review process.
    At Natural History, on the other hand, most of the peer 
review process that occurs there is not so much at the point in 
which funding is obtained, but rather after the funding is 
obtained, through the internal process. The peer review comes 
from publications and the review of the scientific data, as it 
is put out into the scientific literature.
    I might also add that the scientists from Natural History, 
STRI, SAO, the Environmental Research Center, all serve as 
reviewers for the National Science Foundation, and so they are 
tied into that network and really know what is going on.
    Mr. Skaggs. One of the schools at home proudly published 
the cumulative number of footnotes which had cited research 
done by folks at the school as sort of the key leading economic 
indicator of the value of their past research. Do you all have 
a footnote barometer for the Smithsonian or is that a valid 
measure?
    Dr. O'Connor. That is a cottage industry in the scientific 
literature, sir. I might add that it has been noticed that 
sometimes those who are most often cited are being cited 
because the work was not very good. So it comes and goes.
    Mr. Skaggs. There are good footnotes and bad footnotes.
    Dr. O'Connor. That is correct, sir.
    Mr. Skaggs. Not a value-neutral commodity.

                         political correctness

    You all sort of live at the exciting intersection of, on 
the one hand, the intellectual and cultural life of the country 
and, on the other hand, here you are at the political side of 
things. So I am just wondering how political correctness is 
doing at the Smithsonian these days.
    You have had some exciting experiences in the last few 
years on that. I think, not wanting to make light of it, it is 
important for you all to continue to push the American public 
to understand itself as well as possible and not be trapped by 
too much of the political climate in doing so.
    Mr. Heyman. That has been a preoccupation of mine for the 
three past years.
    I have come to the view, Mr. Skaggs--this is especially 
relevant when we are in areas of political controversy--that we 
ought not shy away from the subject matter, but that what we 
ought to do, both in the morality of curatorship and also 
because it is politically wise, is to try to be as balanced as 
we possibly can, so that we are showing the contrary arguments 
and not just a single way of interpreting whatever the facts 
are.
    I think that that is beginning to seep into the kind of 
Code of Conduct in the Smithsonian. I think that it will be 
very interesting to see, when we have the opening of the show 
on sweatshops in May, the extent to which that has migrated.
    But I honestly believe, as I did when I taught for all of 
the years that I did, that when I was dealing with value 
collisions in teaching law or city planning, that I had an 
obligation to raise all of the arguments and not solely to 
present my own view. I think that is even more important in the 
context of museums because, at least in the context of the 
university, you have got active and lively students who pepper 
you with questions and counter-arguments, unless you are an 
absolute authoritarian in class, which is hard to do any more.
    In museums, you really do not have the opportunity for that 
kind of interaction. If your audience is going to see more than 
one side, you have got to do it yourself, and it is not going 
to come because people are asking questions or making counter-
statements.
    So we talk about this a lot. I have been writing about it, 
and making speeches, and there are conversations that have been 
going on within the Institution. Clearly, not all agree with my 
view, but I think there are more now who do than previously was 
true.
    Mr. Skaggs. Although, your reference to university life 
raises an interesting possibility that you could have curator 
office hours of sorts, where if the interested public did want 
to come in and engage with those that put things together in 
whatever way they are put together, they could have an 
opportunity to have those kinds of conversations, too, and not 
be so passive.
    Mr. Heyman. Actually, we do. We really try to give the 
opportunities often, with panels, with seminars, with programs 
in which people can interact. The problem really is that, if 
10,000 people see your show, 100 show up for such a panel, so 
that you are not reaching most of the people who go through 
your exhibition.
    Mr. Skaggs. I was sort of thinking of a little sort of like 
Peanuts-type booth saying ``the curator is in'' over at the 
side of the exhibit.
    Mr. Heyman. It sounds like a confessional. [Laughter.]
    Mr. Skaggs. One budget question; the forward funding 
request for the American Indian Museum, have we done that 
before, Mr. Chairman? Are we able to do that?
    Mr. Regula. We are taking a look at that. It is unique.
    Mr. Skaggs. I know on my other subcommittee, it is one of 
the most provocative things that can happen, to ask for forward 
funding on construction.
    Mr. Heyman. We were a little surprised when our request for 
the total came back in two parts, and I had not known that 
there was such a technique. But I now have the OMB guidance on 
the use of that technique. I have been informed, in any event, 
that this has been used in Defense appropriations, but I do not 
know if it has been used otherwise.
    But, obviously, what it does do is that it puts off to the 
next fiscal year the scoring of that amount of money. From our 
point of view, what it does is really permit us to get going 
this year. It is very tough to start construction until you 
have all of the money, and we are okay on the private side now 
because we have raised all of that money or have pledges, and 
we can put risk capital in front of the pledges. But it is 
pretty hard to start until you get the whole of the Federal 
appropriation.
    Mr. Regula. Mr. Nethercutt.

           private funding for museum of the american indian

    Mr. Nethercutt. Thank you, Mr. Chairman. Welcome, ladies 
and gentlemen.
    With regard to the National Museum of the American Indian, 
how much have you raised in private funds or have pledged?
    Mr. Heyman. We are really in the 40s or the low 50s in 
total. But for the construction of the mall museum, we have 
raised $36.6 million, which is a third. The original 
authorizing legislation proposed that the Federal Government 
would be no more than two-thirds. So we have always taken that 
as a one-third/two-third match, and we have raised our one-
third.
    Mr. Nethercutt. Are you telling us that you have, in your 
private fund-raising undertakings, raised between $40-and $50 
million?
    Mr. Heyman. Yes, sir.
    Mr. Nethercutt. Is there any reason why, notwithstanding 
the act that authorized the not more than two-thirds approach, 
that private money cannot support a greater proportion than 
one-third?
    Mr. Heyman. No, except that most of that was raised for 
specific purposes. Part of it was raised for endowment; part of 
it was raised for outreach; part of it was raised for 
activities that go on at the Haye Center in New York. In other 
words, most of it has come in semi-restricted because there is 
a campaign plan and people have given to the particular objects 
or objectives, rather, in that plan.
    So it is not so easy to move that money around, given that 
the people who contributed it contributed for specific 
purposes.
    Mr. Nethercutt. I am just thinking in terms of the budget 
restrictions we have, trying to stay within our caps, if it is 
not advisable to make that offer.
    Mr. Heyman. I understand that, sir. We did make that offer, 
and it was taken, with regard to the Suitland facility. That 
really strained our capacity to move money around because, as I 
understand it, in any event, what occurred was that the amounts 
that were unrestricted were largely used for supplementing what 
we thought was going to be entirely Federal funding for that 
building.

      architectural contract for the museum of the american indian

    Mr. Nethercutt. Is there any controversy relative to the 
construction design or architectural design of the building or 
the location of the building or any of those things on the Mall 
at this point? Have you heard any criticism or concern?
    Mr. Heyman. No. Everybody has been quite happy with the 
conceptual drawings, what it is going to look like and its 
location. We are having a little difficulty right now in our 
relationships with the team of architects in terms of finishing 
the production of the construction drawings. But my able Under 
Secretary is taking care of that beautifully.
    Mr. Nethercutt. What is the nature of the controversy?
    Mr. Heyman. I will let her explain it to you.
    Ms. Newman. The contract was let in 1994----
    Mr. Nethercutt. The architectural contract?
    Ms. Newman. The architectural contract was let in 1994 for 
work to be completed in June of 1998. The firm was Geddes, 
Brecher, Qualls & Cunningham--GBQC--with the lead architect, 
Doug Cardinal, who is Native American, and that is important 
for this particular contract for me to say that to you.
    The design was due in June of 1997, 35 percent design was 
due in June. We did not receive that design and, in fact, 
received only 20 percent design in August.
    Then the construction documents were due in December of 
1997. That meant 65 percent. We did not receive that. So we 
sent a cure notice to them in December and gave them until the 
12th of January to respond. Their response was unsatisfactory 
because there was a split between the GBQC and the lead 
architect. We, therefore, then sent a default termination to 
them in January.
    At the same time, I want you to know that there is a 
parallel operation going on, which is an analysis of what it is 
we, in fact, have; what is the cost of what has been presented 
to us and what do we need to do to ensure that this design can 
come in at $110 million, close to the date that we expected it.
    But the contractor has rights. So we have the default 
termination, and they have a right of appeal to the Secretary.
    Mr. Nethercutt. They, the architects?
    Ms. Newman. The architectural engineers have a right of 
appeal. They had until the 11th of March. They, in fact, 
submitted an appeal on March 3rd. But they have additional 
documents that they have 45 days to submit. So by the 27th of 
March they will submit those to the Secretary, and the 
Secretary then will make a final determination. If he does not 
determine in their favor, they can then go to the U.S. Federal 
Claims Court.
    So we are having the conflict, but we need to assure you 
that we are not stopping work. We have people analyzing and 
determining what it will take for us to carry this 
outinternally with some outside consultants if the architectural 
engineers do not prevail in their appeal.
    Mr. Nethercutt. What is the nature of their appeal, just in 
general?
    Ms. Newman. They are saying that, in fact, they can now--
they are talking about the future--they will get back together 
and that they can now present the design, the construction 
documents, as required, on schedule and within our costs. I 
should stop there. I do not want to get us into trouble.
    Mr. Nethercutt. I understand. I do not want to get you in 
trouble either. I am just trying to understand if there is any 
reasonable justification or whether we are wasting--it appears 
they may be some slippage here on time, and I am wondering how 
that might affect--I heard you say you might be able to stay on 
schedule notwithstanding this appeal process and so on. You 
feel that way?
    Ms. Newman. Yes, I do.
    Mr. Nethercutt. I do not know if I have any more time left.
    Mr. Regula. Yes, you have some additional time. We have 
been informal this morning.

                        national zoological park

    Mr. Nethercutt. I want to turn to the National Zoo for a 
minute. We have had a previous hearing here where we talked 
about the fire protection and suppression systems at the 
National Zoo.
    The Subcommittee was informed at the time that you were 
relatively satisfied with the system currently in place at the 
Zoo, and I heard you testify, Mr. Chairman, about the $3.8 
million to do repair and improvements at the Zoo, which 
includes upgrading the fire protection system.
    Has there been some change of heart relative to the fire 
protection system that suddenly it may not be adequate now or 
to what extent is there an adjustment in your prior thinking?
    Ms. Newman. At the time, Mr. Congressman, that we made that 
observation, we were very much concerned about the imminent 
danger because of the problem with the fire safety system, and 
we have taken care of that.
    What we are now talking about is long-term upgrading of the 
system. But the money that was used at the outset, did take 
care of the problem that we had raised with you.
    Mr. Heyman. Mr. Nethercutt, we have an appropriation for FY 
1998 of $770,000 for that, and we are seeking $120,000 this 
year. So it is not----
    Mr. Nethercutt. So it is a small----
    Mr. Heyman. It is a small amount in relationship to a 
problem which we were able, at least it appears here, to 
address last year.
    Ms. Newman. At a million dollars.
    Mr. Nethercutt. What is the million dollars?
    Ms. Newman. Well, it was the entire safety system that 
required that much upgrading, which we have taken care of by an 
internal reprogramming from the central repair and restoration 
account.
    Mr. Nethercutt. So you spent a million?
    Ms. Newman. It was close to a million.
    Mr. Heyman. Yes. In addition funds are available for fire 
detection and suppression, plus access safety and security, 
that combination, from Zoo R&R. Of that, $770,000 went into 
fire detection and suppression.
    Ms. Newman. And we did come here for the reprogramming. We 
did notify you of that.
    Mr. Nethercutt. I understand. And you want to do another 
$120,000; is that right?
    Mr. Heyman. Yes.
    Mr. Nethercutt. Last December, I am informed, there was 
some wide attention given to a female researcher at the Yerkes 
Primate Research Center in Atlanta who died after coming in 
contact with a macaque monkey infected with the Herpes B virus. 
She got some fluid in her eye, apparently.
    You have the same kind of monkey at the National Zoo, and I 
am wondering if there is any danger to the public or others?
    Dr. Robinson. There is no danger to the public. All of the 
animals are behind glass, so that won't affect the public, and 
we have strict processes for contact with the animals. As far 
as I know, there are none of our monkeys that are Herpes virus 
carriers where staff are not aware of that and would not get 
involved in that kind of contact.
    [The information follows:]

[Page 32--The official Committee record contains additional material here.]


    Mr. Nethercutt. So you are aware of it, and you are taking 
some precautions with your zookeepers.
    Dr. Robinson. Yes, we have learned that from the Yerkes 
Center. We have new regulations in place. We can provide you 
with details of that.
    Mr. Nethercutt. No, I just was concerned about it. I did 
not know if there were other people at risk, perhaps those 
folks that handle the animals there. I wanted to be sure you 
were aware.
    Thank you, Chairman.
    Mr. Regula. Mr. Skaggs, do you have any additional 
questions?
    Mr. Skaggs. No, sir.

           security at museums and collections storage sites

    Mr. Regula. A couple of things. What is the current 
condition of security at the museums and collection storage 
sites? Security takes on a lot of dimensions.
    Ms. Newman. Mr. Chairman, we have two ways of assuring 
security; one is through our automated systems and the other 
through actual personnel.
    When we have concerns about the automated system, it means 
that we are required to increase or move around a higher 
percentage of the personnel.
    In the analysis of our needs, however, we do believe that 
to bring our systems up to quality required, we need close to 
$12 million.
    One way that we are addressing that need is through the 
repair and restoration that is going on now. For example, as we 
go into Natural History, American History, when we go into 
American Art and the Portrait Gallery, we will, at the same 
time, build in the requirements for the network to support that 
system.
    The $12 million assumes, to a certain extent, that we are 
not going about it in that way. However, we had hoped at one 
time that the money that was available--the terrorism money 
that would be available to Federal agencies--would be available 
to us in order to upgrade our entire system. We are concerned 
that we do not have card access. We would like to upgrade our 
alarm monitoring. We want more closed circuit TV.
    But the truth of the matter is we are comfortable that our 
collections are safe, that the public and the staff are safe 
because we have altered the personnel balance in order to 
ensure that.
    Mr. Regula. So you would classify it as adequate, at least.
    Ms. Newman. It is for now, but the preferred strategy is 
for us to upgrade that system and be able to reduce the level 
of personnel and to have a much more sophisticated process.
    I want to say to you that we are not concerned about the 
safety. However, it is in the Institution's best interest over 
the near term to repair and to restore to the Institution a 
more sophisticated system.

                          star spangled banner

    Mr. Regula. I note, Mr. Secretary, that the Pew Charitable 
Trust has indicated an interest, as part of the millennium 
celebration, providing $5 million if it were to be matched by 
$5 million Federal to restore the Star Spangled Banner. What is 
the status of that?
    Mr. Heyman. Well, I think that Pew has gone even a little 
further than that, at least in its own mind; that should the 
Congress respond to the request that has come for millennium 
funds and should we get $3 million of that, they would be 
willing to credit some of our regular budget that has been 
utilized in relationship to the Star Spangled Banner as part of 
that $5 million.
    They have also indicated to us that they would help us seek 
to raise some additional money from other foundations. So they 
are being very cooperative, and I am really quite confident 
that the grant from Pew will come through.
    Mr. Regula. In this budget, do you have the money for the 
Smithsonian match or would that have to come in the----
    Mr. Heyman. No, we have that--not the $3 million, but $2 
million we would be able to work out from base budget, yes. We 
would not need an additional.
    Mr. Regula. But you would need the additional $3 million.
    Mr. Heyman. Yes, we would need the additional $3 million. I 
mean, we would need the $3 million, and we can find enough 
credits in American History budget for the $2 million.
    Mr. Regula. So you would need that in your Fiscal Year 
2000.
    Ms. Newman. No, 1999.
    Mr. Regula. You need it in 1999, the $3 million?
    Mr. Heyman. I believe that in the President's budget there 
is a request for $50 million next year; $25 million to go to 
Federal agencies, and we would get some portion of that $25 
million.
    Mr. Regula. So you would anticipate it would be part of 
that.
    Mr. Heyman. If that comes through, and I keep my fingers 
crossed.
    Mr. Regula. Mr. Yates.
    Mr. Yates. Thank you. Hi, how are you?
    Mr. Heyman. Hello, Mr. Yates.

                         america's smithsonian

    Mr. Yates. Hi, Mike.
    Tell me how your 150th anniversary show went. Do I have the 
impression that you came out of that with a debt?
    Mr. Heyman. We came out with a debt. We were talking about 
that before. We have come out with a debt, which we are 
reducing by a variety of means, by other kinds of arrangements 
with the sponsors; one is the NOVUS credit card. We are going 
to put whatever is earned on that towards that debt. We also 
have the possibility that is being explored by the Under 
Secretary for an international tour. It would not be the same 
artifacts, but that would be a tour, which would, if it occurs, 
be profitable, and we would apply the profit of that towards 
the debt.
    Thereafter, we would simply absorb the remainder in trust 
funds and view ``America's Smithsonian'', as the Regents have, 
as an investment of the Institution for a whole bunch of 
purposes. The Capital Campaign that will be forthcoming, and 
the Affiliations Program that seems to be picking up steam 
around the country, and the portion which we cannot match, we 
will view as an investment to get us around the country.
    But you know, Mr. Yates, that ``America's Smithsonian'' had 
over 3 million people visit it, and now it is in Washington in 
the Ripley Center. So people in Washington, D.C. have the 
opportunity to see it, too.
    Mr. Yates. How was the debt incurred? Were there not enough 
people to see the show?
    Mr. Heyman. We did not charge admission, you will recall.
    Mr. Yates. Oh, I see.
    Mr. Heyman. We based this all on sponsorships, and we did 
not get as many sponsors as we had hoped.
    Mr. Yates. I see. How long do you think it will take to pay 
it off?
    Mr. Heyman. Well, five years. That is what we have been 
thinking of--a five-year range.
    Mr. Yates. That is pretty good. It is a big debt, is it 
not?
    Mr. Heyman. It is in the 20s. I am not exactly sure where 
it is in the 20s now, but it is in the 20s.

                   condition of smithsonian buildings

    Mr. Yates. How is the condition of your buildings?
    Mr. Heyman. Do you want to talk about that a little bit, 
Under Secretary Newman?
    Ms. Newman. Yes. We have conducted a major analysis of our 
buildings; the status of the HVAC systems, the roofs, the 
facade, to determine where, given their age, where they are on 
a continuum, and we have established priorities based on the 
age of the building and the actual determination of the 
condition of the building.
    We have determined that American Art and the Portrait 
Gallery and, later, the Arts and Industries Building and the 
Castle, are the three remaining buildings that require 
immediate--or fairly immediate, within the next two or three 
years--attention.
    Mr. Yates. How much money will you need for those?
    Ms. Newman. We are saying that we really need for those 
buildings and for our buildings, generally, a level of $50 
million a year in order to bring those up to the level that is 
required and to keep the other buildings at a level required; 
that we would need to maintain $50 million a year.
    We are saying that we have----
    Mr. Yates. How many years?
    Ms. Newman. We are saying forever because, you see, we 
restored Freer and Sackler, and that is in good condition. But, 
as time goes on, the systems that were put in there will 
require attention. So we are saying there is a cycle and, given 
the cycle, it requires a certain level of investment each year 
to keep all of the 300 buildings at a status that we require.
    Mr. Yates. I hope the reporter caught the incredulity in my 
voice. [Laughter.]
    I remember, some years ago, we put money in the budget to 
pay for restoring the glass roofs of the Smithsonian buildings. 
Do you remember that? Did you ever do that?
    Ms. Newman. Do you mean for the National Gallery?
    Mr. Yates. Not for the National Gallery. I am talking about 
glass roofs----
    Ms. Newman. At the Freer. At the Freer, we did do that.
    Mr. Yates. Are they in shape now?
    Ms. Newman. Yes.
    Mr. Heyman. Yes, we are presently doing it at the Air and 
Space Museum. All of that glass is getting replaced.
    Ms. Newman. The windows.

                        smithsonian budget needs

    Mr. Yates. Is your budget adequate for your purposes? 
[Laughter.]
    Mr. Heyman. One could always use more, but, yes. If we can 
continue the tradition of getting our mandatories and our 
inflation adjustment so that we can keep up our base, we have 
the right kind of flexibility so that, in general, it is an 
adequate budget.
    Mr. Regula. Let me follow up simply to say if our 
allocation requires that there be less----
    Mr. Heyman. Then we have troubles.
    Mr. Regula. But you will be able to prioritize for us.
    Mr. Heyman. Yes, sir. If it turns out that way, I would 
appreciate what you have done in the past, which is to permit 
me to confer with you about that.
    Mr. Regula. Indeed, we will. Once we know what we are 
dealing with, we will get back to you.
    Mr. Heyman. Thank you.
    Mr. Regula. Mr. Nethercutt.

                      smithsonian research budget

    Mr. Nethercutt. Thanks, Mr. Chairman. Just a couple of more 
questions.
    How much money is spent on Smithsonian research, how much 
in your budget would you estimate?
    Mr. Heyman. We are looking it up. This is a very hard 
question. The reason that it is a hard question is that people 
who do research are also doing exhibitions, by and large, and 
it is very hard to allocate between the two.
    For instance, putting aside scientific research at the 
moment, if you are in an art museum, and there are seven, most 
of the research that occurs is in the preparation of catalogues 
for shows, and whether to think about that in exhibit terms or 
research terms is just hard.
    Also, we do research in Air and Space and in Natural 
History. In Natural History it is a little easier because there 
are some people who only do research and do not do exhibitions. 
But in most of the other places it is a mixed bag. We have been 
testing systems of having people try to put their time into 
different categories. We have only had one year of that 
experience. We are not very satisfied with it yet, but it will 
be the first attempt that we have made to discern between 
program exhibition, on the one hand, and research on the other.
    I have said in the past that, by and large, it is about 50/
50, and I think that will probably bear out.
    Mr. Nethercutt. 50/50 of what?
    Mr. Heyman. Of exhibition and research, when you look at 
that part of our--that is our output, basically; our 
exhibitions, other public programs, and research. That is what 
we do. I have thought about it in terms of something like, 
roughly, half and half.
    But, as I say, it is very imprecise because it is very hard 
to allocate amongst many of the individuals. It is a little 
like universities in that sense.

                     why smithsonian does research

    Mr. Nethercutt. I have been a reader of the Smithsonian 
Magazine. I find it very interesting. I, in fact, read an 
article some time ago on methyl bromide for agricultural uses.
    Following up on Mr. Skaggs' line of questioning and the 
Chairman's, I just was thinking we have the National Science 
Foundation; we have the Department of Agriculture; we have all 
of the universities that do, literally, billions of dollars' 
worth of research, around this country; we have NIH; we have 
tremendous resources, and I am wondering, No. 1, just for the 
record, how can you justify--I do not mean that in an offensive 
way--justify for the committee why the Smithsonian ought to be 
doing any scientific research, as opposed to feeding off of the 
other governmental resources and university resources, assuming 
that there is some substantial cost to it, and, second of all, 
is there a charge in the mission of the Smithsonian to do 
scientific research and present it?
    Mr. Heyman. The Smithsonian, really, its strategic plan, if 
you will, built in from the very beginning was the Smithson 
bequest, which is the beginning of the whole Smithsonian, and 
he left this money for the increase and diffusion of knowledge, 
and it was taken from the very beginning that increase really 
meant research. As a matter of fact, the first Secretary of the 
Smithsonian, Joseph Henry, viewed the Smithsonian solely as a 
research institution and did not see it having other roles.
    He saw it collecting some, but only in relationship to 
research, and the research product would be by scholarly papers 
and by like kinds of product.
    The second Secretary of the Institution, Spencer Baird, was 
a naturalist, and he also was the assistant secretary or under 
secretary for Henry. He had a lot of objects, natural objects, 
and he believed that not only should we be doing research on 
those natural objects--many of them were the product of Western 
exploration--but he thought we also ought to exhibit them.
    We have gone along from the very beginning balancing 
research with exhibition and other kinds of public programs.
    What happens, of course, is that we get our niches. I would 
be happy--and it is hard to do here to take us through the 
whole of the Institution--but what you find, for instance, 
presently, is that our chief research institute that is also a 
museum, which is Natural History, has a niche.
    It really is, as I was saying before, the archive of the 
United States, as far as natural objects are concerned, and I 
would say thank goodness for that because at the university 
level, as people have become more and more interested in 
molecular genetics and a variety of other experimental kinds of 
analyses, we have persisted in keeping this collection, which 
others are giving up. I can take you through universities 
around the United States that are going out of the business of 
keeping objects, systemizing in terms of those collections, and 
having them available for a whole variety of research that 
still is exceedingly useful.
    I would say that if the Smithsonian gave that up and gave 
up the associated collection management and analysis of that 
material, we would leave a big hole in the future with respect 
to the natural sciences in the United States.
    I can take you through other things that we do, which you 
can see historically how they came to pass, and what are the 
niches that they are covering. If you take the Smithsonian 
Astrophysical Observatory, which is now one of the premiere 
astronomy units in the world, it fits right into what is 
happening with NASA and with NSF because much of its funding 
comes from them, and it is a principal agency now that is 
carrying out missions for them in terms of managing those 
missions and doing a lot of the basic research that occurs.
    Part of that is historical accident, just like institutions 
always grow. If you look at what is happening at the 
Smithsonian Tropical Research Institute, it is probably the 
premiere tropical biology institution in the world, and that 
happens because of its location. It was there. It had people in 
it who were aggressive, in terms of building it. It is not 
duplicative research.
    In fact, people who are interested in that come from other 
places to it and become resident scholars and do their research 
there. But I think we could go through the whole of the science 
program in the Smithsonian and show that it is differentiated 
from others. It is related, but it has its own special niches, 
and it is darn good, and it would be a shame to give that up, 
at least from my perspective, as an undertaking.
    Mr. Nethercutt. I understand. I am not surprised that you 
would feel that way.
    Mr. Heyman. Passionately. [Laughter.]
    Mr. Nethercutt. I know.
    Mr. Yates. That is the purpose of Smithsonian, actually,is 
to do research, and if research is not to be continued, I would hope it 
would be from another institution that the research was taken away 
because that has been the Smithsonian's job, that has been its 
function, and it has been outstanding in the field of research.
    Mr. Nethercutt. I learned a lot about methyl bromide. I am 
just wondering why the Smithsonian is doing methyl bromide 
research, that is all.
    Could you, for the record----
    Mr. Heyman. Mr. Nethercutt, I doubt if we are. About ten 
percent of the contents of Smithsonian Magazine have to do with 
what is happening at the Smithsonian. It is viewed at the 
Smithsonian as an independent activity. So that most of what it 
writes about is happening outside of the Smithsonian. I would 
be surprised if we were doing that research there.
    Mr. Nethercutt. Would you kindly, for the record, advise 
the committee of the answer to the question about how much is 
devoted to research at the Smithsonian.
    Mr. Heyman. Yes, we shall.
    Mr. Nethercutt. Thank you very much.
    [The information follows:]

                    Smithsonian Institution Research

    In FY 1997 the Institution spent approximately $85 million 
or 26 percent of the Salaries and Expenses account on research.

    Mr. Regula. Anyone else?
    Mr. Skaggs. As evidence that the Smithsonian's magazine 
subject matter extends way beyond the Smithsonian, they had a 
piece, which I am actually going to give you a note about, a 
piece a couple of years ago, last fall, about Congress and 
behavior of Congress. [Laughter.]
    Mr. Nethercutt. I would like to get the citation on that 
one. [Laughter.]
    Mr. Skaggs. If there is a curator down there working on 
Congress, we really ought to know about it. [Laughter.]

                         smithsonian priorities

    Mr. Regula. I want to close the hearing, but I think Mr. 
Nethercutt has a point, and that is, whether it is the 
materials in storage, whether it is research, I think you 
should constantly have a critical analysis to determine if this 
is relevant in 1998 and prospectively in the future because it 
is all expensive. I think, as far as the eye can see, you are 
going to be constantly faced with prioritization.
    I would like to put $50 million in backlog maintenance, and 
I would like to deal with the problems at the Zoo. But to do 
that, it has to come from somewhere else. So it becomes a 
management function of saying are the 99 percent, give or take, 
of things that are in storage are they all relevant either 
today or at some time in the future, or should you be doing 
some de-accessing, I guess is the word, to avoid building new 
buildings. New buildings mean people, they mean heat, and 
light, and air conditioning, in many instances. They are 
expensive.
    Mr. Yates. Mr. Chairman, on that point, there is a rumor 
that Renwick is going to be converted to a presidential museum. 
[Laughter.]
    Mr. Heyman. There are lots of rumors.
    Mr. Yates. That is not true.
    Mr. Heyman. No, I must say that from time to time I have 
thought would it not be nice if we took all of the things in 
the Smithsonian that related to the presidency and had them 
next to the White House, but I think the obstacles to doing 
that are considerable.
    Mr. Nethercutt. Mr. Chairman, may I just interrupt?
    Mr. Regula. Yes.
    Mr. Nethercutt. I might say, too, out in Spokane, 
Washington, my hometown and the center of my district, there is 
an Indian museum that is proposed, and I suggest to you that 
the Cheney Coles Museum there would welcome, excess items, in 
the broadest sense without derogating from their value. This 
may be something to think about in terms of the other museums 
that are not Smithsonian, but are around the country who may 
welcome some of the things that you must leave in storage.
    Mr. Heyman. We would be delighted. You know we have started 
this Affiliations Program, and we would be delighted of a 
showing of interest, and then we could start a conversation, 
and I am sure something could come of it. So, please, if you 
could give them the word, we would be appreciative.
    Mr. Nethercutt. Great. Thank you, Mr. Chairman.

                         smithsonian home page

    Mr. Regula. I think it is a great idea, and you have 
pursued that path.
    In the 12,000 hits a month that you got on your Web site--
--
    Dr. O'Connor. 12 million, sir.
    Mr. Regula. Wait a minute, 12 million a month?
    Dr. O'Connor. It is 12 million, right.
    Mr. Regula. Is this all from people seeking information? 
What kind of hits do you get in that 12 million?
    Dr. O'Connor. The hits tend to follow the behavior of 
people that would visit the Mall physically. About 20 percent 
are from overseas. The most significantly visited pages are Air 
and Space followed by Natural History followed by American 
History and the Zoo. The demographics are also interesting.
    Mr. Regula. That is fantastic. Does this develop an e-mail 
message from those people that are taking advantage of your 
Internet facilities saying, ``We think you ought to have this 
on''? Constructive criticism, I guess, is----
    Mr. Heyman. Yes. Yes, quite a bit.
    Mr. Regula. Do you get some of that?
    Mr. Heyman. Yes, quite a bit.
    Mr. Regula. Other than from this committee? [Laughter.]
    Mr. Heyman. A lot of it is invited. Comments are invited at 
a number of the sites.
    Mr. Regula. Is that right?
    Mr. Heyman. Yes.
    Mr. Regula. That is very interesting.
    Well, there will be questions for the record, and we will 
be back to you on priorities.

                           visiting students

    Mr. Moran, would you like to introduce your guests here?
    Mr. Moran. They are all from Mount Vernon High School, and 
they are all the best students in the Governments Class. They 
decided, even though the President is up here speaking, that 
they would learn more by coming to this Appropriations hearing 
under Chairman Regula and listening to the Smithsonian 
Institution. [Laughter.]
    Mr. Regula. Yes, they are the brightest students. 
[Laughter.]
    Mr. Moran. That is right. That puts us in line for a grant 
some day, if we can think of something----
    [Laughter.]
    Mr. Moran. Thank you very much, Mr. Chairman, for letting 
me introduce them.

                     smithsonian media productions

    I have three small areas to ask about.
    Incidently, it is phenomenal to me how great a job Mrs. 
Newman can do with the Smithsonian and the Financial Control 
Board. This woman must never sleep. I used to know her at HEW, 
when she worked for the Assistant Secretary for Planning and 
Evaluation, and was taking care of migrant farm workers. She 
has a phenomenal record of public service.
    But anyway, let me get back to the point. One thing I 
wanted to say, is that it is so exciting what the Smithsonian 
is doing with regard to making its collections available 
throughout the country. I know you must have talked about this, 
Mr. Chairman and Mr. Nethercutt, but, boy, leading the way, 
making this truly a national institution, I just can't thank 
you enough for that kind of initiative.
    I read an interesting thing, that you are going to get into 
the movie-making business. The Washington Post reported 
yesterday that you signed an agreement to produce full-length, 
made-for-TV-movies, with Mandalay Television Pictures and 
Showtime Networks, and you are going to be drawing from your 
vast collections of artifacts and materials. You are going to 
do three films, and it is going to give credibility to these 
films, obviously.
    I want to know, is this the kind of thing that you are 
going to be expanding? Do you keep creative control over these 
movies? Is this the start of something really big or is this 
just kind of putting your foot in the water to see how it 
works?
    Mr. Heyman. That is a very good question. We have been 
dealing with a Hollywood agent, the Creative Artist Agency, 
seeing whether there was some fit between the Smithsonian and 
media of the sort that film, TV, and other kind of productions.
    We have been talking about this and looking at 
opportunities now for the last year-and-a-half. This is the 
first one that is working.
    Whether this is a harbinger of a lot that will work, I just 
do not know. I think that you put your finger on a very 
interesting fact, which is that we have to retain a 
considerable amount of responsibility for content, for all of 
the obvious reasons, and that is hard for producers and 
directors to live with when they are in the business of making 
money.
    So whether we can really pull this off, I do not know. I 
think this will be a very interesting experiment to see whether 
this works well. I hope we will because, if we do, that means 
that is yet another way that the Smithsonian can get out with 
its materials and its stories.
    Mr. Moran. Yes. Good.

                         smithsonian home page

    The second area was getting the Smithsonian on line--
getting all of this wonderful material on line. A lot of people 
are asking us, they see a little bit of it, and they are asking 
how much are you putting in to getting it all on line? You have 
got another $3 million for digitization in the budget. Are you 
going to make exhibits, virtual exhibits, on-line to people 
around the world that may not be able to come to Washington, 
but could experience it through the Internet?
    Mr. Heyman. We are doing two things at the moment; one is 
we are putting exhibitions on line, and we have a number on 
line now, and we are even designing one that is specifically 
for the Web. It is not simply replicating an exhibition in a 
museum.
    Secondly, we are trying to digitize as many two- and three-
dimensional objects as we can in the Smithsonian and have them 
available for people to see, together with explanatory text. 
The monies that we are seeking, in terms of our base, are 
largely to enlarge that number of digital images and have them 
in a system in which you or I or anybody else who wishes can 
find them and find something about them that accompanies the 
image.
    Mr. Moran. Again, that is terrific, and it broadens the 
base of support for the Smithsonian.
    One last area.
    Mr. Heyman. Yes, sir.

                        national zoological park

    Mr. Moran. That is the National Zoo. There is a report out 
recently that shows that about four of the parts of the 
property there are in serious need of repair, and we have 
people throughout the Metropolitan Washington area that are 
concerned about this.
    They put in money through FONZ, and I know you get some 
private contributions. I doubt the private contributions 
represent a lot in terms of percentages. Are the animal 
habitats compromised by the current conditions at the facility 
and is there enough money in this budget to upgrade those 
facilities that came out wanting in the last report that just 
came out? That is, the last area I am going to ask about, Mr. 
Chairman.
    Ms. Newman. I think we can say that we are comfortable that 
this request, in addition to a request that we will be making 
in the future based on an analysis of all of the facilities 
there, will be adequate for the Zoo.
    We are not concerned about the health and safety of the 
people working there or the visitors, nor are we----
    Mr. Moran. I think, actually, these people are more 
concerned about the animals.
    Ms. Newman. Well, I was going with the animals. Nor are we 
concerned about the conditions for the animals. What we do 
know, though, is that, given the age of the facilities,that we 
are going to have to go through the same kind of analysis there as we 
have gone through for the rest of the Institution, and we are in the 
process of doing that.
    I do not know if the director wants to add----
    Dr. Robinson. Well, certainly, I do not think any animals 
are in substandard conditions at all anywhere in the Zoo.
    Mr. Moran. They all seem pretty happy, especially that 
gibbon. But you do not know, and, apparently, the report 
implied that some of the habitats may be compromised, but I 
doubt that you would let that happen.
    Dr. Robinson. No. In the short-term, there are repairs 
needed, and this has been accumulating, as with the rest of the 
Smithsonian over the years, and we have been very assiduous in 
dealing with this. I think you will find--we should invite you 
to come and have a look at the Zoo and its new image and see if 
you feel that.
    Mr. Moran. That is terrific. This is probably the only 
group of witnesses that would use terms like assiduous or as 
impressive as assiduous. [Laughter.]
    Mr. Regula. They hope they are. [Laughter.]
    Mr. Moran. Thank you. You are doing a great job in every 
aspect. And all of the people that work with you I think are 
just really professional, first-class. So thank you.
    Thank you, Mr. Chairman.

                            Closing Remarks

    Mr. Regula. I want to thank all of you. We have had a good 
hearing, and we will be communicating with you once we know 
what our priorities are as a committee, so that we can achieve 
the best possible use of the funds available.
    I hope that you will continue to evaluate all of your 
operations to make them as cost-effective as possible. I always 
remember in World War II when they issued stickers to everybody 
to put on the dashboard of your car that said, ``Is this trip 
really necessary?'' because of the enormous fuel shortage. I 
think you have to take the same approach in any institution; is 
this function really necessary? Is it serving a good, useful 
purpose?
    Thank you. We are recessed until 1:30.
    [The following questions and answers were submitted for the 
record:]

[Pages 44 - 73--The official Committee record contains additional material here.]


      

=======================================================================


                        National Gallery of Art

=======================================================================

      

[Pages 77 - 83--The official Committee record contains additional material here.]


      

=======================================================================


                         John F. Kennedy Center

=======================================================================


[Pages 87 - 104--The official Committee record contains additional material here.]


      

=======================================================================


                    National Endowment for the Arts

=======================================================================

      
                                          Thursday, March 12, 1998.

                    NATIONAL ENDOWMENT FOR THE ARTS

                               WITNESSES

KATHRYN O'LEARY HIGGINS, ACTING CHAIRMAN, NATIONAL ENDOWMENT FOR THE 
    ARTS, AND DEPUTY SECRETARY, DEPARTMENT OF LABOR
SCOTT SHANKLIN-PETERSON, SENIOR DEPUTY CHAIRMAN, NATIONAL ENDOWMENT FOR 
    THE ARTS

[Pages 108 - 109--The official Committee record contains additional material here.]


    Mr. Regula [presiding]. We're underway here.
    We're pleased to welcome Kathryn Higgins, am I right?
    Ms. Higgins. It's Kitty Higgins.
    Mr. Regula. Kitty Higgins, and Ms. Scott Shanklin-Peterson, 
am I right?
    Ms. Shanklin-Peterson. That's correct.
    Mr. Regula. Okay. Well, we're pleased to welcome you here 
today. Your statements will be made a part of the record, and 
so if you'd like to summarize for us. You may proceed.
    Ms. Higgins. Thank you, Mr. Chairman. It's a pleasure to 
meet you and to be here today.
    I've been serving as the Acting Chair of the National 
Endowment for the last 5 months. As you know, since Jane 
Alexander resigned last fall, the President had to ask someone 
who had been confirmed by the Senate to serve in this capacity. 
So in my day job, I'm the Deputy Secretary for the Department 
of Labor. But it's a lot of fun for me to work with Scott and 
her team.

             membership of the national council on the arts

    One of the things that I've had to do, working with Scott 
and others, is to help convene the National Council. We met 
just a couple of weeks ago and welcomed six new members--
colleagues from the House and Senate--to serve as new members 
of the Council. As you may recall from last year's 
appropriations bill, the size of the Council was reduced. When 
we added the six new members----
    Mr. Regula. I had a little to do with that.
    Ms. Higgins. I thought you might have.
    One of the things that I think we've discovered and I think 
we would like to work with you on is the fact that by reducing 
the size in terms of voting members, there are a number of the 
disciplines that right now don't have expertise represented on 
the Council. So I think we would like to talk to the committee 
about taking a look at that as to whether it might not make 
sense to expand it a little bit to give us the opportunity to 
make sure all of the disciplines that the Endowment deals with 
are covered.
    Bill Ivey, who has been nominated, and with whom I think 
you have had a chance to meet, will hopefully be confirmed by 
the Senate soon. He's, I think, going to be a great addition 
and a great chair.
    The two messages that we heard most clearly from the new 
members--new colleagues--of the Council, were the need to 
expand the reach of the Endowment to communities that are 
under-served and to focus more on arts education. Those are two 
things that I know are probably not new issues to you, but we 
had, I think, a very good discussion with your colleagues and 
members of the Council about those two areas as priorities. 
Scott and I are both prepared to talk today about how we expect 
to do that.

                  museum in grand forks, north dakota

    I wanted to share with you and for the record the 
experience I had last year when the city of Grand Forks, North 
Dakota, as you may recall, was affected by the floods, and how 
devastating that was to them. I think everybody in the country 
saw the effect of the floods and the fires on that city. One of 
the facilities that was preserved miraculously in Grand Forks 
was the North Dakota Museum of Art. It is a NEA grantee, and I 
spoke today with its director. Their story is, I think, 
emblematic of what the NEA is all about.
    The North Dakota Museum of Art is a museum that showcases 
contemporary artists. When the city was basically under water, 
and in the aftermath--and they are still cleaning up out 
there--the arts museum became a community center. Church 
services are held there. The dance companies now practice 
there. Various community groups meet there on a regular basis. 
It already was, in many ways, the heart and soul of the 
community, but after the devastation, it has become even more 
so. The director asked me to tell you that in Grand Forks her 
museum is a tremendous advocate for the NEA because it has 
allowed them to bring things to North Dakota that would 
otherwise not be there. Not only, you know, the museum itself, 
but also the kinds of art and experiences that folks in that 
part of the country don't often get to see.
    Mr. Regula. I suggest she write me a letter with that 
information.
    Ms. Higgins. Absolutely.
    Mr. Regula. I'd like to have that.
    Ms. Higgins. She would. She's more than happy to share 
their experiences with you. She said to me--and you can 
appreciate this from the part of the country you come from--she 
said, you know: the Chicago museum calls her about wanting to 
see if the museum in North Dakota is interested in photography 
exhibits of farmers. And she said: ``We know all about farmers 
in North Dakota, we want to experience other things.'' So she's 
had many, many other exhibits and she's willing to be a very 
strong advocate for the Endowment.

                          artsreach initiative

    Let me just mention in terms of under-served communities, 
ArtsReach, which Scott will talk about, is a brand new 
initiative that will do much, I think, to make sure that the 
Endowment's work reaches all parts of the country that are now 
under-served. That is something we're very excited about. Part 
of the new money that the President is requesting over last 
year's appropriations will go in substantial measure to support 
the ArtsREACH effort.
    Mr. Regula. I'd like to make a suggestion at this juncture. 
Whenever a grant is made, please send a notice to the Member 
whose district is affected.
    Ms. Higgins. You know, we've----
    Mr. Regula. I think Members would welcome that and it would 
broaden the base of support for this program.
    Ms. Higgins. Absolutely. That's an initiative, and we've, 
again, heard from your colleagues. It is something they were 
very concerned about. We will do that. I think it's already 
done, but I think we probably need to work at it harder and 
make sure that the Members are contacted directly and that we 
do a coordinated press effort to make sure you know what's 
being done.

                   endowment and conference of mayors

    So, we've also, as you perhaps know, worked very closely 
with the Conference of Mayors to make sure that the cities in 
this country are working closely with the Endowment to make the 
arts available in their communities. And that's, I think, been 
a very positive effort. I was part of an award celebration a 
few weeks ago where the mayors from all across this country 
recognized the contributions that were being made in many 
places by the Endowment. In particular, Senator Gorton and 
Congresswoman Louise Slaughter were singled out by the mayors 
as two Members of Congress who had done a lot to help them in 
preserving arts in their communities.

                   leonard slatkin and arts education

    Arts education is an area, again, we could all agree is 
extremely important. The Endowment spends money in this area. I 
think the State Arts councils probably do a lot of work as 
well. It's an area where the new money the President has 
requested would do more. Leonard Slatkin spoke to our Council 
recently. He's the wonderful, relatively new director of the 
National Symphony, and he talked aboutthe high school that he 
went to in Los Angeles. When he was in high school there, he said that 
there were three choruses, two bands, and one orchestra, all in one 
public high school in Los Angeles. He said, now it's been two 
generations since citizens of much of our public schools have had the 
benefit of those kinds of programs. He said his old school is now an 
armed camp. So he is a big proponent of arts education. He talked to 
the Council about the kind of work he hopes to do here in Washington in 
terms of arts education. He's somebody else who the committee may want 
to talk to in terms of his views on arts education.

              NEA PARTNERSHIPS WITH OTHER FEDERAL AGENCIES

    One of the areas that we are working on at the Endowment is 
how to involve other Federal agencies. The Department of Labor, 
for example, does a lot of work with unemployed and 
disadvantaged young people. The arts are something that we have 
supported in certain communities. We've got a terrific program 
in upstate New York, in Poughkeepsie where they have used some 
of the Federal money that we provide to match with the funding 
from the New York State Arts Council to make sure that young 
people get some exposure and training in skills that they can 
then use in the labor market.
    We at the Labor Department are about to sign a memorandum 
of understanding with the NEA, again so we can work more 
closely in partnership on things like arts education for young 
people. There are now 30 agreements that the NEA has with other 
Federal agencies to work in partnership and expand the reach of 
the Endowment.

                       NEA ADMINISTRATIVE BUDGET

    Let me say that--and Scott will make a few remarks--one of 
the things that I've been struck by in my brief tenure working 
with the NEA is in fact how effective this organization is. I 
know there's a lot of concern about administrative funding. But 
the NEA has just 150 employees for its $98 million budget. The 
Labor Department, which is the agency I serve as Deputy 
Secretary, has 17,000 employees and a budget of $35 billion. 
The NEA last year awarded 1,000 grants and manages another 
4,200 or so at any given point in time with those 150 
employees. The Labor Department, and admittedly we are an 
enforcement agency as well as a grant making agency, last year 
awarded 1,300 grants, so just a couple hundred more than the 
NEA, and yet we have a much larger resource base and a much 
larger field structure, frankly, to do our work. Now, I'm not 
suggesting that you fund the NEA--[laughter]--at the expense of 
the Labor Department. But I am saying----
    Mr. Regula. I thought we were going to fund the Labor 
Department on the basis of their size. [Laughter.]
    Ms. Higgins. That's what I'm worried about. So I want to, 
for the record, make sure that we're coming for more too.
    But my point is, that when we talk about administrative--
how much is spent on administrative funding--I think we have to 
look at the workload of the agency. And one indicator is the 
number of grants, plus all the other wonderful work they do. 
So, I want to just say that for the record.

                     FY99 FUNDING FOR THE ENDOWMENT

    And I would also hope this year that the committee and the 
House would actually be able to pass an appropriations bill for 
the Endowment because I do think it's important that the agency 
be fully funded. I know we worked it out in conference last 
year, but I think it would be great to see if we could get some 
funding this year.
    Let me stop there and ask Scott to talk to you about some 
of the other work we are doing.
    Ms. Shanklin-Peterson. Thank you, Kitty, and thank you, Mr. 
Chairman, and members of the committee. I really appreciate the 
opportunity to testify today about the importance of the 
National Endowment for the Arts where I serve as Senior Deputy 
Chairman. Since the retirement of our former Chairman, Jane 
Alexander, I've been serving as the chief operating officer and 
we have certainly enjoyed working with Kitty Higgins and 
appreciate the Department of Labor allowing her to have this 
second job as our Acting Chairman.

                  ENDOWMENT EFFORTS IN SOUTH CAROLINA

    Before joining Jane Alexander's staff in 1996, I was 
Executive Director of the South Carolina Arts Commission for 13 
years, and on the staff 8 years prior to that. So I've had 21 
years of experience working with State and local leaders to 
develop the State's cultural resources and ensure that the arts 
are a basic part of each child's education in South Carolina. 
So I know first hand how important the Endowment has been to 
the development of the arts and arts education in South 
Carolina and many other states.
    The Endowment, through our partnership grant to the State, 
helped to develop local arts agencies and local arts centers in 
about 50 rural communities such as McCormick, and Anderson, and 
Camden. Through a direct grant from the National Endowment for 
the Arts, the Endowment was the first investor in the Spoleto 
Festival, USA, in Charleston which is our Nation's leading 
international arts festival. It has an economic impact 
estimated at over $73 million per year for that city. And I've 
heard Mayor Joe Riley from Charleston say many times that 
Spoleto Festival, USA would not have happened in Charleston 
without the National Endowment for the Arts.
    And because of the National Endowment's leadership and 
support in the areas of arts education, South Carolina's 
schools now have one of the country's strongest arts education 
programs. And just last night, I received at home, totally 
unsolicited, an article from a newsletter sent by a former 
representative in South Carolina, Harriet Keyserling, that is 
from her school district in Beaufort County, South Carolina, 
where they have 19 schools. They currently have 75 full-time 
arts specialists working in their schools, and they have an 
aggregate of 65 weeks of artists in residence in those schools, 
which is really truly amazing. And this would not have happened 
without the leadership from the National Endowment for the 
Arts.

                   PRESIDENT'S REQUEST LEVEL FOR FY99

    The mission and support of the Endowment is really vital to 
the future of our country. And I'm honored to be here today to 
support the President's request of $136 million next year for 
our agency. The Endowment is a very small agency, as Kitty has 
pointed out, but it is still the Nation's largest single source 
of funding for the non-commercial arts. It's the engine that 
drives other public and private investment in the arts and we 
boost the economy.
    I want to thank you, Mr. Chairman, as well as your many 
colleagues and let you know how much we appreciate the hard 
fight that you fought to preserve the National Endowment last 
year and to create a workable, bipartisan compromise that 
enabled our 1998 funding to go forward.
    The President has requested an additional $38 million, and 
that will enable us and Congress to help communities preserve 
and celebrate America's living cultural heritage--a goal that 
is shared by millions of Americans in every region. It will 
also permit us to expand our new pilot program,ArtsREACH and it 
will enable the Endowment to continue supporting learning opportunities 
for the arts for our children and support creative alternatives for 
youth at risk. And through our partnerships with our State Arts 
agencies and regional organizations, we will be able to expand access 
to the arts across the country.

                          ARTSREACH INITIATIVE

    Mr. Regula. Tell me about the ArtsREACH Program since you 
mentioned it.
    Ms. Shanklin-Peterson. Okay. That was what I wanted to talk 
about next. I know that you all have been very concerned about 
the distribution of dollars from the Endowment across the 
country and we have as well. And one of the programs that we 
have just started, and I'm pleased to announce it today, is an 
initiative called ArtsREACH. We will pilot this program this 
year with 1998 funds. It's a new grants program for communities 
in States that we consider to be under-represented in our pool 
of direct grants and it is accompanied by targeted technical 
assistance. It was approved by the National Council on the Arts 
at their meeting 2 weeks ago, and, as Kitty said, it was 
approved with very enthusiastic support from the new 
congressional members.
    The purpose is to strengthen the role of the arts in 
communities, and to increase support for the arts, and to 
broaden the geographic distribution of the National Endowment's 
direct grants. We have designated 20 States that we consider to 
be under-represented as they have received five or less grants 
either this year or last year.
    We've also developed at the Endowment a staff technical 
assistance team that will travel to these States to provide 
technical assistance, and to conduct workshops.
    Mr. Regula. There are 20 States that had five or fewer 
grants.
    Ms. Shanklin-Peterson. That's direct grants.
    Mr. Regula. Direct grants, yes.
    Ms. Shanklin-Peterson. They still received the funding for 
their partnership agreement with the State arts agencies in 
addition to that.
    Mr. Regula. No, I understand that. So this is designed to 
reach out.
    Ms. Shanklin-Peterson. This is designed to reach out to 
those 20 States. And then we will also we will send our staff 
out to provide technical assistance so that we can help those 
organizations submit additional competitive grants. And we'll 
be working closely with the State and local arts agencies as we 
do that. Just this past week we had one staff member that spent 
3 days in Tennessee working with organizations there. This week 
the Director of our Guidelines Office is in South Dakota and in 
North Dakota, and in a couple weeks, one of our staff members 
will be in Alabama touring the State with the State's arts 
agency director and also a member of Senator Sessions' staff. 
And Senator Sessions was interested in the ArtsREACH program. 
He wanted to make sure that people in Alabama were aware of it.
    It will provide grants to arts organizations and 
communities in these targeted States, and we hope to be able to 
reach about 75 to 100 communities this year. The objective is 
to help community leaders use the arts to build stronger 
communities, and to revitalize the role of the arts in their 
communities, and to really increase their commitment to 
supporting the arts.

                 ROLE OF THE ARTS IN COMMUNITY PLANNING

    One example is in Rock Hill, South Carolina, which is a 
small city that's located about 15 miles from Charlotte, North 
Carolina. In the late-1980s, they had 17 percent unemployment, 
and they had 12 textile mills that closed. The Mayor, Betty Jo 
Rhea, in the late-1980s attended the Mayor's Institute on City 
Design, a program that the Endowment began in 1986 to help 
mayors use design to address community problems. She came back 
very inspired. She brought the community together, and they 
developed a comprehensive plan to use the arts and design to 
revitalize downtown Rock Hill and to improve the economy of 
Rock Hill. In 1991, based on the strong plans that they had 
developed there, the National Endowment for the Arts awarded 
them a $150,000 grant which was then matched by $600,000 in 
local government and private sector support from the Rock Hill 
area. Now today, they have outdoor sculpture throughout the 
city, they have a new arts center, they have artist studios on 
Main Street, and they have an annual arts festival. They also 
have a two booming industrial parks, and they have low 
unemployment rate of 2.2 percent. So Rock Hill has become a 
community where people want to live. It's become a community 
where industries want to locate. Mayor Rhea credits the 
National Endowment for the Arts for stimulating this 
development.
    This is only one example. There are others, such as 
Shreveport, Louisiana; Rapid City, South Dakota; and many other 
communities across the country that have been involved in 
community cultural planning.

                          ARTSREACH INITIATIVE

    In addition, we hope that ArtsREACH will help these same 
organizations become more competitive not only for Endowment 
funds but also for local government funds, for State funds, and 
for funds from the private sector. Research that has been 
conducted by Americans for the Arts, which is our partner in 
this project, indicates that local arts agencies in communities 
where cultural plans have been developed are able to raise 33 
percent more funding than those that have no such plans.

                      STATE ARTS AGENCIES' FUNDING

    Mr. Regula. How many States have a State arts agency, and 
do they all support them with State funds?
    Ms. Shanklin-Peterson. All States have State arts agencies. 
And yes, they definitely supporting them. This year they are 
support them at a total of about $306 million, which is a 12 
percent increase over last year. So I think that really 
reflects strong public support for the arts throughout the 
country.

                  EXPANSION OF NEA GRANT DISTRIBUTION

    We're proposing that we allocate $20 million of the 
President's proposed $136 million budget request to support 
ArtsREACH so that we can expand the number of communities that 
we'll be able to reach next year, in 1999, so we can provide 
funding for the specific grant applications that they would be 
developing through the ArtsREACH process this year, and also be 
able to support other project applications from the 20 States.
    We've taken a number of other actions to expand the 
distribution of our grants. We have review panelists that will 
be recruited from all of these under-represented States. We 
have made sure that panel appointments are made from all of the 
States in the country and that they are all represented. We 
have added geographic impact to our review criteria. And we've 
worked with the State arts agencies to design a new Folk Arts 
Infrastructure Initiative which will reach over 30 States this 
year. And the millennium projects which we will be funding this 
year will be designed to reach all 50 States. And also, in 
accordance with the Congressional directive, we are monitoring 
our grant awardsto make sure that no more than 15 percent is 
awarded to any one State, excluding the multi-State grants.

                      reach of multi-state grants

    I want to stress the importance of our multi-State grants. 
Congress asked us to establish a category to support grants 
that have a multi-State or national impact. This is one of the 
most important roles that the Arts Endowment can play, and 
that's helping arts organizations to share their living 
cultural heritage across State lines. You have a map in front 
of you which illustrates just three grants that the Endowment 
has funded in the past and the outreach that these three grants 
have. There is the National Dance Project that's located in 
Boston for which we provided a $1 million grant to the New 
England Foundation for the Arts.
    Mr. Regula. You'd better wrap up in about 2 minutes because 
we're going to have to go and vote.
    Ms. Shanklin-Peterson. Okay. This supported 117 different 
dance performances in 32 States last year. So although the 
grant went to Boston, the impact was felt Nationwide. The 
Chronos Quartet from San Francisco received a grant tour to 13 
communities across the country. The Minneapolis Children's 
Theater received a grant to develop the Mark Twain Story Book 
and tour 35 communities in 9 States.
    [The map follows:]

[Page 118--The official Committee record contains additional material here.]


                             arts education

    The other thing I would like to mention real quickly is 
arts education. You know that this is a priority of our agency. 
And we believe that all children should have a sequential 
education in the arts that is linked to content standards and 
taught by qualified teachers and also regularly engages artists 
and arts organizations. We've worked closely with organizations 
at the national level. And Principal Magazine this month 
features--its total issue--is related to arts education. We 
have a strong partnership there. And we've also developed a 
brochure which you have in front of you that outlines the 
Endowment's arts education program.
    Mr. Regula. We'll have to suspend here while we vote. And 
we'll reconvene as soon as we finish voting.
    [Recess.]
    Mr. Regula. Well, we'll reconvene. I hope we don't have 
another vote for a while. Are you finished? Would you like to 
say anything further?
    Ms. Shanklin-Peterson. I think I'm fine. Thank you.
    [The information follows:]

[Pages 120 - 125--The official Committee record contains additional material here.]


               implementation of 15 percent per state cap

    Mr. Regula. Okay. I just wanted, initially, to talk about 
the changes that we made in the 1998 bill. Is the 15 percent 
cap working out? Of course, it's probably too early to know.
    Ms. Shanklin-Peterson. It's working.
    Mr. Regula. And I think you have enough----
    Ms. Shanklin-Peterson. And we're able to track the grants 
that we're awarding to each State.
    Mr. Regula. I think the ArtsREACH Program will probably 
broaden the base considerably, from what you are telling me 
about it.
    Ms. Shanklin-Peterson. It will.
    Mr. Regula. And I presume that the States are pleased to 
have a little extra percentage of the distribution.
    Ms. Shanklin-Peterson. They are.
    Mr. Regula. How are their budgets going, generally? Do you 
know? I know Ohio is up.
    Ms. Shanklin-Peterson. Right, they're going up. They are up 
by 12 percent this year.
    Mr. Regula. Overall.
    Ms. Shanklin-Peterson. Yes, that's correct.

              congressional representation on the council

    Mr. Regula. It's probably too new to know how well it works 
out, but I would think having Members of the House and Senate 
on the council should, in the long term, work out well.
    Ms. Higgins. I should think--I think both sides were a 
little uneasy.
    Mr. Regula. I understand.
    Ms. Higgins. But I think it was successful--there was a 
very good discussion. And I think, as Scott mentioned, Senator 
Sessions is very interested in expanding the reach of the NEA. 
His folks are going down to Alabama with folks in the NEA to 
try and see what they can do down there. So I think it's going 
to work. Congressman Ballenger had some very good suggestions 
about what can be done. He made the same point you did in terms 
of making sure Members of Congress are notified personally of 
grants. I think, in terms of the kinds of grants that are being 
made, that there just isn't an awareness that would be helpful 
to have.
    So I think it will be very beneficial for the Council and 
the Members.

                  size of national council on the arts

    Mr. Regula. Good. Good. You mentioned about making the 
Council smaller. The reason I did that was, of course, to 
accommodate the fact that we had the six legislative members, 
plus the fact that sometimes a smaller unit can be more 
effective. But I believe I heard you say you would rather 
expand it.
    Ms. Higgins. Well, one of the concerns--and Scott may want 
to comment on this as well--that I heard talking to members of 
the Council was that the Council is made up of people from a 
variety of disciplines because the reach of the NEA is so 
broad. And so they were feeling, I think, because of the fewer 
members, that there were just some areas--dance, literature, 
and design were three in particular--where members have now 
left the Council, and because of the smaller size they are not 
going to be replaced. So, perhaps over time it will even out. 
But I think the feeling was if it could be expanded a little 
bit, not necessarily back to the size that it was, because, you 
know, I think a smaller group is probably more manageable, but 
to make sure that there is enough breadth in terms of the 
membership of the Council. Also the Congressional members are 
nonvoting, so it's important to have voting members who can 
actually speak to the quality of some of the presentations. And 
that's what I was hearing from the Council members; that they 
missed having somebody on the Council as part of the review 
process, who knew design, who knew dance, or who knew 
literature first hand.
    Mr. Regula. Well, I suppose we'll not try to change it this 
year. And maybe with a little time we can work that out.
    I've got to suspend a minute. These two young ladies are 
from my district, and constituents come first.
    Ms. Higgins. Sure, absolutely.
    Mr. Regula. And they are quite interested in the arts. I 
had lunch with them. They are Presidential Classroomseniors in 
high school, so I told them to come back and listen in, but I'll go get 
a picture with the Capitol in the background. I'll be right back.
    [Recess.]

                             arts education

    Mr. Regula. Okay. Well, you mentioned you're doing under-
served areas. That's part of the outreach program. And are you 
getting education emphasis? I think so, from what you said.
    Ms. Higgins. Yes. I think that's clearly a priority. Again, 
with the increase that the President has asked for, ArtsREACH 
and arts education will be the two focus areas for that 
additional money.
    Mr. Regula. No more votes today.
    Mr. Yates. No more votes today. Ah. [Laughter.]
    Mr. Regula. I'll call on you, Mr. Yates, because you 
probably want to go home.
    Mr. Yates. No, I mean on this agency?
    Mr. Regula. No, no; I mean that's why I'm going to give you 
the time next.
    Mr. Skaggs. I was here first, and I want to yield to Mr. 
Yates. [Laughter.]
    Mr. Yates. I think you ought to yield to him, Mr. Chairman, 
so he can yield to me.
    Mr. Regula. Alright, I yield to Mr. Skaggs.
    Mr. Skaggs. Mr. Chairman, I observed Mr. Yates coming over 
from the vote that until he was here, we really didn't have a 
hearing on either NEA or NEH. He constitutes----
    Mr. Regula. I was wondering if you were going to make it?
    Mr. Skaggs. He constitutes a quorum. So, I'm delighted to 
yield to Mr. Yates.

                    endowment hearings in past years

    Mr. Yates. Well, that's very kind of you. I appreciate your 
yielding. And I appreciate your yielding, too, Mr. Chairman.
    I have, oh, for a few years been affiliated in some 
respects with the National Endowment for the Arts and the 
National Endowment for the Humanities. I'm delighted to do it 
again, although I think this is probably the last time I will 
engage in it. And I feel sad because of that. Because I used to 
love these hearings. They were wonderful hearings. We used to 
have--I don't know whether you do still have the heads of your 
various arts departments with you as witnesses. I used to ask 
you to bring them here--the dance, the theater, the opera. Are 
they with you today?
    Ms. Shanklin-Peterson. There are a few of them that are 
here today. But they are not here as witnesses as I understand 
it.
    Mr. Yates. Yes. I don't know about your staff now. I'm sure 
that----
    Ms. Higgins. Much smaller, Mr. Yates. [Laughter.]
    Mr. Yates. Well, that's the difference in chairmen, I 
think. [Laughter.]
    Mr. Regula. The hearings are a little shorter. [Laughter.]
    Mr. Yates. What?
    Mr. Regula. The hearings are a little shorter.
    Mr. Yates. Well, okay. But, you know, he's come a long way. 
[Laughter.]
    I remember when he barely went to a ballet; barely went to 
a symphony. But he does now; the Cleveland Symphony, the Canton 
Symphony--he's very much aware of it. And I think that's great. 
So you did start the education process that you speak of before 
this. As a matter of fact, Mr. Murtha also went with him, I 
think to most of these occasions.
    Mr. Regula. I even went to an opera.
    Mr. Yates. You went to an opera in New York. The Met.
    Mr. Regula. That's right.
    Mr. Yates. Yes. That was good, wasn't it?

                 funding for amateur arts organizations

    Mr. Regula. But our ballet company, which is composed of 
amateurs, will now get some funding. So that makes a 
difference.
    Mr. Yates. Well, I've been trying to do that for years. You 
see, you're more effective than I am. [Laughter.]
    I don't know any reason why good amateurs are never funded. 
Do you know any good reason why good amateurs were never 
funded?
    Ms. Shanklin-Peterson. Well, we have some examples of 
grants that are funding amateurs; that are funding youth 
choruses, and----
    Mr. Yates. In previous years?
    Ms. Shanklin-Peterson. Well, in recent years.
    Mr. Yates. In recent years, yes.
    Ms. Shanklin-Peterson. I don't know about long ago.
    Mr. Yates. I remember I went after Livvy Biddle for that 
and Nancy Hanks and their successors. We went after them 
because, I've seen some of the most marvelous plays, the most 
marvelous dances, and have listened to the most marvelous 
concerts by amateurs.
    Ms. Shanklin-Peterson. Part of the problem is the resources 
available.
    Mr. Yates. I know.
    Ms. Shanklin-Peterson. This year we can fund only about 25 
percent of the grant funds that have been requested.
    Mr. Yates. I know. Right. Well, it is to be hoped. I'm told 
by my secretary that I should never use the word hopefully; it 
is to be hoped--that there is no such word as hopefully, 
actually. Actually, no hopefully. [Laughter.]
    So, you were a teacher, weren't you, Mr. Miller?
    Mr. Miller. Yes.
    Mr. Regula. Statistics. [Laughter.]
    Mr. Yates. I won't ask you then. [Laughter.]

                     fy99 funding for the endowment

    At any rate, it's always a joy to come to these hearings 
because I know that there is hope of getting funding for them 
as a result of hearings like these. And I wish there was some 
way of increasing it. But I don't know there is. We're facing 
cuts in the budget for almost every agency, and while these are 
the most popular agencies with me, they aren't with most 
Members of Congress unfortunately, and with Mr. Skaggs I must 
say; and gradually with Mr. Regula, I think. [Laughter.]
    I think Mr. Miller is showing interest too. You know the 
other agencies that are closer to the hearts of most Members 
are being cut, and I suspect that this may suffer a little bit 
too. At any rate, it may suffer but it will still live, and 
that's the important thing; survival. We've had questions of 
survival in a number of years. And we're going to do it. 
Certainly this year, we're going to do it. Aren't we, Mr. 
Chairman?
    Mr. Regula. Well, 435 Members have to help make that 
decision.
    Mr. Yates. Well, I wasn't asking 434 others. [Laughter.]
    I was trying to get you to commit yourself.
    Mr. Regula. I think it's a possibility.
    Mr. Yates. Yes, okay. Well that's--I'll accept that.
    Mr. Regula. Hopefully. [Laughter.]
    Mr. Yates. Well, you can see the chairman has a sense of 
humor, and anybody with a sense of humor has got to have an 
interest in the arts. [Laughter.]
    So, at any rate, how are you doing? I address myself to 
you.

                    distribution of endowment grants

    Ms. Shanklin-Peterson. Hopefully very well. [Laughter.]
    I think the agency is doing very well.
    Mr. Yates. Is it?
    Ms. Shanklin-Peterson. We could do a lot better with 
additional funds. And before you came in, we were talking about 
the new ArtsREACH initiative, and trying to really broaden the 
distribution of our funds to about 20 States that we consider 
to be very under-represented in our grant pool.
    Mr. Yates. I don't know whether you distributed this copy 
of an article from Arts and Leisure of the New York Times about 
what happened to Grand Forks after the floods. But, I think it 
is marvelous. I remember that during World War II--during the 
bombing of Britain in the bomb shelters they had concerts. Myra 
Hess used to play in the bomb shelters. And violin soloists 
used to play in the bomb shelters and concerts.
    Mr. Regula. Mr. Yates, have you seen Titanic?
    Mr. Yates. I have not.
    Mr. Regula. You should see it, because the orchestra is 
playing as the ship goes down. And they are out on the deck, 
and similar to what you are saying here.
    Mr. Yates. I remember that.
    Mr. Miller. Do you remember the Titanic? [Laughter.]
    Mr. Yates. I do. Do I remember? Of course I do. As a matter 
of fact, I was 3 years old when the Titanic went down. And I 
did have a book when I was young which described the disaster. 
So I'm familiar with the Titanic. And I remember that in the 
book there was a description of the orchestra playing ``Nearer 
My God to Thee''--``Nearer My God to Thee''--as the ship went 
down. And some expert subsequently said that wasn't the piece 
they were playing, but as far as I'm concerned that was----
    Mr. Regula. That's what the movie says, so it must be 
right.
    Mr. Yates. Who said?
    Mr. Regula. I say, that's the way it was in the movie, so 
it must be right.
    Mr. Yates. In the movie. It must be right. Well, that's 
true. I was thinking of the disasters and how well you did at 
Grand Forks and what opportunities you have as a result of El 
Nino. [Laughter.]
    Ms. Shanklin-Peterson. I'm sure we'll be getting a few 
calls.
    Mr. Yates. El Nino. All over the Pacific coast you've got 
communities that need help of various kinds and on the Atlantic 
coast as well. But, in the course of that, you must not forget 
Canton, Ohio, nor Chicago.
    Mr. Miller. Or Sarasota.
    Mr. Yates. Nor Sarasota, nor Denver.
    Mr. Skaggs. Boulder.
    Mr. Yates. Boulder, alright; Boulder.
    I see by your statement that you are now trying to cover 
more geography than you have in the past. I remember, we used 
to hear from Members of Congress as to why there weren't more 
grants, why New York received such a large portion of the 
grants. And, of course, it was because they had all the arts 
organizations, you know--not all of them, but most of them are 
in New York--and they were all being financed.
    But at any rate, I don't have any criticisms of you. For 
that matter, I don't think I ever did. I could have joined in 
Mapplethorpe and Serrano, and I guess that their names will be 
forever etched in stone, won't they, affiliated with yours, 
unfortunately. And it's kind of unfortunate that they are known 
by the works of art for which they are known. I'm told--and I 
should put this on the record--that when NEA considered the 
grant of Mapplethorpe, I think it was of the Philadelphia 
Museum of Contemporary Art, that it did not include the--what 
shall I say--the raunchy pictures. They were just the 
pictures--the photographs--for which Mapplethorpe was famous. 
And he was considered to be an outstanding photographer. But 
then, when they got the draft, the director of contemporary art 
in the museum decided to include the additional pictures, and 
that was kind of like putting the NEA on the guillotine, for 
that matter. And NEH kind of went along for the ride, I guess, 
because they are always associated with each other.
    At any rate, I'm testifying and you're not. [Laughter.]
    Ms. Shanklin-Peterson. You're doing a very good job.

                     chairmanship of jane alexander

    Mr. Yates. Yes, as I have over the years. [Laughter.]
    You were starting to tell me that you are doing well. And I 
hope you're doing well. What problems do you have, other than 
lack of funds? Are there any?
    Well, now, how are you getting along without Jane 
Alexander? She was a very good director, wasn't she?
    Ms. Shanklin-Peterson. She was a very good director. We 
miss her a lot. She was a strong leader.
    Mr. Yates. Yes, I know.
    Ms. Shanklin-Peterson. She got some really good reforms in 
place which----
    Mr. Yates. You have had pretty good leaders throughout; 
starting with Nancy Hanks and Livvy Biddle and the other who 
followed. And Jane Alexander upheld that tradition.
    Ms. Higgins. And the President has nominated Bill Ivey as 
the new chair. And we're waiting for the Senate to schedule a 
hearing, and hopefully they will.

                     honoring representative yates

    Mr. Yates. I'm taking too much time, Mr. Chairman. But I 
don't think I'll be doing this any more and----
    Mr. Regula. You have all the time you want.
    Mr. Yates. I'm quite sure that you'll be Chair. And so I 
just want to leave a memory with you.
    Mr. Regula. You have.
    Mr. Yates. Okay, thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    Mr. Skaggs. Mr. Chairman, if I could----
    Mr. Yates. Reclaim----
    Mr. Skaggs. Reclaim my time. This is not for Mr. Yates' 
benefit, and it's entirely out of order, but I can't think----
    Mr. Regula. It's perfectly alright.
    Mr. Skaggs [continuing]. Of an audience that is ever before 
us that wouldn't rather give him a round of applause.
    Ms. Shanklin-Peterson. I know.
    [Applause.]
    Mr. Yates. You remind me of Ana Steele's farewell party. 
Yes. Ana Steele, I'm sure you are going to miss her.
    Ms. Shanklin-Peterson. We certainly do.
    Mr. Yates. And perhaps you'll miss me a little too. I hope 
not. I hope that there are others who will take my place, and I 
suspect they will. Thank you very much.
    Ms. Shanklin-Peterson. Well, thank you for all that you 
have done.
    Mr. Yates. Thank you. Thank you. I appreciate it. And I 
hope some day you will say the same for Mr. Regula. [Laughter.]
    Mr. Regula. Hopefully, right. [Laughter.]
    Mr. Skaggs. I'll wait my turn now, Mr. Chairman.
    Mr. Regula. Well, let's see, you probably were next since 
you came in together.
    Mr. Yates. I was probably next. And I'll yield to you.

                    arts education and the endowment

    Mr. Skaggs. Actually I was hoping for some break between 
Mr. Yates and myself so that I wouldn't suffer too much by 
comparison.
    I wanted to ask a little bit about your proposal to beef up 
arts education. That seems to me to be, as with so many things, 
the point of life where intervention leverages the most. And we 
were intrigued. Particularly as there was sort of a flurry of 
research results coming out a year or two ago about the impact 
of arts on the early wiring of the mind--for lack of a better 
figure of speech. I'm just wondering if anything more has been 
published in the last year or so to reinforce what we think we 
know about all of that, and just to give you an opportunity to 
explain a little bit about what you're hoping to get done in 
arts education.
    Ms. Shanklin-Peterson. Well, the research continues and 
that's one of the areas that the Endowment has supported. We 
have developed priorities for education research in the area of 
arts education to help researchers across the country identify 
areas that need to be looked into. And we've also summarized 
research that is relevant into a brochure that can be widely 
distributed. I think those are very important initiatives and 
that's one of the important leadership roles that the Arts 
Endowment can play.
    We are interested in being able to expand the Education and 
Access grants that the Endowment does award. This year we were 
able to award a little over $9 million in Education and Access 
grants across the country. I think this is one of the areas 
that we can work in school districts and arts organizations in 
every State. It's one of the areas through which we could 
really begin to reach some of the more under-served States if 
we had additional money in this area. And hopefully through the 
ArtsREACH program, a number of the communities will be 
developing plans to improve the arts education programs in 
their schools.
    Mr. Skaggs. So what actually could we hope to have you 
report on this time next year about improvements in arts 
education?
    Ms. Shanklin-Peterson. That we would have been able to 
reach far more students; that we would have been able to 
involve more artists and arts organizations in the process; 
that we would have been able to expand the research that has 
been done for arts education and to communicate that to school 
districts. These decisions are made at the local school 
district level, and so it is very important for the community 
to be able to reinforce and to make the argument for arts 
education. As you know, in many places it's the first thing to 
go when the budget cuts come.
    Mr. Skaggs. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Moran.

           allocation of endowment's administrative resources

    Mr. Moran. Thank you, Mr. Chairman. I don't want to take 
too much time because I know, No. 1, you've covered all the 
questions that really needed and were appropriate to be asked, 
but we also have the National Endowment for the Humanities 
coming up. I just had one question. This new ArtsREACH new 
initiative that you've got in the budget--I think it's your 
principal new initiative for this year--there is actually a 
decrease in administrative costs, and yet this ArtsREACH 
program is going to require a lot more travel--outreach if you 
will--of the staff and working with local communities trying to 
get the kind of activities that will take hold--take root--
within a community. Have you explained how you're going to do 
that with less staff and more responsibility?
    Ms. Shanklin-Peterson. Well, we won't have less staff. 
We'll have the same, current staff that we do have. The 
percentage going into administration is really a function of 
the bottom line, and if our budget increases, and we're 
notputting more into administration then that percentage would 
decrease.
    Mr. Moran. The budget request had a slight decrease in 
administrative expenses.
    Ms. Shanklin-Peterson. Yes, a slight decrease, that's true. 
And part of that relates to computer implementation that we 
have been going through for the last few years. We now have our 
local area network in place. We're able to move forward with 
that.
    Mr. Moran. That's fine, thank you. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Miller.

                             oral histories

    Mr. Miller. Hearing Mr. Yates talk and reminisce, it makes 
me think; I received a book recently--an oral history book by 
Mr. Ferris who's head of the NEH--and it's a fascinating book 
to read. And it sounds like what you should do is do an oral 
history of Sid Yates, because it's something. Now, this one 
here, the book I'm reading, is called ``You Live and Learn, 
Then You Die and Forget It All.'' It's about a mule trader.
    Mr. Yates. Several of the Members hearing about my early 
years in the Congress and the early political activities that I 
have had, have asked me to write memoirs. And it's awfully 
tough, you know, to gather everything together in order to do 
it. If I were maybe 2 years younger I might do it. [Laughter.]
    But, I don't think I can do it now. But you make a very 
interesting----
    Mr. Miller. But oral history makes it a little easier 
because you just record into a machine.
    Mr. Yates. Of course. Of course. And I like to talk anyway. 
Thank you very much.

           implementation of directives in fy98 interior bill

    Mr. Miller. Since we're a little behind schedule because of 
that vote, talk a little bit about the changes that were 
brought about because of last year's appropriation bill and 
what impact they have had, positive and negative; and what 
problems you are having with it besides the total dollar being 
lower.

              congressional representation on the council

    Ms. Shanklin-Peterson. Well, one of them that I think we 
mentioned before you came in was that six Members of Congress 
were added to the National Council and they attended our first 
meeting a couple of weeks ago. And I think this will help 
improve the communications between the Arts Endowment and 
Congress and help us both understand each others' concerns. I 
think the meeting was very positive.
    Mr. Regula. I'd like to take credit for that initiative, 
but it was really Mr. Yates who suggested to me to put the six 
members on. In your earlier testimony, also, they indicated 
that this is working.
    Mr. Yates. It wouldn't have been possible without Mr. 
Regula; as none of this budget would have been possible without 
him.
    Ms. Shanklin-Peterson. I know. And we certainly do 
appreciate that.
    Mr. Yates. So think of that when you make a grant to 
Canton. [Laughter.]
    Mr. Miller. Mr. Yates recommended Mr. Doolittle and Mr. 
Ballenger. [Laughter.]
    Mr. Yates. Well, I haven't recommended them; nor Mr. 
Hoekstra. Mr. Hoekstra, I think, camped out at the National 
Endowment for the Arts for a long time.
    Ms. Higgins. He told me though he has moved on.
    Mr. Yates. I was just going to say----
    Ms. Higgins. He is actually focusing on the Labor 
Department. [Laughter.]
    Mr. Yates. He found a new agency to attract his attention, 
for which I am grateful and I'm sure you are too. [Laughter.]
    Ms. Higgins. I consider it a very mixed blessing. 
[Laughter.]
    Mr. Yates. Sorry. Incidently, before you start your 
questioning again, I just want to say how impressed I am that 
you taught statistics. You've got to be smart as hell in order 
to teach statistics. [Laughter.]
    Really. I'm impressed.

                 15 percent cap and multi-state grants

    Ms. Shanklin-Peterson. Speaking of statistics. One of the 
other changes was, that we were asked not to award more than 15 
percent of our grant funds to any one State. And we are 
certainly monitoring that. The cap excludes the multi-State 
grants we were able to fund. This year, we've established a new 
category for multi-State grants, and about 334 of our 
approximately 1,200 grants will be multi-State grants that 
affect more than one State and serve the Nation in a number of 
different ways.

                 endowment grants to the sarasota area

    Mr. Miller. Let me use my community as an example: Sarasota 
and Bradenton in Florida. We have a very active arts community 
in Sarasota. It is very active and I think very advanced. And 
yet very little has ever come from the National Endowment for 
the Arts. I'm not looking for pork barrel spending, but some 
obviously comes from Tallahassee and they get their fair share 
and it keeps the arts council going, of course. But as far as 
grants, for a fairly sophisticated arts community, it is almost 
nonexistant in my community for years. Maybe you can correct me 
on that, but that is my impression.
    Mr. Yates. Did they apply?
    Mr. Miller. I don't know the answer to that. The thing is, 
that's part of the problem. Here's a community that should be 
advanced. Now Manatee County, my home, is not and has probably 
received less. But why can't a more sophisticated community 
like Sarasota have a fair number. You know, that's been, I 
guess, one of the concerns a lot of us had that----
    Ms. Shanklin-Peterson. Right. Well, one of the problems 
that we've run into in recent years is that because of the 40 
percent budget cut, a lot of organizations around the country 
think it's not worth their time to apply to the Endowment; that 
it will be too competitive as our money has been cut so 
drastically. And so that's another reason the budget----

                     endowment application process

    Mr. Miller. How difficult is it to apply for a grant? My 
daughter is doing some grant writing these days, she's working 
as a social worker.
    Ms. Shanklin-Peterson. We have tried to make it very, very 
simple. And that's one of the things that we did as a result of 
the reorganization of the Endowment. We moved from 17 different 
discipline grant programs to one grant program that has 4 
different categories. And we have tried to simplify----
    Mr. Miller. Do people have to hire grant writers? I mean do 
they have to contract out to professionals?
    Ms. Shanklin-Peterson. No, they do not. We have tried to 
simplify the Guidelines. We have put the Guidelines on the Web 
this year, so people can just download them. In a lot of cases 
we found that people weren't getting copies. We also have a 
brochure that we have widely distributed outlining the grant 
categories. With the ArtsREACH program we are talking about 
sending our staff team to those 20 States to help organizations 
and promote the Guidelines and conduct grant workshops. We 
would be happy to help people from Sarasota. If they are not 
applying, we can't fund them. And so that is part of the 
problem, is getting the applications in.
    Ms. Higgins. I believe that we can go back and actually 
look at what kinds of applications and what's been funded in 
your district.
    Mr. Miller. I'm not complaining. I don't know the 
specifics. But I'm using this to illustrate, okay.
    Ms. Higgins. No, but I think it's an important issue. 
Because we want to be able to--it's something the Endowment is 
trying to understand in terms of where applications are coming 
from and where projects are actually being funded. So, I think 
we ought to look at that and just come back to you with a 
report.

             congressional notification of endowment grants

    Mr. Regula. Our colleague, Cass Ballenger, was at his first 
meeting, and he suggested to them that any time a grant is 
made, that the Member whose district is involved be notified. 
And it fits with what you're saying.
    Mr. Miller. In public housing they spent $96,000 for a 
consultant to prepare the grant application. You know, it seems 
like in social work, I know, they spend a lot--full-time grant 
writing. I hate to have grant writing the focus rather than the 
ultimate objective. Maybe nowadays with the Internet and all.
    Let me ask you one more quick question and then we'll move 
on to the money issue.
    Mr. Yates. What does your daughter do? What's her 
discipline?
    Mr. Miller. Social work.
    Mr. Yates. Oh, I thought you said she was applying for a 
grant from the----
    Mr. Miller. No, she does grant writing for Goodwill 
Industries.
    Mr. Yates. Oh, I see.

                    agency computing system expenses

    Mr. Miller. Why are you spending so much money on 
computers? You've been doing this for years. I mean, what all 
does your computer system do? For years you have been upgrading 
the computer.
    Ms. Shanklin-Peterson. We have a local area network that 
has just been installed for the agency. And then we're also----
    Mr. Miller. Local area network, how does that work now?
    Ms. Shanklin-Peterson. Well it means that all of the staff 
is networked throughout the agency so that we can communicate 
with each other through e-mail and work on documents together 
through the network.
    Mr. Miller. It seems like, I mean, you have spent a lot of 
money and time. I don't know----
    Ms. Shanklin-Peterson. We also had to have software 
developed for the computer that would be specific towards 
tracking the grants and following the grant project information 
that we are provided by the grantees.

                      endowment tracking of grants

    Ms. Higgins. One of the things that I mentioned that has 
struck me in my limited time at the Endowment is, in fact, they 
have a very small staff that tracks a large number of grants. 
The grants are made to the 50 States, but also then, very 
directly to a lot of local organizations. In fact, one of the 
things that they are trying to do, to go back to your earlier 
question, is to be able to, by zip code for example, track 
where grants are actually operating. It takes a reasonably 
sophisticated system to do that. I mean, once it's in place, it 
will hopefully be in place for a long time. But I think there 
is some benefit to actually being able to have that information 
more readily available than it has been without the new 
computer system.
    Mr. Miller. Thank you, Mr. Chairman.

                   presidential millennium initiative

    Mr. Regula. Just a couple of questions. Have you had any 
part in the planning for the $50 million millennium project of 
the President, at least thus far?
    Ms. Shanklin-Peterson. We're working actively with the 
White House Millennium Council and the Endowment has a number 
of millennium projects that we're funding through our own 
grants program.
    Mr. Regula. I noticed that in your testimony.
    Ms. Shanklin-Peterson. And we're working with them to make 
plans for next year. I know $50 million is requested for next 
year's appropriation.
    Mr. Regula. True. I just wondered if you had been involved.
    I have a number of other questions for the record. I think 
we'll move on because we do have NEH yet this afternoon, unless 
anyone else has additional questions. If not, thank you very 
much for coming.
    Ms. Shanklin-Peterson. Thank you very much.
    [The following questions and answers were submitted for the 
record:]

[Pages 138 - 172--The official Committee record contains additional material here.]


      

=======================================================================


                         Woodrow Wilson Center

=======================================================================


[Pages 175 - 189--The official Committee record contains additional material here.]


      

=======================================================================


                 National Endowment for the Humanities

=======================================================================

      
                                          Thursday, March 12, 1998.

                 NATIONAL ENDOWMENT FOR THE HUMANITIES

                                WITNESS

WILLIAM R. FERRIS, CHAIRMAN, NATIONAL ENDOWMENT FOR THE HUMANITIES

                            Opening Remarks

    Mr. Regula [presiding]. Welcome, Mr. Ferris. We're happy to 
have you, and I'm sure your maiden voyage here is going to be 
far more successful than the Titanic. That was a nice story in 
the ``Style'' section of the Washington Post.
    We'll make your testimony a part of the record, and you may 
tell us whatever you would like to by way of summarization.

                 Summary Statement of William R. Ferris

    Mr. Ferris. Thank you. I'm honored to be here, Congressman.
    I'd like to acknowledge my wife, Marcie, my daughter, 
Virginia, and her friend, Clark, are here from Oxford, 
Mississippi to learn about Congress and the Nation's capital.
    I'd like to say, Mr. Chairman, and distinguished members of 
the subcommittee, that I'm honored to be before you today as 
the new Chairman of the National Endowment for the Humanities. 
I'm excited because I think this is an exciting time for the 
Endowment, and we have much to offer.
    Lessons drawn from the humanities, from philosophy, from 
literature, from archaeology, and from folklore, have much to 
teach us about the world and our place in it. We cannot help 
but be inspired by ``The Civil War'', by ``Baseball'', by ``The 
West''--topics that every American loves, and these are but 
three of the great stories that NEH has shared with the Nation 
through the magic of film-maker Ken Burns and through the 
generosity of Congress.
    These films will be played over and over again in American 
classrooms and will continue to have unlimited educational 
value. As we enjoy these films and learn from them, it's 
important to remember that they are the end results of many 
years of scholarship and preservation, all of which are 
supported by the NEH.
    As we move toward the millennium, NEH hopes to reconnect 
the humanities with every American through their family 
history, their stories, their regional worlds. We want to bring 
the humanities back home. This is what I have done for over 30 
years as a folklorist, and this is what I will continue to do 
as Chairman of the National Endowment for the Humanities.
    As director of the Center for the Study of Southern Culture 
at the University of Mississippi, I learned firsthand the 
importance of preserving the stories of a region, so that her 
people do not forget their roots. I also know the overwhelming 
interest that people throughout the country have in learning 
about their own regions.
    As part of our ``Rediscovering America'' initiative, we 
plan to create 10 vital humanities centers that will be located 
in every region of the Nation, providing a direct link between 
NEH and every American. These centers will support teaching, 
research, and public programs in the region. Five million 
dollars of our total budget of $136 million will be used to 
help create these centers. These dollars will ``prime the 
pump'' for what I envision as a strong public/private 
relationship.
    I have seen how this can work. The Center for the Study of 
Southern Culture, which began 21 years ago, would not have 
happened without NEH support. With your support, you can ensure 
that the same story will be told in every region of our 
country.
    This Encyclopedia of Southern Culture is a concrete example 
of how we helped preserve the culture of one region. After 
seeing over 100,000 copies sold, I cannot begin to express the 
importance of this book in the hearts of Southerners and of all 
Americans.
    Through this initiative, NEH will seek proposals from our 
Nation's strong cultural institutions, our museums, colleges, 
universities, and libraries, that will become clearinghouses 
for projects like encyclopedias, public programs for children 
and the elderly, and cultural tourism opportunities.
    There are other important initiatives described in our 
budget that I would like to highlight. NEH will continue to 
focus on education and technology. This last fall NEH, along 
with MCI and the Council of Great City Schools, established 
EDSITEment, a new website that identifies the 22 best 
educational websites and literature, history, and humanities 
subjects. So, as you can see, a child or a teacher simply 
punches up the home page of one of these carefully-selected 
home pages and pulls them into the classroom. Teachers are 
thirsty for this information, and this site serves currently 
over 20,000 individuals per month.
    Another project, our ``Teaching with Technology'' 
initiative, has supported software projects that range from the 
Civil War to the Supreme Court, to ancient Greece and Rome, 
that are being used extensively in classrooms, and these are 
some of the home pages for the Supreme Court and the Greek and 
Roman Project that are currently in use. We have produced, 
along with that, CD-ROMs that also are available and in use 
within public schools throughout the Nation. Because teachers 
need to be trained to handle this new technology, our ``Schools 
for a New Millennium'' initiative will help K-through-12 
teachers use these CD-ROMs and the Internet in the classroom.
    All of these projects that we are talking about are based 
on the scholarship that NEH has supported for the last three 
decades. This is great work. As I said to others, if I can't 
defend and support this, I'm going to go home and plow a mule. 
[Laughter.]
    Mr. Regula. And I know you know how to do that. [Laughter.]
    Mr. Ferris. And I'm pleased, Congressman, that we have 
mules on the wall in the hearing room. [Laughter.]
    Mr. Regula. They hung that photograph for my benefit. 
[Laughter.]
    My Dad had a coal mine. So I had to be a little bit of a 
muleskinner, among other things. I've talked about this. 
[Laughter.]
    Mr. Ferris. We've both worked with mules in our family.
    Mr. Regula. It equips us to work with Congressmen. 
[Laughter.]
    Mr. Yates. He has around this committee, too. [Laughter.]
    Mr. Ferris. Well, this is all to say that this work is very 
important, and it's also very exciting. With your support, we 
will continue to do it, and do it well.
    Mr. Chairman, I'm grateful for your time for this process. 
I look forward to working with you and with your colleagues in 
the future.
    Thank you.
    [The statement of Mr. Ferris follows:]

[Pages 196 - 203--The official Committee record contains additional material here.]


    Mr. Regula. Thank you. I have a number of questions, but 
I'll defer to you, Mr. Yates.
    Mr. Yates. Well, I'm delighted to be here today, and to 
congratulate you upon your appointment. I'm very much impressed 
with what you bring to the job. I've looked through your 
encyclopedia, and that I know is terribly impressive. There's 
so much information and so much factual data in it. That must 
have taken a couple of days to produce at least. [Laughter.]
    At any rate, that, too, is most impressive.

                             funding needs

    We're glad to have you on the job. I'm not going to press 
anything. Are there problems that you have other than funding? 
I'm sure you could use more money, but what happens if you get 
less?
    Mr. Ferris. Well, if we get less, it would be a sad comment 
on these projects. I would compare what we've been through in 
the last three years to corporate downsizing. The Endowment is 
leaner and far more focused than ever before in its three 
decades of existence, and we are poised to transform the future 
of humanities education and culture in this Nation. This agenda 
we're talking about is, as I said, ``priming the pump.'' This 
will allow us to go to potential major corporate and private 
supporters, who have already begun to step forward and indicate 
that they want to be a partner with the Endowment. They're 
waiting for congressional approval, so that they know this is 
something that the Nation's leaders would like to see. They're 
going to step in aggressively. In Chicago, in other parts of 
the country, we are already working with corporate leaders and 
with foundation leaders.
    So we are anxious to grow, and as we grow, the 
congressional support will be a small part of what we bring to 
these projects.

                    initiatives and higher education

    Mr. Yates. Well, I hope to be able to help you. I noted 
what you said about K-through-12. What about universities? What 
will your relationship be with colleges and universities?
    Mr. Ferris. Well, grants under the new initiative will 
probably, in all likelihood, go to a major university in each 
region, and would create there an undergraduate and a graduate 
degree program focused on the region. These institutions would 
also support research projects like the preparation of an 
encyclopedia on the region.
    We also currently support summer seminars for college and 
university teachers each year. I've taught three summer 
seminars that were funded through NEH, and I can vouch for 
their enormous value, not only for me as the teacher, but also 
for those who traveled and participated in them; it transforms 
their ability to go back into the classroom and to do their 
work well. We do that for both high school and for college 
teachers.

              brittle books and other preservation efforts

    Mr. Yates. Tell me how well is your project to save the 
books going.
    Mr. Ferris. As a friend of mine would say, we're halfway 
home and a long way to go. We have helped to save over 800,000 
books out of a total of 3 million that need to be saved that 
are in absolutely critical condition. So we're less than 
halfway there, and because of budget cuts, we've obviously not 
been able to do as much as we would like in this area.
    I would point out, in terms of what was said earlier, that 
George Farr, director of NEH's. Preservation and Access 
Division, and his staff have forged a partnership with the 
National Institute for the Conservation of Cultural Property 
(NIC), the Federal Emergency Management Agency (FEMA), and the 
Getty Conservation Institute (GCI), to produce the Emergency 
Response and Salvage Wheel that essentially allows 
preservationists and groups who have projects that may have 
been damaged by water or other experiences to quickly address 
those issues. So, the preservation of brittle books and many 
other preservation initiatives, which, as you know, the 
President also is concerned about, are being aggressively dealt 
with by the Endowment.
    Mr. Yates. I think that's good, and that's why I consider 
you to be a very necessary agency for the benefit of the 
country.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Skaggs.

              presidential papers projects/u.s. newspapers

    Mr. Skaggs. Thank you, Mr. Chairman, and welcome. It's fun 
to sense your excitement taking over this operation. I look 
forward to the kind of leadership you're going to bring to the 
Endowment.
    I wanted to follow up, and was thinking before Mr. Yates 
asked about it, to inquire how things are going on 
preservation. You covered books, but I'm well aware of the 
newspaper project as well, and would be interested in an update 
on that, as well as a related matter, which is the presidential 
papers projects.
    Mr. Ferris. Yes. Both of those are moving along but not as 
quickly as we would like. As for the presidential papers, we 
have been aggressively seeking both congressional and private 
support for them, and we've been able to offer matching support 
for the projects. But when we talk of the presidential papers 
of figures like Washington and Grant, and the papers of other 
figures like Martin Luther King, Jr. and historic Americans, 
these papers are at risk. The long-term future of these 
projects is insecure, and we are taking special steps within 
the Endowment to try to put together a coalition of private and 
public support that will allow us to fully complete all of 
these papers.
    The U.S. Newspaper Program is also within sight of 
completion. We've had significant success in those areas, and I 
can provide you specific details on when the project will 
actually be completed. To date, we have preserved 57 million 
pages of newspapers in the 50 States and the territories, which 
are now on microfilm, and we are hoping to digitize all of 
these. One of my top priorities is to use technology to 
digitize and give absolute full access, not only to 
historically important newspapers, but also to presidential 
papers and to all of the materials that grantees of the 
Endowment are producing.
    Mr. Skaggs. Despite what I am sure are the extraordinary 
efforts being made by the people that are funded through this 
part of your program to avoid losses, I can't imagine but that 
we haven't suffered some, and wonder whether it might give us 
material to work with in speaking with our colleagues when your 
budget is debated, if you might, for the record anyway, provide 
some information about some things that, sadly, may have 
slipped through our preservation net because of the limitation 
on your resources in this area, in particular last year.
    [The information follows:]

                         Impact of Budget Cuts

    The drastic reductions in the NEH budget the last two years 
have had devastating consequences for the humanities. Our 
efforts to help preserve the documents and materials essential 
to understanding our nation's history and culture, for example, 
have been set back considerably. Because of the budget cuts for 
fiscal years 1996 and 1997--
    40,000 brittle books were not microfilmed;
    1,000,000 pages of historically important U.S. newspapers 
were not microfilmed; and
    2,000,000 cultural objects and artifacts in museums were 
not preserved and documented.

                         millennium activities

    Mr. Skaggs. I wanted to also ask you, briefly, about your 
millennium activities, and in particular, within that, about 
the partnering that you expect to effect in carrying out that 
effort, both with other national nonprofits as well as the 
State and university piece of this.
    Mr. Ferris. Well, my history as a scholar and a fundraiser 
is partnership-based, and I have already been setting up 
coalitions with corporate CEOs, as well as with a group of 
technology CEOs, that will be coming into the Endowment to meet 
personally with our Division heads and begin shaping ways they 
can be personally involved in this process.
    This past Monday I was in New York, hosted at a luncheon by 
the Mellon Foundation, with all of the heads of foundations in 
New York City. This spring, I'll be meeting with the Council on 
Foundations here in D.C. The foundation community is very 
excited about this, and these coalitions will be drawn together 
at the local, regional, and national levels. There are clearly 
some who will fund specific projects within their locale; there 
are others who will fund projects on a national basis. We will 
be aggressively building these coalitions in the coming months.

                   battling cynicism in american life

    Mr. Skaggs. While I know that you want to focus primarily 
on the positive, it's occurred to me that our worst civic virus 
these days is cynicism. I wonder if you have any work going on 
in searching out the causes and antidotes to cynicism in 
America. [Laughter.]
    Mr. Ferris. Well, I'm a great believer in what Yeats, the 
poet, the Irish poet, said----
    [Laughter.]
    Mr. Yates. Not what the other one said. [Laughter.]
    Mr. Ferris [continuing]. And most appropriately at this 
table would like to quote. William Butler Yeats said that ``if 
you believe in an idea strongly enough, you create the 
reality.''
    I also believe firmly that funding follows ideas; that 
people fund ideas that they believe in, and they fund people 
rather than institutions. So I will personally be in the office 
of every congressional leader, of every corporate leader, who 
is interested and wants to be a part of this relationship.
    There's no place for cynicism in the Endowment. The staff 
and I are firmly committed to the future, and we will make a 
difference to this Nation.
    Mr. Skaggs. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Moran.

                 regional humanities centers initiative

    Mr. Moran. Thank you, Mr. Chairman.
    It is exciting, as my colleagues have said, to see you take 
over with your vision, Mr. Ferris. We've had very fine people 
heading the National Endowment for the Humanities in the past, 
and I have found no fault with them. In fact, it seems to me 
that we have evolved in a progressive manner consistently. I 
find fault with the Congress that cut back NEH's appropriation 
in 1995, but I have to say I can't help but be enthusiastic 
about your leadership and your ideas.
    This is terrific. You can open to any page and read the 
topic from an expert that really knows what they're talking 
about. It's beautifully written.
    Would you see these regional humanities centers developing 
this kind of a product for other parts of the country, when 
it's done so well for the South?
    Mr. Ferris. Absolutely. I have studied American culture and 
folklore and literature. One of the things that I believe very 
firmly is that we really don't know a lot about our own 
culture. We grow up in Ohio, in California, in Illinois, in 
Massachusetts, and in many ways we don't really know the places 
we live in. A volume like this is absolutely essential in every 
region. Every child, every person living in this Nation 
deserves the opportunity to have a resource that will tell them 
about the history of their culture, of their community.
    So what we're going to do is to open the windows on 
America. No matter where you live, who you are, you will find 
yourself on the pages of these books, and you will look with 
pride and with excitement as you discover, ``rediscover'', 
America, which is what we're trying to do.
    Mr. Moran. It can't help but help people define who they 
are, where they're coming from, where they are in history and 
geography. It's a wonderful way for people to identify 
themselves and the culture that they're part of. As we move 
into the new millennium, I think that any civilized country is 
blessed to have people that understand the importance for a 
work like this.

                         income recovery policy

    You're going to do some projects with regard to public 
television. You've done some already, NEH has, and you plan to 
do some more. One of the things that PBS has gotten criticism 
for in the past is that they haven't taken advantage of the 
royalty opportunities. I know that this Congress particularly 
is anxious to see any kind of entrepreneurial efforts on the 
part of agencies in the Federal Government.
    Can you tell us a little about how you're going to take 
advantage of the opportunities, even commercial opportunities, 
that might present themselves through these documentaries?
    Mr. Ferris. Absolutely. All of our funded projects, 
including documentary films, are subject to clauses stipulating 
that the Endowment can claim a share of any profits made on a 
book, a film, or other grant-supported products. Now, as we 
know, most educational books and scholarly treatises will not 
make a profit, but in one exception: Ken Burns' series ``The 
Civil War'' completely repaid the grants that the Endowment 
made to Mr. Burns to produce it. Those monies, when they came 
back to the Endowment, were then used for other projects, which 
are also repaying their grants. We are also moving 
aggressively, with congressional approval, to develop an 
entrepreneurial approach within the Endowment through our 
Office of Enterprise. We are looking into a number of ways of 
generating support, not only through gifts, but also through 
the sales of materials that we produce, and these 
entrepreneurial approaches, within the next few years, will 
significantly increase our ability to enhance and extend the 
support that Congress provides us.

                     economic impact of neh grants

    Mr. Moran. Mr. Chairman, that gives us good ammunition when 
we get into a debate. We need Members to know this.
    The only other area of inquiry I wanted to get onto the 
record was the economic benefits that you have developed within 
communities when you choose a community. Just briefly--I don't 
want to take up the time of my colleagues, but I think it's 
useful, that you've got a good story to tell there.
    Mr. Ferris. Well, the economic impact of these films, for 
example--when the Ken Burns series on the Civil War came out, 
the number of visitors at Civil War parks and sites more than 
doubled. One could probably say the same thing for the parks in 
the American West when his series ``The West'' aired.
    We currently have one of our exhibits on American 
Presidents on show at one of the Rouse Shopping malls in 
Portland, Oregon. These are small examples of what the large 
panels look like. The numbers of visitors, the response in the 
press and in the public there have been enormously positive, 
and later this summer this same exhibit will travel to Mt. 
Rushmore and be on exhibit at that National Park.
    One of the biggest agendas that I expect to expand 
dramatically is in the field of cultural tourism, tourism being 
second only to health care as our Nation's largest economic 
force. These humanities centers that we will put in place will 
also develop ``electronic triptychs'' so that if I'm traveling 
from Kenyon College to the University of Chicago, and I would 
like to visit Civil War sites or Native American sites, and 
stay in a bed and breakfast, and I've got six days to travel, 
in a matter of minutes I can produce from that electronic 
source an itinerary and the history of the sites to visit, many 
of which will not be on the beaten path. An economic impact 
will be reaching into the heartland that is directly connected 
to the humanities. So, economics are a very high priority not 
only in terms of funding projects within the Endowment, but in 
helping the grassroots communities throughout the Nation.
    Mr. Moran. That was, admittedly, a softball question, but 
you sure knocked it out of the ball park. [Laughter.]
    Thank you, Chairman Ferris, and thank you, Chairman Regula.
    Mr. Regula. Thank you.
    Mr. Miller.
    Mr. Miller. Thank you.
    It's interesting to know that three Southerners were added 
to this committee this year with Mr. Moran, Mr. Wamp, and 
myself. I see now that the new Chairman of NEH is from the 
South, and the new Chairman-nominee for the NEA is also from 
the South. That's an interesting fact that the South does have 
culture and arts, and I'm glad there's a recognition of that 
fact. I'm sorry Mr. Yates isn't here to hear that comment. 
[Laughter.]
    What is your experience personally prior to coming to NEH?

               chairman's previous relationships with neh

    Mr. Ferris. I've had enormous respect and admiration for 
the Endowment, and I've been closely connected with it over the 
last three decades. I've received grants for my own scholarship 
for projects like the Encyclopedia of Southern Culture. Our 
Center, as I mentioned, was given major support to set up an 
undergraduate curriculum in southern studies, to produce over a 
decade of time the Encyclopedia, to renovate an Antebellum 
Observatory. These were major building blocks in the history of 
that great university, the University of Mississippi, that 
allowed it to rise above its traditional status into an 
international setting for regional and southern studies. That 
story is repeated at virtually every campus around the Nation.
    I have also served on panels at the Endowment over the 
years. I've also worked as a consultant, going into places like 
Harlan County, Kentucky, Wyoming, Texas, and Maine, and serving 
as a consultant for humanities projects that were trying to get 
started there.
    So I've known and admired the Endowment for over 30 years, 
and as a token of my admiration for the history of that 
institution, we're going to set up in the entryway to my office 
the portraits of each of the former Chairs, the tenure that 
they served at the Endowment, and the Presidents who appointed 
them, because this is a truly great institution. Part of my 
mission is to make the Endowment and the humanities a household 
word in the Nation, in the way that the arts are known. It's 
really deserving of far more attention and appreciation, and 
I've known it well.
    As my grandfather would say, I know the humanities like 
cornbread, and I was raised on that. [Laughter.]
    Mr. Miller. Well, fortunately, you've avoided the 
controversy that the National Endowment for the Arts has 
experienced.
    One of the areas of controversy has been the issue of how 
money is distributed, and it's a fairness question. One of the 
arguments with the NEA has been that so much money is 
concentrated in a limited number of communities. Aside from the 
State grant area, how do you fit into that situation? Are there 
any potential problems about how the money is distributed? Is 
there a bias towards Mississippi or a bias toward Colorado for 
example?

                  geographical distribution of grants

    Mr. Ferris. Well, maybe in my heart there might be a bias 
toward home--[laughter]--but, in reality, the Endowment has 
been eminently fair. We have funded every State in the Union in 
a significant way. The highest funding, which is 12 percent of 
our grant funds, has gone to New York State. But we are keenly, 
and I am personally, very much concerned about access to the 
humanities and equity of funding. The regional humanities 
centers will be one way of getting more humanities resources 
into each of our 10 great regions and of providing very broad 
distribution. Broad geographical distribution is also in place 
through our support for the State Humanities Councils, and we 
work closely with them.
    Part of my mission as Chairman will be to focus on each 
State Humanities Council. Some of those are quite well-funded 
and have State legislative support; others are not as 
successful. Through the Endowment, we want to help each of our 
State Councils grow stronger and to have a more active mission 
in what they do.
    Mr. Miller. Thank you, Mr. Chairman.

                        a ``user-friendly'' NEH

    Mr. Regula. I have just a couple of questions. Have you 
looked at the grant application, and have you given some 
thought to simplifying it a little bit?
    Mr. Ferris. We have, and we are trying to make the 
Endowment as user-friendly as possible. All of our application 
information is now on our website on the Internet. So, we are 
now not only mailing out application forms, but we are also 
responding to inquiries and allowing people to have quick 
access to application instructions.
    One of the things that I wish to set up in the near future 
will be a ``smart classroom'' within the Old Post Office. For 
example: If your constituents in Ohio have questions of me or 
of any of our staff, they can sit face-to-face in front of the 
new technology we have, and we can talk about things without 
having to fly people across the country. We will share this 
resource with the National Endowment for the Arts, with the 
President's Committee on the Arts and the Humanities, and with 
the Institute of Museum and Library Services. We not only want 
to make our resources accessible, we want to make all of the 
resources within that block of cultural agencies grow in the 
same way that we are growing.
    Mr. Regula. You see this as an interactive site, where the 
individual could be out in Ohio and----
    Mr. Ferris. Yes.
    Mr. Regula [continuing]. Communicate with your people?
    Mr. Ferris. We can look, in the case of you and me, we 
could just as easily be on either end of the country and have a 
very comfortable conversation, and get a lot more done than 
trying to deal on the phone or by mail. But we don't have to 
spend the funds and take the time to fly and spend several days 
on the road.
    We are trying to fine-tune the process of finding 
information about grants, of applying, and of making grants, so 
that we can be quick and efficient in serving the American 
people.
    Mr. Regula. You might have heard the suggestion I made to 
NEA that Members be notified if grants go into their district. 
I think that would be a good public relations thing for your 
agency, too.
    Mr. Ferris. I'm proud to say that that is already being 
done.
    Mr. Regula. All right.
    Mr. Ferris. Any time a grant is announced and is decided 
within the Endowment, the congressional leaders--and news 
releases are sent out to papers in the area, and we're going to 
increase that focus, so that----
    Mr. Regula. Also, you should send a direct notice to the 
Member'soffice, because I know we often put out releases saying 
that we were advised today, about a grant announcement. I think it 
would be very useful.
    Mr. Ferris. We will.
    Mr. Regula. Do all 50 States have councils?
    Mr. Ferris. Yes, they do.

               state support of state humanities councils

    Mr. Regula. Do you have any idea how the State legislatures 
have been in the past few years in terms of supporting their 
own activities?
    Mr. Ferris. I think they've been very supportive. They've 
received $6 million thus far from State legislatures in 1998. 
That's up from $5.2 million in 1997. My impression is that 
there are certain councils that are very aggressive and very 
knowledgeable about how to develop legislative support, while 
others are not.
    One of our missions will be to try to help those who are 
not as aggressive and successful learn the techniques from 
others that have been there and done it well, so that we can 
bring them all up on a fairly common level. I think that's just 
a question of time and a little education and work.

                 setting up regional humanities centers

    Mr. Regula. So you contemplate 10 regional centers. Would 
personnel from your office actually be located in a regional 
office, or how exactly would it function?
    Mr. Ferris. This will be a very efficient, low-budget way 
of creating an institution. It in many ways will be not unlike 
what happened at the University of Mississippi. There will be 
an existing institution--like Ohio State, for example--that 
would simply create within that institution a regional 
curriculum and humanities research projects. There is already a 
curriculum, and I would suggest that any great university in 
the Nation will have many of the scholars already on staff. At 
Ohio State, for instance, there will be people who have dealt 
with the Midwest; at any of the western universities, there 
will be scholars who have dealt with the West.
    These will be grants to institutions, so we're not creating 
anything that does not already exist. We are basically allowing 
an institution to grow. They will have no administrative ties 
to the Endowment. Once these centers are set up, they will be 
independent within those institutions, and will have autonomy 
to move in ways that they think appropriate.
    Mr. Regula. But you would hope that they might, in turn, 
have satellite impacts from smaller schools, like a Kenyon, for 
example?
    Mr. Ferris. Absolutely. One of the grounds on which we will 
choose grantees will be on their plan to collaborate not only 
with other schools, but also with museums, with libraries, and 
with other humanities institutions. We're going to be working 
closely with the National Park Service. Roger Kennedy is an old 
and close friend with whom I've worked on cultural tourism 
initiatives over the years. I met with him on Sunday, and we're 
going to bring him in with the new head of the National Park 
Service. We're making similar partnerships with the Department 
of Agriculture, with the Department of Education, with the 
Smithsonian, the Library of Congress--the list will go on at 
length--with Elder Hostel. We will have a slice of our 
initiative that will be connected to each of these 
institutions, so that they will lend a hand in what will be 
perhaps like a patchwork quilt of relationships.
    But the particular university that establishes a regional 
center will be the hub of a very broad and complicated wheel 
that will essentially serve its region and link it to the 
Nation in a way that's not possible today.

                         neh and the millenium

    Mr. Regula. Do you anticipate that you will be involved in 
the White House Millennium Project?
    Mr. Ferris. We are already very much involved. The White 
House Millennium lectures are co-sponsored by the Endowment, 
and we are helping the White House choose speakers. The first 
two were highly successful: Lectures by Bernard Bailyn, a 
colonial historian from Harvard, and Stephen Hawking, a 
phyicist from Cambridge University were, with our assistance, 
down-linked with the support of Sun Microsystems, another one 
of our corporate partners. They were down-linked to community 
colleges throughout the Nation and to State Humanities 
Councils.
    These State Humanities Councils and these community and 
junior colleges are going to be formidable partners in 
everything we do, and especially in these regional initiatives.
    Mr. Regula. Very well. We'll have some questions for the 
record and possibly from some of the other members.
    I have just a note of caution. Based on what appears to be 
the fiscal situation, it's unlikely we're going to be able to 
respond totally to the President's request. So we hope that we 
can consult with you in prioritizing what is available by way 
of funding, if we're not able to do all that's been requested.
    Mr. Ferris. Well, I'm deeply grateful for that, and I'll 
work closely with you and your colleagues on that.
    Mr. Regula. Very well. I think that covers it. Thank you 
for coming. You've avoided the icebergs. The Subcommittee is 
adjourned. [Laughter.]
    [The following questions and answers were submitted for the 
record:]

[Pages 213 - 253--The official Committee record contains additional material here.]


      

=======================================================================


                    IMLS--Office of Museum Services

=======================================================================


[Pages 259 - 274--The official Committee record contains additional material here.]


      

=======================================================================


                        Commission of Fine Arts

=======================================================================


[Pages 277 - 285--The official Committee record contains additional material here.]


      

=======================================================================


               Advisory Council on Historic Preservation

=======================================================================


[Pages 289 - 321--The official Committee record contains additional material here.]


      

=======================================================================


                  National Capital Planning Commission

=======================================================================


[Pages 325 - 353--The official Committee record contains additional material here.]


      

=======================================================================


                       Holocaust Memorial Council

=======================================================================


[Pages 357 - 370--The official Committee record contains additional material here.]


      

=======================================================================


                          Members of Congress

=======================================================================

      
 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                          Wednesday, April 1, 1998.

                   STONES RIVER NATIONAL BATTLEFIELD

                                WITNESS

HON. BART GORDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE
    Mr. Regula. Good morning. The gentleman from Tennessee.
    Mr. Gordon. Thank you. Well, I think there are two things 
that we can be assured of this morning. One is the cherry 
blossoms have come out and the other is, I've come to see you. 
[Laughter.]
    Mr. Regula. You are a familiar face, and we are always 
happy to see you. I guess the reason you are always back is 
because we do not respond, necessarily. [Laughter.]
    Mr. Gordon. No, to the contrary, you have been generous, 
and I am here to thank you and to really let you know you have 
really made a difference.
    Mr. Regula. Well, we are trying. We have a tough problem. 
It does not look like we will get much more in our allocation.
    Do you want additional funding?
    Mr. Gordon. Yes, sir. What we want to do is try to close 
out some of the good things you have already done for us. I 
have submitted testimony, and I will be very brief. Just a 
quick recap, as you might remember. Secretary Lujan put Stones 
River Battlefield on its 25 most endangered list. Of the over 
5,000 battles and skirmishes during the Civil War, they 
determined that less than two dozen had a significant impact on 
the outcome of the war. Stones River is one of those.
    It has been sort of a stepchild over the years, and with 
your help now, it is, and part of the reason for my concern is 
that it is in my home county of Rutherford County. The most 
recent census estimate has just come out. We are the fastest 
growing county in Tennessee.
    Mr. Regula. Let me ask you a question. It is now a park?
    Mr. Gordon. In 1926, it was designated a park.
    Mr. Regula. How many acres is it?
    Mr. Gordon. The original battlefield was 3,000. It was 300 
acres, and with your help it has gone up to almost 400. But 
there is still a larger area within the existing boundaries.
    Mr. Regula. That has yet to be acquired.
    Mr. Gordon. Yes, sir, and which is an absolute, because of 
the fast growing nature of it, it is a----
    Mr. Regula. You are just asking for a continuation of the 
land acquisition?
    Mr. Gordon. Well, we're asking for $6 million for the land 
acquisition, which the Park Service estimates that the property 
boundary they can still get will take that out.
    Mr. Regula. And finish it. This is not in the $699 million 
from FY99? Oh, it is. So you are in that package?
    Mr. Gordon. Yes, sir, we are between the 1998 and the 1999, 
we are very ecumenical, however you can do it, we are glad to 
have it. And if there can be some combination.
    The other thing is that the Park Service has done a general 
management plan. I come on behalf of them. They are requesting 
a couple of things. One, the wayside exhibits have not been 
updated since 1962. They would like $300,000 to update those. 
And again, that is in their management plan.
    Also, they are asking for $150,000 to take the land that 
you have been able to purchase back to the Civil War kind of 
era.
    Mr. Regula. Restore it.
    Mr. Gordon. Yes, sir. And then they are saying the exhibits 
within their visitors center are deteriorating. And they would 
like $175,000 for that.
    Mr. Regula. And that is all in your statement?
    Mr. Gordon. Yes, sir.
    Mr. Regula. All right. We will put that in the record and 
see how our allocation is. That is the key.
    Mr. Gordon. And again, I am grateful for what you have 
done. You have made a difference. That area could have just 
dropped off and we would have lost it because of this growth. I 
think we have a little beachhead, and I hope you will be proud 
of what you have been able to do there.
    [The statement of Mr. Gordon follows:]

[Pages 375 - 377--The official Committee record contains additional material here.]


    Mr. Regula. Thank you. I have been reading The 
Andersonville Diary. Next week, they are going to dedicate the 
Prisoner of War Museum in Andersonville, which was a big 
Confederate prison. A lot of the Union soldiers died there, but 
probably a lot of the Confederates also.
    Mr. Gordon. It is amazing, the cult seems like it is small, 
but it is a large cult of people that follow this.
    Mr. Regula. I have people in my district who make a 
challenge of visiting every battlefield. It is amazing.
    Mr. Gordon. Tennessee is one of the heritage areas, and 
thank you, and it is a heritage area on the Civil War. So 
people will be able to come in and really follow the whole 
shift. It really has become a national following there.
    Mr. Regula. Thank you.
    I see we have some young Close Up people here this morning. 
We are happy to welcome you. This committee is the one that is 
responsible for funding parks and forests and battlefields and 
preservation of our cultural heritage. Where are you from?
    Nebraska. Well, the Lewis and Clark expedition went through 
Nebraska. Your member is going to be here later on asking for 
money. These are members of Congress who have projects. I 
assume none of you have a project you want to pitch this 
morning. [Laughter.]
    But the members want to say to our committee, as in the 
case of this last member, they need money for a battlefield in 
Tennessee which is already part of the park system. So we are 
happy to welcome you. You will have to help pay the money we 
are spending, so you should really come here. But you also get 
to enjoy the parks, so it works both ways.
                              ----------                              

                                          Wednesday, April 1, 1998.

           BLACKSTONE RIVER VALLEY NATIONAL HERITAGE CORRIDOR

                               WITNESSES

HON. JAMES McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF MASSACHUSETTS
HON. ROBERT WEYGAND, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    RHODE ISLAND
HON. RICHARD NEAL, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF MASSACHUSETTS
    Mr. Regula. Okay, Mr. Kennedy is not here. Mr. McGovern, 
Blackstone River.
    Mr. McGovern. Let me just say to the Close Up kids, what I 
am about to testify on is a very worthwhile project. 
[Laughter.]
    Mr. Regula. I have not found one so far that is not.
    Mr. McGovern. Thank you very much, Mr. Chairman. I want to 
thank you and express my appreciation to this committee for 
your past support for the Blackstone Valley National Heritage 
Corridor, a destination which has brought attention to its 
communities. As you know, the corridor is in Massachusetts and 
Rhode Island.
    Mr. Regula. I am very familiar with it, because we have had 
it in the past. I have a corridor in my district. What do you 
need this year?
    Mr. McGovern. Money.
    Mr. Weygand. The amount of money we are looking for, Mr. 
Chairman, is approximately $2.2 million for park construction. 
The Department of the Interior has always put in operational 
money, as well as interpretive money and technical assistance 
money. But the real key is construction money.
    Mr. Regula. Do you want to extend it?
    Mr. Weygand. We want to do actually renovation and 
construction within the corridor, which really has not been 
done. Since its designation about 12 years ago, and I grew up 
on the Blackstone River in Pawtucket, Rhode Island, four of us 
actually, Patrick Kennedy has perhaps the largest share in 
Rhode Island. My district has a part of it in Rhode Island. Jim 
McGovern has the next one, and Richard Neal has the next one.
    Mr. Regula. What is the portion of it?
    Mr. Weygand. Forty-six miles, I believe, and it's about 14 
to 20 miles wide.
    Mr. Regula. Oh, really?
    Mr. Weygand. Yes.
    Mr. Regula. So it is quite a corridor, then.
    Mr. Weygand. It goes along the Blackstone River, but it 
also shoots out with some of the spurs or the tributaries that 
come off it because some of the mills and the industrial 
development that occurred along it. So it is actually a 
corridor. In some parts, it is about 14 miles wide, maybe 
longer.
    But primarily, it is probably two or three at its mean 
width.
    Mr. Regula. Is there hiking, bicycling, camping?
    Mr. McGovern. Everything.
    Mr. Weygand. We have all of it. Matter of fact, the State 
of Rhode Island is doing some bond issues right now, has 
already done a design on a bicycle corridor that runs upit. I 
believe Massachusetts is working on it.
    Mr. McGovern. We are trying to get some funding in ISTEA 
for the bike path.
    Mr. Weygand. As well as we are for the bike path.
    Mr. Regula. What kind of local money do you have? We are 
always looking for matches.
    Mr. Weygand. What's happened on the local front, I will 
speak for Rhode Island, and I am sure Congressman Neal and 
Congressman McGovern will talk about Massachusetts, but in 
Rhode Island what we have seen is the cities have contributed 
money for interpretive centers and other types of things. They 
have also begun to do municipal parks along the edge of the 
river. We are having some private development with regard to 
businesses who are trying to get close to the river for 
development.
    And we actually have through contributions a boat called 
the Explorer which takes, and I have actually been a tour guide 
on it, people up the river to show them what the river looks 
like from the river side out versus looking down. When I was a 
kid growing up, there were mattresses, tires, cars and all 
kinds of things in the river. It was just a garbage place. Now 
what we have also seen is kids, like the kids from Nebraska 
here, come in and clean up the river. Advocates have been doing 
that. Same way up through Massachusetts, up through Worcester. 
So we have the advocacy, we have the private investment.
    Mr. Regula. Corridors really generate volunteerism.
    Mr. McGovern. Absolutely. I have never seen anything that 
has brought the community closer than this. Business, students, 
elected officials at every level. The excitement it has 
generated is really quite incredible.
    Mr. Regula. Was this river part of the textile industry?
    Mr. Weygand. Yes, that is what the corridor was for. It was 
part of the industrial revolution. Slater Mill, which is the 
first major mill in the United States, is right on the mouth of 
the river.
    The other thing that is good is that we have actually used 
it in terms of tourism for our State. It now becomes a tourism 
destination. We have a sister city in England, the city 
councils have gone back and forth and exchanged.
    So it is working very well. But the problem we have, quite 
frankly, is the Federal Government has not invested some real 
construction money into it. And that is probably the key for 
Massachusetts, as well as Rhode Island.
    Mr. Regula. Will the States put in any match, if we made a 
grant condition on a State match? We like to stimulate the 
States.
    Mr. Neal. The State is very interested in doing that. The 
Chatucket extension that has been proposed would include State 
participation.
    Mr. Weygand. In the State of Rhode Island also we have a 
bond issue which will go out this year for greenways and 
bikeways which will include this as well.
    Mr. Regula. Do you have a governing group that comes from 
both States?
    Mr. Weygand. Yes.
    Mr. McGovern. Yes.
    Mr. Weygand. It is an interstate group of people who have 
developed a master plan as well that the Secretary has 
approved.
    Mr. Regula. Do you think that if we made the appropriation 
subject to some kind of a match from the local communities, 
this would stimulate them to give you some help?
    Mr. Neal. Maybe I could speak to that, Mr. Chairman. I 
think what might be a good idea, since you raise that question, 
is perhaps if you were to visit to make that argument. Senator 
Chafee has been terrific on this, as have Congressmen Weygand 
and Kennedy and McGovern. And first, let me thank you as well. 
As the weather changes, I am back here asking you for support 
for this project every year.
    Mr. Regula. I like the corridors. It is just a matter of 
having the money. I know ours is very popular. It is a matter 
of money and a matter of trying to stimulate the local people 
to contribute.
    Mr. Neal. Right. I think the dollar match on the 
Massachusetts side is about four to one, private to public. So 
it has been very helpful.
    Mr. Regula. We could make it either/or. Just so it is 
matched, what the Feds do would be matched either by the 
private sector and/or the State and/or the local community.
    Mr. Weygand. And in-kind, because we have a lot of 
companies along the river who have actually donated, for 
instance, the Explorer boat that I was telling you about, part 
of it, hulls were actually developed by private businesses for 
it, and people in Massachusetts have done the same thing.
    So if the formula is flexible enough to allow for in-kind 
public and private match to the Federal match, I think you 
would see that the $2.2 million we are talking about could 
easily be matched, if you're flexible, Mr. Chairman, in the way 
it is matched.
    [The statements of Messrs. Neal, McGovern, Kennedy and 
Weygand follow:]

[Pages 382 - 383--The official Committee record contains additional material here.]


    Mr. Neal. We would love to have you come up and take a look 
at it.
    Mr. Weygand. Give you a tour on the boat.
    Mr. Regula. It's a big country.
    Mr. Neal. You're that prominent, Mr. Chairman.
    Mr. Regula. I really enjoy looking at these. We are going 
to do a couple over the Easter recess.
    We will do the best we can. We do not know exactly what we 
are going to have in our allocation, whether it will be up, 
down or whatever. It depends on how much ISTEA takes away from 
us.
    Mr. Neal. Well, we are going to rush right over to the 
Floor today to help Mr. Shuster. I do not know what to tell 
you. He has more than a little enthusiasm for that endeavor. 
[Laughter.]
    Mr. Regula. That is just reality.
    Thank you very much.
                              ----------                              

                                          Wednesday, April 1, 1998.

            BAIR ISLAND (DON EDWARDS SAN FRANCISCO BAY NWR)

                                WITNESS

HON. ANNA G. ESHOO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Okay, the gentlelady from Bair Island. I know 
your story pretty well.
    Ms. Eshoo. I know you do. Good morning, Mr. Chairman.
    Mr. Regula. I have not had a chance to talk to Doug 
Wheeler.
    Ms. Eshoo. Well, let me just make some comments for the 
record. I know that you know this case as well as each one of 
us from my area in California. It is Bair Island.
    For the students that--excuse me--I have my back to, you 
should know that the Chairman travels all over the country to 
see the projects that we come here requesting the dollar 
assistance for. He traveled to California last August when 
members of Congress really look forward to taking that time off 
and not working and being with their families. But he took the 
time and trouble to come to California to see this project.
    I am requesting today, Mr. Chairman, the remainder of 
dollars that would complete the purchase of Bair Island.
    Mr. Regula. The State has yet to contribute.
    Ms. Eshoo. Exactly. Well, they have come up with $1.1 
million. And I think your telephone call to Doug Wheeler, which 
I certainly will back up, would be not only appropriate but 
certainly helpful. It's the third year I've come before the 
committee. Were it not for the significant down payment last 
year, this project would not be where it is.
    The Peninsula Open Space Trust Post, I should add, of the 
$5 million that they have committed to raise, they have, I 
believe $4.1 million to date. That represents over 3,000 
individual contributions. So the people of the area have really 
rolled their sleeves up. I know you like to see a partnership, 
and I think this is one of the better ones in the country.
    Mr. Regula. It is impressive what they have done.
    Ms. Eshoo. It is. Very impressive.
    So you know how strongly we feel about it. You came, you 
got your boots, you went out there. I have a full statement for 
the record, and I would like to submit that to you.
    If you have any questions at this time, I would be happy to 
answer them.
    [The statement of Ms. Eshoo follows:]

[Pages 386 - 387--The official Committee record contains additional material here.]


    Mr. Regula. I know the project well.
    Ms. Eshoo. The U.S. Fish and Wildlife Service, Mr. 
Chairman, has placed this at the top of their list. And they 
continue to support the project, certainly from the region.
    Mr. Regula. How about Ducks Unlimited?
    Ms. Eshoo. They have not participated in this, no. They 
have not.
    Mr. Regula. Okay, well, we are very aware of your project. 
It's a good project. I think if we can get the State to come 
along as we expected last year, we will be able to finish it.
    Ms. Eshoo. They have done $1.1 million so far. So maybe 
between the two of us being a good set of bookends, we can eke 
some more money out of them. More than anything else, I want to 
thank you for your support and for the time and trouble that 
you have taken to not only come to California, but to ask very 
good questions and then come away with a fuller picture of what 
we are trying to achieve there. Without your support, we could 
not do this.
    Mr. Regula. We are happy to do it.
    Ms. Eshoo. Thank you. We are pleased with what we are able 
to bring to you, too. We know that you like to motivate the 
dollars from the State, examine what the private sector, the 
community is willing to do. And that is why I think this is a--
--
    Mr. Regula. You have a good organization in Post.
    Ms. Eshoo. Absolutely. They are superb.
    Mr. Regula. Just a little aside, since we have started 
charging fees in the parks, vandalism is down. People become 
stakeholders. It is true here, you said 3,000 people have 
contributed. When they make a contribution, they are buying 
into the project, which I think strengthens it.
    Ms. Eshoo. And it becomes, as I have said to people in the 
community, their voices and what they choose to do really is 
the most eloquent statement that can be made. Because anyone 
can come here and say, this is a fabulous project, this is the 
money that we need, we need 100 percent Federal funding. But we 
are stretched, and the community needs to make its expressions 
known as well.
    Mr. Regula. And the community will thank you and others for 
leaving this legacy. Because as the greater Bay area becomes 
probably double your population in the next 25 to 50 years----
    Ms. Eshoo. Yes, when you flew over it, you could see where 
the green belt was and the incursion of the development. It 
will be your legacy as well, Mr. Chairman.
    Mr. Regula. Okay, thank you.
    Ms. Eshoo. I'm glad the students are here, too.
                              ----------                              

                                          Wednesday, April 1, 1998.

           BLACKSTONE RIVER VALLEY NATIONAL HERITAGE CORRIDOR

                                WITNESS

HON. PATRICK J. KENNEDY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    RHODE ISLAND
    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. From what I understand, just to reiterate, I 
am sorry that the White House did not put up the additional 
money that we are requesting for park operations, because we 
doubled the size of the corridor and the construction funds. 
Because they are integral, as you know, to making the project 
work.
    In any event, because I remember talking to you a number of 
times on the Floor about this. We wanted to get what the 
corridor needed, and obviously, we were not helped by the fact 
that the White House did not put in for the full amount. But 
this committee did recognize the need to put in sufficient 
funds to keep it going adequately.
    Obviously, it has not been enough, but we appreciate the 
committee, it did more than the White House did.
    Mr. Regula. I am familiar with what you are doing, and I 
like the corridors. I asked the other members who were here 
representing the corridor, if it would work if we made any 
allocation conditioned on a match from a private, county, 
State, or local entity, whatever. It leverages our dollars if 
we can do that.
    Mr. Kennedy. There is a great deal of support for the 
corridor. I feel that I could actively lobby my local people to 
put up some money, if there is sufficient latitude to where the 
money comes from, from the private sector, I think we can do 
that.
    Mr. Regula. I do not see why we cannot give you broad 
latitude. The corridor bill we passed in the Omnibus Parks Bill 
a couple of years ago had a match requirement for corridors. We 
put a maximum of a million dollars a year for the Federal 
share, and conditioned it on an equal amount from whatever 
source.
    Mr. Kennedy. I would think that would be a big help. It 
gives us something, whereas we would not have it. We would 
certainly welcome that as an opportunity.
    Mr. Regula. That is probably the approach we will try to 
take.
    Mr. Kennedy. Thank you.
    Mr. Regula. Thank you.
                              ----------                              

                                          Wednesday, April 1, 1998.

           MISSISSIPPI NATIONAL RIVER AND RECREATION AREA/NPS

                                WITNESS

HON. BRUCE F. VENTO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MINNESOTA
    Mr. Regula. Mr. Vento.
    Mr. Vento. Thank you, Mr. Chairman. This is service. I 
appreciate the chance to visit with you formally and put on the 
record my statement. I would ask to submit for your files or 
record or however you prefer Department of the Interior 
documents and papers that deal with a memorandum and a contract 
signed by the Park Service and so forth, with respect to this 
Mississippi National River Recreation area.
    Mr. Regula. Is it an existing area?
    Mr. Vento. Yes, Mr. Chairman. We had designed it in 1988, 
set up a commission and they had come forth with a general 
management plan. Subsequently, the Science Museum of Minnesota 
made a determination to build about a million dollar facility 
on the banks of the river, adjacent to the St. Peter Sandstone 
Bluffs, which define the river valley in this area.
    So it is a spectacular site. And they had invited in the 
Park Service positively responded to in fact locate in this 
facility, the construction is underway for that facility. And 
so I am requesting that we provide the funds to execute the 
agreement that Secretary Babbitt and the Park Service have 
made.
    [The statement of Mr. Vento follows:]

[Page 391--The official Committee record contains additional material here.]


    Mr. Regula. Would this be for construction?
    Mr. Vento. It is for the fixtures and the work inside. They 
will occupy about 8,000 square feet in the entrance to the 
facility.
    Mr. Regula. The Park Service would?
    Mr. Vento. Yes. And they need the ability to do the 
fixtures in terms of having the river gallery, which they have 
in terms of their visitor center-like environment. It would be 
for the planning of that and the execution of it. We also have 
a commitment to begin work on a facility on the river site 
itself, so it would be an education center.
    Mr. Regula. How much money are we talking about?
    Mr. Vento. We are talking totally this year about $2 
million, Mr. Chairman.
    I also want to put a plug in for the other facility that 
has worked in partnership with the Minnesota Historical 
Society, which is our Ship Hope in Minnesota that Congressman 
Sabo has written a request for, which deals with the St. 
Anthony mill site, which is a Minnesota Historical Society 
adaptive area for interpretation. The milling activity on the 
river, as you know, was the home of Pillsbury and General Mills 
and other such.
    We have done a little bit of milling in terms of the using 
water power and so forth. Today, it's obviously changed a great 
deal.
    So these are all collaborative. Specifically, the Science 
Museum agreement is something that needs to be executed now.
    I know that you have a tough budget. I applaud the efforts 
of the Department of the Interior in terms of safety and 
health.
    Mr. Regula. We will do what we can. We do not know what our 
allocation is, so we cannot really tell.
    Mr. Vento. These are existing contracts, and I think it 
essential to in a sense try to complete and give direction to 
it. I think this direction obviously leverages our dollars in 
terms of going further, if we're going to build visitor 
centers.
    Mr. Regula. Do you have all the information in your 
statement?
    Mr. Vento. I have the information in my statement, and I 
have attached documents for your consideration, for your file 
or record, however you want to deal with it. I do not want you 
to print voluminous records, but I think you need the 
information.
    Mr. Regula. Okay, thank you.
    [Recess.]
                              ----------                              

                                          Wednesday, April 1, 1998.

                              THE PRESIDIO

                                WITNESS

HON. NANCY PELOSI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Ms. Pelosi.
    Ms. Pelosi. Thank you very much, Mr. Chairman. I know that 
you are very familiar with the request I am going to make about 
the Presidio because of your continued interest and leadership 
on this issue. Without you, we would not be where we are today, 
which is well on our way to a successful transition. So I want 
to thank you and members of the committee for all of your 
leadership and cooperation on this.
    I will submit my statement for the record.
    Mr. Regula. Yes, and I really know the situation well. If 
things work out, we will take another look at it this summer.
    Ms. Pelosi. Right. And as you know, our request is for $25 
million, $14.9 million of that goes to the trust. The balance 
is for the Park Service for the transitional operations, the 
Treasury borrowing. It includes $25 million each fiscal year, 
as is in the President's budget.
    We have great success with Crissy Field because of your 
cooperation.
    Mr. Regula. I saw that story on Crissy Field. It is going 
to be great.
    Ms. Pelosi. I think this will just be the start of the 
serious philanthropy that we need in the Presidio, the 
environmental cleanup and the rest of the Presidio is 
important. If you have any questions about staffing and the 
rest, it is in my statement.
    [The statement of Ms. Pelosi follows:]

[Pages 394 - 397--The official Committee record contains additional material here.]


    Mr. Regula. I met the new director.
    Ms. Pelosi. We are very impressed.
    Mr. Regula. I think he has the background that really will 
be helpful.
    Ms. Pelosi. I stand ready to answer any questions you may 
have.
    Mr. Regula. It seems to be going well so far.
    Ms. Pelosi. We just have to withstand an initiative on the 
ballot, to which I have written an opposing ballot argument. 
But whatever happens on the ballot, I think we are making very 
clear to everyone there that Congress will determine the fate 
of the trust.
    Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
                              ----------                              

                                          Wednesday, April 1, 1998.

  HISTORICALLY BLACK COLLEGES AND UNIVERSITIES HISTORIC PRESERVATION 
   PROGRAM CONGAREE SWAMP NATIONAL MONUMENT SOUTH CAROLINA HERITAGE 
                                CORRIDOR

                                WITNESS

HON. JAMES E. CLYBURN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    SOUTH CAROLINA
    Mr. Regula. Mr. Clyburn.
    Mr. Clyburn. Thank you very much, Mr. Chairman. Let me 
thank you for allowing me to be here this morning and thank you 
for your help last year on the three projects I am here to talk 
about.
    I looked on the list and I saw a blank space behind my 
name. I hope that does not mean what it could mean. It could be 
a whole wide range.
    Mr. Regula. We could not fit all of the issues on the list.
    Mr. Clyburn. Thank you.
    First of all, Mr. Chairman, I am interested in the 
Historically Black Colleges and Universities Historic 
Preservation Program, as you know. That program is authorized 
at $29 million, and you were very kind last year, appropriated 
$5 million for us, that leaves $24 million of the authorized 
amount there.
    I think the Administration has recommended $15 million, I 
believe, in their budget. Is it $9 million increased over last 
time? Right.
    Mr. Regula. Their total recommendations for the bill are 
$1.1 billion over last year, and there is no way we are going 
to get there. But we will do what we can.
    Mr. Clyburn. I really appreciate that.
    As you know, what I want to make clear, of the remaining 
$24 million authorized, only $5.1 million of that is authorized 
for South Carolina. So I am not here just to argue for my 
State, I am here to argue for the program, as it is a national 
program.
    I do have two other projects that are projects in the State 
I am very interested in. First, $3 million for the Congaree 
Swamp National Monument in South Carolina. We are very 
interested in that. I want to point out, Mr. Chairman, that 
this $3 million would be 50 percent of what the project will 
cost. We have a coordinated effort by parties in the State, the 
South Carolina Army National Guard, the Air National Guard, the 
River Alliance, the Friends of Congaree, all agreeing to put up 
$3 million. But of course, their agreement is on whether we can 
get this.
    Finally, we are requesting $1 million for the South 
Carolina Heritage Corridor.
    Mr. Regula. Is that corridor in the Omnibus Bill?
    Mr. Clyburn. Yes, sir. I forget exactly what the level was 
last year, but we would like the authorized amount.
    Mr. Regula. It is a match, too, the way the bill is 
written.
    Mr. Clyburn. Absolutely. I want to point out that of the $5 
million appropriated last year, only $800,000 came to South 
Carolina for Allen University.
    Mr. Regula. In the Historically Black Colleges account?
    Mr. Clyburn. Yes, sir. We have already put up the$800,000 
match. They have been down there, they are now doing bids. This is 
having a tremendous positive impact on that campus, in that community. 
So I just wanted to point that out to let you know that these are 
efforts, this building has been boarded up for almost 40 years.
    Mr. Regula. It is now being rehabbed?
    Mr. Clyburn. It is now being rehabbed because of your 
kindnesses last year.
    Mr. Regula. Are you familiar with the Park Service 
assessment of priorities?
    Mr. Clyburn. Yes, sir, at my request.
    Mr. Regula. We will of course be sensitive to that.
    Mr. Clyburn. Please. That is exactly right.
    Mr. Regula. Thank you very much.
    [The statement of Mr. Clyburn follows:]

[Pages 400 - 401--The official Committee record contains additional material here.]


                                          Wednesday, April 1, 1998.

                           SEMINOLE REST SITE

                                 WITNESS

HON. JOHN L. MICA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Regula. Mr. Mica. Is this the one on the Tamiami Trail?
    Mr. Mica. No, sir, this is Seminole Rest in Central 
Florida.
    Mr. Regula. Is that the one we visited? We were in Florida 
for a tour of the Everglades, and we stopped to see the 
Seminole Indians.
    Mr. Mica. I will submit this full statement, if I may, for 
the record, Mr. Chairman. This site is located in Central 
Florida. And actually, you can not tell very well from this 
map. Along here is Canaveral National Seashore. This is the 
ocean side. In between is a lagoon that is called Mosquito 
Lagoon and Inlet.
    The National Seashore Park runs for about 29 miles along 
the coast. It is the last undeveloped stretch of ocean frontage 
on the entire Florida east coast.
    Mr. Regula. Is that now a national park?
    Mr. Mica. Yes, national park, largest ocean front in 
Florida.
    The Park Service acquired in 1988 property over on this 
side of this picture. What we have over on this side is an old 
Indian shell mound. On this side, we have another Indian shell 
mount, it is probably one of the last remaining shell mounds 
fairly intact in Florida. The Indians, thousands of years ago, 
developed these shell mounds.
    One reason that it is intact, in the 1800s, they built two 
pioneer homes on top of the mounds. Some of the mounds are on 
the earliest Spanish maps. But we have two pioneer 1800 
residences on there.
    These have been left in total deterioration since 1988. The 
area has been boarded up.
    Mr. Regula. Who has title to these right now?
    Mr. Mica. The National Park Service.
    Mr. Regula. This is within the boundaries?
    Mr. Mica. Oh, yes.
    Mr. Regula. Is this part of the one out along the seashore?
    Mr. Mica. Yes, exactly, but it is on the other side.
    Mr. Regula. I understand.
    Mr. Mica. So they own it, they have had title to is since 
1988, and it is just boarded up. Since I came into office, we 
have been trying to get some attention to this.
    What they have done so far is they have conducted a study, 
I think they spent $50,000 or $100,000 on the study. We have 
had some very severe weather and storms in Florida, and as you 
can see, properties deteriorate. They did spend about $18,000 
to $20,000 doing some temporary roof repair, so that the entire 
buildings would not be destroyed.
    Mr. Regula. Why are these unique?
    Mr. Mica. They are unique because they are pioneer Florida 
homes, and they are also on top of these Indian shell mounds. 
So while they may not be old by standards of some other areas, 
it is very unique to Florida.
    Mr. Regula. Your proposal in this study is just geared to 
restoring these two homes.
    Mr. Mica. These two homes, and also access to the shell 
mount. They have developed a full plan, the full plan is an $8 
million plan. We are asking for $3 million, and we have a 
breakdown of how that can be phased in, just to restore the 
homes.
    The other problem is it is not an easy thing to do, because 
you are dealing with an Indian shell mound. If this is just 
where we could go in and take bulldozers and plow it down, but 
we have had to satisfy all kinds of cultural, historic, 
artifact interest, and to get access to the property is a 
little bit more expensive than usual.
    As a developer, I could do this for 10 percent if I did not 
have to deal with the cultural and historical issues.
    Mr. Regula. You will use these like museums once they are 
restored?
    Mr. Mica. Yes. And there is also an adaptive use. I guess 
they have several plans in there for caretakers. Also, there is 
no ability to do anything on this side of the lagoon. So they 
need some facilities on that, they use it as a caretaker and 
storage part of it. You donot want to all be open to the 
public.
    But right now, it is all boarded off and sealed off, and it 
has remained that way.
    Again, we can continue to put money into it for minor 
repairs, just to stabilize it. But we have to do something in 
the long term. It is one of our most historic properties. You 
see the condition. We cannot afford to have it deteriorate.
    [The statement of Mr. Mica follows:]

[Pages 404 - 408--The official Committee record contains additional material here.]


    Mr. Mica. It is a priority in one of the President's 
priorities. It may not be too high on the scale, because we 
have just started in the last two years trying to beat the 
drums to get something done.
    It is a very high priority with the community, though, 
because the thing is sitting there and it is a disgrace.
    Mr. Regula. What is the nearest community?
    Mr. Mica. We have New Smyrna Beach, Edgewater, it is 
actually in the city of Oak Hill. It is also important to Oak 
Hill, because this is a fishing village that dates back to the 
mid-1800s. Florida imposed a net ban, and most of these folks 
in that area have been put out of work.
    Mr. Regula. Did the State put any money in?
    Mr. Mica. We can get participation, I'm sure, from the 
State. We have also restored another house, El Doro, and this 
committee has helped us. There is another house on the seashore 
park, another part of it. A good portion of that was funded by 
the local community through local efforts. So they have been 
very good participants.
    But we are getting more and visitors. The faculties that we 
have there are being strained to the max.
    Mr. Regula. We like to make what we do conditioned on State 
and/or local participation so we can stretch the dollars.
    Mr. Mica. Absolutely. I'm sure we can get participation. We 
do need a Federal commitment, too, and I would pledge to help 
with that.
    Mr. Regula. Okay. Thank you for coming.
                              ----------                              

                                          Wednesday, April 1, 1998.

 SANDY HOOK UNIT, GATEWAY NATIONAL RECREATION AREA CHURCH OF THE SEVEN 
      PRESIDENTS, LONG BRANCH EDISON TOWER AND MUSEUM, MENLO PARK

                                WITNESS

HON. FRANK PALLONE, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Regula. Mr. Pallone.
    Mr. Pallone. Thank you for hearing me once again. I have a 
full statement for the record, which I will submit.
    I am only going to talk about Sandy Hook and the OCS 
moratorium today. You have been very helpful in the past in 
terms for getting appropriations for various purposes in Sandy 
Hook. It is part of the Gateway National Recreation System in 
the New York Harbor area. We have about 2.5 million visitors 
annually.
    What I would like to request is $5.59 million for park 
operations in fiscal year 1999. But I wanted to talk about 
several improvement projects at Sandy Hook, some of which are 
in the President's proposed budget.
    Mr. Regula. Let me ask, can they collect fees there?
    Mr. Pallone. Yes, they do collect fees.
    Mr. Regula. So this will generate some money for some of 
these things.
    Mr. Pallone. Yes, but I think the way it works, Mr. 
Chairman, is that the fees go into the general Gateway budget. 
So they don't necessarily earmark the fees.
    Mr. Regula. Is Sandy Hook part of Gateway?
    Mr. Pallone. Yes.
    Mr. Regula. So the superintendent of Gateway, could make a 
decision as to how to use their fees. We give them a lot of 
latitude on that.
    Mr. Pallone. I don't know if they do, or if it comes from 
D.C. But I know that the fee is collected, and the locals are 
always complaining to me, they think they collect more than 
they get back for their particular unit. But whether that's 
true----
    Mr. Regula. Eighty percent stays there.
    Mr. Pallone. Whether that is true or not, I do not know.
    In any case, I wanted to talk about several improvement 
projects. You helped us last year, actually it has been a 
couple of years now. Because what we have at Sandy Hook is, 
there is a critical zone at the entrance to the hook which 
washes away if it is not adequately protected by sand. And 
there are a lot of things that go on out there, there is a 
Coast Guard station, a NOAA lab, all kinds of government, 
State, Federal and local government agencies and educational 
institutions.
    And they are all cut off. About 1,000 employees work at 
Sandy Hook, even in the winter, as opposed to the summer, when 
you have the 2.5 million visitors. And if this critical zone is 
cut off, as it has been twice this year, once for 48 hours and 
another time----
    Mr. Regula. By high water?
    Mr. Pallone. By high water and storms. Northeasters, 
essentially.
    Mr. Regula. You are talking about a bridge.
    Mr. Pallone. Well, no. What we have done, and you have 
actually already helped with this is, we used shore protection, 
beach replenishment to build up the critical, to keep water 
away. But what happened is last year, in the budget, you 
appropriated $4.8 million. We used most of it to build a 
pipeline, so we can take sand that washes north and pump it 
back into the critical zone, as well as for some beach 
replenishment where they take the sand from offshore.
    But in order for this to be effective, we have to build up 
the beach to where it was a few years ago before it started 
washing away. Then the pump can work on an annual basis.
    So that is what I am requesting. We need about $14 million 
in order to have the beach replenishment intact the way it was 
five or six years ago, when the last beach replenishment 
project was done.
    Mr. Regula. Have you gone to the Corps of Engineers at all?
    Mr. Pallone. Well, they would do it, but I always thought 
the funding had to come through you.
    Mr. Regula. They can do it if they choose to spend their 
own money, too.
    Mr. Pallone. They have always told me the opposite, that 
the appropriation had to come through Interior.
    Mr. Regula. I cannot answer as to whether they have spent 
their own money in the past or not. Do you know, Debbie?
    Ms. Weatherly. Yes, they used to do it.
    Mr. Pallone. Not in the 10 years I have been here. Maybe 
prior to that. But in the 10 years I have been here, I have 
always had to ask you for the funding. This was first done when 
I was first here, maybe in 1989, 1990, when there was about $6 
million to do the large beach replenishment. And then it 
gradually wore away of the next seven or eight years.
    So that is why we came up with this pump system. But unless 
we build that beach up again to where it was, then the pump 
really is not pumping anything essentially. That is it on that 
one.
    The other thing is the lighthouse. The President has put in 
$884,000 for rehab of the Sandy Hook lighthouse, which is the 
oldest operating lighthouse in the country. I just would like 
you to make sure that that is in the budget again.
    [The statement of Mr. Pallone follows:]

[Pages 412 - 415--The official Committee record contains additional material here.]


    Mr. Regula. As I say, the President's total request for 
this subcommittee is $1.1 billion over what we had last year. 
And I think it is highly unlikely that our allocation through 
the budget process will be much over what we had last year.
    Mr. Pallone. Well, see, your allocation is less than what 
the President has requested. I was not aware of that.
    Mr. Regula. Oh, yes. We do not know yet what it is going to 
be. It won't be as high as the President's request, though the 
administration plays little games. I know this comes as a real 
shock to you.
    Mr. Pallone. No, but----
    [Laughter.]
    Mr. Pallone. I did not realize your allocation was so much 
less than what he requested.
    Mr. Regula. Well, both parties have done some of this, you 
know. They send up a budget and all they are doing is using a 
pencil. Then we have to be the heavies, saying, yes, that is 
fine, but where is the money.
    As you know, $1.1 billion more than last year is not likely 
to materialize. So what we would like you to do, Frank, is get 
to the staff your priorities. Assuming we cannot do it all, 
what is most important.
    Mr. Pallone. Okay. Well, I am trying to do that today, but 
I realize, do not misunderstand me, I understand that just 
because it's in the President's budget, I know you cannot 
necessarily do all those things.
    Let me just mention one more thing. And I will not get into 
details. But in the President's budget also there is a whole 
list of rehab for the water and sewer systems at Sandy Hook, 
the code and fire safety, those kinds of code and life safety 
improvements. I just want you to know that I support those as 
well. But we will look at it.
    Mr. Regula. I know that would be a high priority for you, 
and it certainly would be for us.
    Mr. Pallone. Because of the life saving aspect.
    Mr. Regula. Start out with health and safety as number one, 
and these other things as possible.
    Mr. Pallone. I will go back and do that. Let me just 
mention one other thing, and that is that OCS moratorium. I 
know you put it in every year for the pre-leasing and the 
activities. I would like you to do the same thing again for the 
Mid-Atlantic.
    Mr. Regula. Well, in all probability, we will, even though 
personally I do not agree with it. But I can count votes.
    Mr. Pallone. All right. Thanks again.
                              ----------                              

                                          Wednesday, April 1, 1998.

    BUREAU OF LAND MANAGEMENT: NATIONAL HISTORIC INTERPRETIVE CENTER

                                WITNESS

HON. BARBARA CUBIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WYOMING
    Mr. Regula. Mrs. Cubin.
    Ms. Cubin. Thank you, Mr. Chairman.
    I appreciate the opportunity of being here. And I am 
pleased to inform you that the legislation that relates to the 
issue I am to discuss passed on unanimous consent yesterday, I 
believe it was.
    H.R. 2186 is the National Historic Interpretive Center 
Authorization Act. It requests $5 million to be authorized for 
use by the Bureau of Land Management to construct the National 
Historic Trails Interpretive Center.
    Here is something I think I have not made clear to you in 
the past, and to other members of the committee. This is not a 
new project. BLM has already expended $500,000 for this 
project. The City of Casper has increased sales taxes in that, 
the money that the city, the State, and the private foundation, 
along with the BLM, signed a memorandum of understanding in 
1992. And each spelled out how much the other party would raise 
and what the commitments would be.
    Everyone has met their commitment except the BLM. The 
citizens of Casper voted to increase the sales tax to pay for 
their share. The State of Wyoming gave $700,000. The city also 
donated 10 acres of very, very prime land for this project.
    Mr. Regula. This would be a new building.
    Ms. Cubin. It is a new building, but the way it is setup, 
between the money that the private people, the foundation brings 
together, is that it is only for construction. There will be no 
maintenance costs nor operating costs to the BLM once the building is 
built.
    Mr. Regula. What would this interpret?
    Ms. Cubin. I am glad you asked that. In Casper, Wyoming, 
where I live, it is the only place in the country where the 
wagon trails converged. There is the Mormon Trail, the Oregon 
Trail, the California Trail and the Pony Express. Also the 
Bozeman Trail and the beginnings of the Bridge Trail start 
there in Casper, plus many Indian crossings.
    When you think of a trail, you think of----
    Mr. Regula. So it is designed to tell the story of the 
confluence of the trails?
    Ms. Cubin. That is exactly right. It is an interpretive 
center. It is a thing that you walk through and you experience, 
life-size, the wagon train coming through. This is not just 
something that is of interest to the people of Wyoming. I 
cannot remember the year, but it was like 1993 or 1994, the 
tourism to Grand Teton National Park and Yellowstone National 
Park was way down.
    But at the same time, we experienced a higher, by about a 
million higher, number of tourists from around the country to 
visit the trails and attend the events that were held to 
celebrate the 100th anniversary of the trails. People actually 
get in wagon trains and go along for a few days and live the 
life.
    Mr. Regula. Were Lewis and Clark there?
    Ms. Cubin. Lewis and Clark were in Montana, I think, more 
than in Wyoming.
    Now, there is another thing I need to tell you, see, I 
should have just followed my notes, instead of getting all 
disorganized.
    Mr. Regula. It is part of the strategy.
    Ms. Cubin. It is. [Laughter.]
    Congress has recognized the historical significance of 
these trails. The National Trail System Act, which was amended 
in 1978 and 1992, designates the Oregon, Mormon, California and 
Pony Express Trails as National Historic Trails. It also 
requires the Secretary of the Interior to protect, interpret 
and manage them.
    Mr. Regula. That would be part of the center, though?
    Ms. Cubin. That would be the center.
    Mr. Regula. Can this be done in increments?
    Ms. Cubin. I do not know. I will get back to you on that. 
The reason I do not know that is I know they are ready to dig 
the hole and pour the concrete. Because everyone else has come 
forward with the money they committed to raise. And the 
surveying, the posts are in the ground.
    Mr. Regula. But you just got the authorization?
    Ms. Cubin. Right, but the BLM in 1992 agreed to spend the 
money out of their budget in 1992. They just have not done it.
    So we do have an offset that we will present, I think we 
sent a letter to you about that. But they agreed to do this in 
1992, and have not found it yet to do so. But everyone else has 
performed their part.
    [The statement of Ms. Cubin follows:]

[Pages 419 - 421--The official Committee record contains additional material here.]


    Mr. Regula. Okay, we will take a good look at it.
    Ms. Cubin. I know you will, Mr. Chairman, and you will just 
love the offset we are sending to you. Thank you.
    Mr. Regula. What is the offset?
    Ms. Cubin. We will tell you later. [Laughter.]
                              ----------                              

                                          Wednesday, April 1, 1998.

              URBAN PARKS AND RECREATION RECOVERY PROGRAM

                                 WITNESS

HON. GEORGE MILLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Okay, Mr. Miller.
    Mr. Miller. She is right on the visitor center. I had an 
opportunity to go out on another matter to that area. When you 
actually get a chance to see these trails in the country, it is 
fairly emotional.
    Mr. Regula. I'm curious, are the trails marked?
    Mr. Miller. Yes, this is an area where the trails actually 
come together, so a number of the trails are in fact marked as 
part of the centennials of the different trails. They are there 
in the ground, there are the ruts.
    Ms. Cubin. The problem is that they are being--my time is 
up, sorry.
    Mr. Miller. You are using mine rather rapidly. [Laughter.]
    Ms. Cubin. They are being destroyed. They are going away, 
because we haven't had the money.
    Mr. Regula. Who has title to the land where the trails are?
    Ms. Cubin. The BLM.
    Mr. Regula. So it is on BLM land, so they do have some 
ability to protect it.
    Ms. Cubin. They do, but not the resources.
    Mr. Regula. Okay.
    Ms. Cubin. Thanks.
    Mr. Miller. Thank you, Mr. Chairman. I am going to be very 
brief. Two points that I would like to make.
    I am going to submit to you longer testimony that has a 
couple of other issues in it with respect to the PAC moratorium 
and the $100 fee that your committee has addressed in the past, 
that are not new. But if I can just take a moment this morning.
    In the President's funding request, there is $2 million for 
the UPARR program, which I think is a vitally important program 
that over the years has provided small grants to several 
hundred cities and States and the District and Puerto Rico to 
try and reclaim recreational facilities that have fallen into 
disrepair. You are familiar with this.
    Unfortunately, in 1995, as the broader budget cutbacks, 
UPARR was eliminated. I think at that time, nearly 200 
communities had put forth matching programs for that 
legislation to try and reclaim these facilities.
    We took this up with the Administration as they were 
putting together their budget. I think this converges with a 
lot of other concerns that all of us have about what happens to 
young children in the after school hours. I think that is why 
so many police departments, recreational professionals, local 
governments, a lot of the major league baseball, the NBA, a lot 
of people have supported this and contributed money to this 
effort and contributed equipment, to try and reclaim some of 
these facilities that are not usable in theircurrent situation.
    I would hope that you would retain that $2 million. I would 
hope that you can do better than that, but I am very aware of 
the pressure that this committee is under, and all the 
competing claims you have. But I hope you would really 
understand that that is part of a mosaic to really help some of 
our young children out in after school recreational 
opportunities.
    Secondly, I would just like to make a recommendation to 
this committee. Last week, our committee, the Resources 
Committee, sat through hearings, actually, it was--you were 
there, appropriations on the Forest Service. I think we are all 
very dismayed about what has happened there and the lack of 
accountability. I think we are somewhat encouraged by the fact 
that the IG and the GAO indicate that the Forest Service is on 
the right track, but it is not going to happen overnight.
    I had earlier introduced legislation which would have taken 
the major funds to salvage the KV, the brush disposal, roads 
and trails, and put them back on budget. I think that would 
work, but I do not know if we are not maybe making life more 
complicated to reform this effort than that. I would just like 
to recommend to this committee that I think maybe what you 
ought to require as part of your report is that those funds 
report to you a financial accounting for the expenditures of 
those funds.
    The problem we had was those funds were distributed 
locally, everybody is kind of individually responsible, and 
nobody is responsible for telling us how they have spent those 
funds. I would think if you told them over the next three years 
to give you annual reports that this may be somewhere between 
bringing them back on budget and keeping them off budget, which 
there is a big constituency in the west, obviously, to keep 
them off budget.
    But also, may continue this realignment of thinking about 
being accountable to us on what is going on with these funds.
    [The statement of Mr. Miller follows:]

[Pages 424 - 427--The official Committee record contains additional material here.]


    Mr. Regula. You heard the news overnight about how they 
have done a large Government audit. I think only a couple of 
agencies passed muster.
    Mr. Miller. Yes.
    Mr. Regula. It is a tragedy, billions of dollars are 
unaccounted for, according to the news.
    Mr. Miller. You and I are asked all the time by our 
constituents, why do you not run the Government like a 
business. There are a lot of reasons we do not, a lot of 
politics in why we do not. But I think when you look at the 
total amount of money in these funds, for them to simply parcel 
them out, and people, as we heard, start changing definitions 
on what the funds can be used for and not be used for, if they 
were to provide you a unitized accounting for those funds, I 
think we would have more confidence that maybe they should 
remain off budget and see where the chips fall.
    Mr. Regula. Well, we had the Forest Service before the 
Subcommittee yesterday and that is one of the things we really 
focused on was management and accountability. You heard that 
same thing from Mr. Dicks at the joint hearing also.
    Mr. Miller. That is just my recommendation. I talked to 
Norm about this, because I think rather than getting into a 
fight to go on budget or off budget, which is a fight without 
an end, maybe this one----
    Mr. Regula. Accountability is the key.
    Mr. Miller. Let's look at this over the next three years 
and see if in fact they are accountable for how they are 
spending the money.
    Mr. Regula. Okay.
    Mr. Miller. That is it for me. Management and 
accountability. My, how I have mellowed. [Laughter.]
                              ----------                              

                                          Wednesday, April 1, 1998.

               LEWIS AND CLARK TRAIL INTERPRETIVE CENTER

                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Regula. Okay. Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, am I following Mellow Miller? 
[Laughter.]
    Mr. Regula. A group of students from your district were 
here earlier. They are with Close Up. They said you were their 
Congressman.
    Mr. Bereuter. I will be meeting in a few minutes with them.
    Thank you very much, Mr. Chairman, for hearing our request. 
I want to thank you first of all for past assistance.
    Yesterday I heard you talk about your frustrations with the 
Administration's request related to the Indian Health Service. 
I am not asking you for anything, although the Administration 
is asking us to ask for an additional $600,000 in design money 
for the Winnebago Public Health Indian Service Hospital, where 
we have worked with you and Mr. Yates for some period of time.
    I have asked Dr. Trujillo to meet with me and explain why 
it is all of a sudden they need $600,000 when we went to bat 
and got them what they wanted in the first place. What have 
they really accomplished with the design money at this point?
    So I am not coming in with their request until I get some 
answers from them.
    Mr. Regula. Good.
    Mr. Bereuter. I also support the Administration's request 
for the Agro-Forestry Center, as it is, and I have some detail 
in my testimony about that.
    Mostly, I want to talk to you about things that relate, 
directly or indirectly, to Lewis and Clark. You know that I 
have a long term interest in this subject, going well back 
before Steven Ambrose wrote his extraordinary book.
    Mr. Regula. Yes, I read it. It is quite interesting.
    Mr. Bereuter. Last year in my district, in the Nebraska 
Arbor Day Center, which you helped fund some years ago, all of 
the State agencies and some of the Federal agencies, stretching 
from Missouri to Oregon, met. There is a Lewis and Clark 
bicentennial council that was formed.
    One of the first places that Lewis and Clark had any major 
activities is a spot called Council Bluff in my district, where 
they first met with the Indian tribes. We hope that is one of 
the bicentennial locations of note. That will be 2003 through 
2006.
    I am the author of the bicentennial coin, which the 
Treasury and Mint want to do in 2003, it will generate a little 
additional funds.
    Also, I am the author of a resolution which encourages 
celebrations up and down Missouri and on west to the Columbia 
River Valley and Basin.
    Near Council Bluff, the first military fort west of the 
Missouri was established in 1819, or 1820. They had large 
numbers of deaths the first winter, in particular.
    Mr. Regula. I remember reading about that.
    Mr. Bereuter. Those graves are unmarked, unfortunately, 
over 160 some graves are unmarked. And they are in a farm field 
we can locate within a quarter mile or something. But the land 
owner at this point is not willing to sell, would swap. He will 
not let us on the property to use some fairly sophisticated 
equipment now that the Army, Defense Department, and the 
Smithsonian has.
    I am asking for a quarter million dollars for survey and 
memorialization planning for that cemetery, which would be 
added to the State historical park, once we determine where 
those graves are. It may require us to lease the property from 
the landowner, so that he does not lose income during the crop 
year involved in searching for the graves.
    I think it is kind of outrageous that we have 160 to 180 
soldiers and officers whose graves are unmarked and 
unrecognized there. It was at one time the largest military 
fort in the United States before it was abandoned in 1927.
    Mr. Regula. He is farming it?
    Mr. Bereuter. He is farming it.
    Mr. Regula. So you would have to use some sophisticated 
equipment to identify graves.
    Mr. Bereuter. Ground sensing radar apparently has some 
hope. Many of the soldiers were buried in uniform, and 
therefore you have some buttons and things of that nature, 
which help them.
    I would like to direct your attention, I assume this whole 
statement can be made a part of the record, and I ask that.
    Mr. Regula. Oh, yes, without objection.
    Mr. Bereuter. To the Lewis and Clark bicentennial. The Park 
Service has requested $399,000 for Lewis and Clark bicentennial 
activities for the National Park Service. I support that, of 
course.
    The council made up of these States with which the 
Department of Army, and the Park Service, Fish and Wildlife 
Service are cooperating, among others, has a fairly ambitious 
program. I am conveying to you their request for an additional 
$775,000 to be spent over some three years.
    Mr. Regula. I see this.
    Mr. Bereuter. Challenge grants, partnership with the 
National Lewis and Clark Bicentennial Council, technical 
assistance and planning for the National Park Service, Lewis 
and Clark study sites and improvements. So that is the nature 
of my request for them, States stretching from Oregon to 
Missouri.
    [The statement of Mr. Bereuter follows:]

[Pages 431 - 434--The official Committee record contains additional material here.]


    Mr. Regula. Okay, we do not know what our allocation is at 
that point. The President's request is $1.1 billion over last 
year, and we know we are never going to get there.
    Mr. Bereuter. Mr. Chairman, what do you suggest my approach 
should be, if I may ask it, with Dr. Trujillo and the Indian 
Health Service coming back to us, saying we need more money 
now, and we do not have any confidence that they have spent the 
money well?
    Mr. Regula. Loretta handles the Indian Health Service.
    Ms. Beaumont. Are you talking about the Winnebago Hospital 
itself?
    Mr. Bereuter. Yes. Now they are coming back and saying, we 
need an additional $600,000 for planning and design. We do not 
understand why they are asking that.
    Ms. Beaumont. The tribe I thought had told me a couple of 
years ago it was $200,000. It is up to $600,000 now?
    Mr. Bereuter. But they did not request it in their budget.
    Ms. Beaumont. No, they did not.
    Mr. Bereuter. So I do not think it is incumbent upon the 
Nebraska delegation and Iowa delegation to really go out and 
request this money. Not until we see what they are doing with 
it.
    Ms. Beaumont. I think the problem with the budget was that 
the Administration really short-funded the Indian Health 
Service earlier on.
    Mr. Regula. They did.
    Mr. Bereuter. That is what you were saying to us at 5:00 
o'clock yesterday, Mr. Chairman.
    Mr. Regula. Correct. I gave a memo to the members, give 
Doug one of the memos.
    Mr. Bereuter. I have it.
    Mr. Regula. Well, that tells the story.
    Mr. Bereuter. Is there any possibility that members could 
sit across the table with you when you have a meeting with the 
Indian Health Service?
    Mr. Regula. Absolutely. They have been here, but if you 
want to set up a meeting with Dr. Trujillo----
    Mr. Bereuter. I have asked for one and they are not 
responding at this point.
    Mr. Regula. I will follow up. We will arrange a meeting and 
invite you. How about that?
    Mr. Bereuter. I would like that.
    Mr. Regula. Let's do that as soon as we get back, and we 
will let you know. I would like to talk to him also.
    Mr. Bereuter. Thank you, Mr. Chairman. I know you will do 
your best with limited resources. My priority in this is the 
$250,000, the site investigation and leasing if necessary. By 
the way, I do not expect this land, the cemetery, probably a 
quarter square mile will end up in Federal ownership. But the 
State would buy it with its State historical park foundation 
funds
    Mr. Regula. There are going to be a lot of ideas for 
millennium projects. In fact, the Administration has requested 
state funding, as well as federal. This might be one project 
the State would want to consider for a millennium project with 
state funding.
    Mr. Bereuter. We will be able to buy it with State or 
private funds through the foundation. Our problem is, we need 
the resources that the Federal Government has for searching for 
the graves.
    Mr. Regula. I understand that, and we could be helpful in 
that respect.
    Mr. Bereuter. Thank you.
    Mr. Regula. We will let you know about that meeting.
    Mr. Bereuter. Thank you very much.
                              ----------                              

                                        Wednesday, April 1, 1998.  

  SHENANDOAH VALLEY BATTLEFIELDS NATIONAL HISTORIC DISTRICT COMMISSION

                                WITNESS

HON. FRANK WOLF, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH OF 
    VIRGINIA
    Mr. Regula. Okay. Mr. Wolf. Frank, you understand the 
problems don't you. You are on the other end of the table most 
of the time. Just more buses and more mass transit, more rail, 
more of something else.
    Mr. Wolf. More of everything and less of money.
    This is a very brief statement, so I will read it. But I 
want to thank you for the opportunity to testify. As you know 
very well, because your staff was very helpful, the Shenandoah 
Valley Battlefields National Historic District Commission was 
authorized in the 104th Congress as part of the Omnibus Parks 
Bill. The Act encompasses 10 Civil War battlefields, including 
Stonewall Jackson's 1862 campaign and also Sheridan's 1864 
campaign, including Cedar Creek, which was the battle that was 
won by both sides, one in the morning by the south and the 
other in the afternoon by the north.
    I request that my whole statement appear in the record.
    In fiscal year 1998, this committee made available $250,000 
for the National Park Service's heritage partnership grants 
account for the Shenandoah Battlefields Commission. The 
committee also made available technical assistance funds for 
Department of the Interior personnel support equaling $100,000 
in additional assistance.
    Last fall, commission members were appointed. They are up 
and running. They have had a number of meetings. Next weekend 
or the weekend after that, they are visiting all of the sites. 
It was signed, as you know, by Secretary Babbitt.
    Because the committee support work is underway, to continue 
this work to preserve America's history, I would ask the 
subcommittee to make available through fiscal year 1999 
appropriations of $250,000 for operational expenses and 
$140,000 in technical assistance. The $43,000 increase would 
provide funding for personnel support for the full year. The 
last time, I think, was for roughly about eight months.
    Your consideration would be appreciated.
    And lastly, it is my understanding that the commission may 
also submit what they call an early action land acquisition 
request for properties in imminent danger of irreversible 
damage, as provided in the law. Should the commission make that 
request, I would respectfully ask that you give every 
consideration to it.
    That is it, and I thank you.
    [The statement of Mr. Wolf follows:]

[Pages 438 - 439--The official Committee record contains additional material here.]


    Mr. Regula. Do you have Manassas in your district?
    Mr. Wolf. Yes, I have Manassas, too.
    Mr. Regula. Have they taken care of the problem there? 
Remember back some time ago we added----
    Mr. Wolf. They have not. It is still going on. By the Park 
Service's own figures, it is a dangerous intersection. In fact, 
I think they call it highly dangerous.
    The Virginia Department of Transportation has come forward 
and made some recommendations. The Park Service does not want 
to cooperate.
    I have asked Lon Anderson with AAA to mediate the two, 
because I think AAA is relatively objective, to bring the two 
sides together. Hopefully, they can resolve it. I worry that 
next month, two months from now we are going to get a major 
accident with kids in a car, because you have heavy gravel 
trucks coming through there from a quarry, which is just a way 
from there. It is a very dangerous intersection.
    So they have not. I might be back to the committee. 
Hopefully, this will, if all sides can come together with what 
I would call a spirit of reconciliation, to try to kind of work 
it out, hopefully they can. If they cannot, then I would 
obviously speak to you about it. But I am hopeful.
    Mr. Regula. Okay.
    Mr. Wolf. Thank you very much.
    Mr. Regula. What was the other piece we worked on? We 
bought some land, do you remember? The big purchase, has that 
been completed?
    Mr. Wolf. Yes.
    Mr. Regula. There was going to be a shopping center.
    Mr. Wolf. Yes, it was going to be called the Williams 
Tract, and it was going to be a shopping mall.
    Thank you.
    Mr. Regula. Okay, thank you.
                              ----------                              

                                          Wednesday, April 1, 1998.

             SOUTH FLORIDA ECOSYSTEM RESTORATION INITIATIVE

                                WITNESS

HON. PETER DEUTSCH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Regula. Mr. Deutsch.
    Mr. Deutsch. Thank you, Mr. Chairman.
    Mr. Regula. Is this Everglades?
    Mr. Deutsch. Yes, it is, and I know you visited down there 
this year, and I appreciate your help. This is my sixth year in 
Congress, my sixth year in front of the committee. It is a 
success story which would not be a success story without your 
support.
    Unfortunately, the reality is, it is a continuing need.
    Mr. Regula. We spent three days there, so we are pretty 
familiar with it. We got the whole story, and I understand it 
is one of those things that we did something years ago without 
thinking about population growth. I assume you have part of 
that.
    Mr. Deutsch. Right. I actually pretty much represent all 
the Everglades, it's south of me, about 80 to 90 percent of the 
actual area. I don't know where you left on your airboat, but 
you probably left from my district.
    Mr. Regula. We left from the Mikusukee reservation, along 
the Tamiami.
    Mr. Deutsch. Right. Actually, that's all my district.
    I think just one thing to emphasize is that this is not 
just a Federal project. The State dollars are more than 50 
percent of the actual dollars involved.
    Mr. Regula. There are a lot of players actually involved.
    Mr. Deutsch. The county does stuff, local government. 
Through property taxing, we tax ourselves in terms of property 
tax.
    The one thing I would emphasize, and it's really preaching 
to the choir, but on the land acquisition side, if we don't do 
it, the land just gets more expensive.
    Mr. Regula. I understand. I think we ought to move ahead. I 
don't know, they have money to do land acquisition that seems 
to be standing still.
    Ms. Weatherly. Yes, $160 million in arrears.
    Mr. Deutsch. They are in the process of trying to spend it 
as quickly as they can. My understanding is that they are, 
through the water management district that is actually the 
entity that is doing the land purchases. The President's budget 
has a request for $144 million, which directly in terms of 
Everglades, on specific projects, the best science is saying we 
really need it.
    Mr. Regula. That project is going to go. It is just a 
matter of how it can be done in an orderly fashion. And as I 
say, I think there is plenty of money out there now for land 
acquisition, that is not being spent. You might want to talk to 
some of the people at Interior.
    The Staff. Mr. Chairman, with regard to the Farm Bill 
monies, the Interior Department is moving forward as quickly as 
possible to obligate those dollars.
    Mr. Regula. So it is moving.
    Mr. Deutsch. I think the Farm Bill dollars, that specific 
tract which is the Talisman Tract, which is a former sugar cane 
field, that was at $250 million. That has been in protracted 
negotiation. They do not want to go through a condemnation 
proceeding.
    I think the $144 million, though, is for additional 
specific projects that are outlined in the Administration's 
proposal, actual land that they are saying is worth X amount of 
dollars.
    Mr. Regula. We are going to continue to support this 
project. The decision whether or not to do it is behind us now. 
It is just a matter of moving it into completion.
    Mr. Deutsch. Anything I can do next time you come down, let 
me know. I appreciate it. I will take you fishing. Thanks 
again.
    Mr. Regula. Thank you.
    [The statement of Mr. Deutsch follows:]

[Pages 442 - 445--The official Committee record contains additional material here.]


                                          Wednesday, April 1, 1998.

                    NATIONAL ENDOWMENT FOR THE ARTS

                                WITNESS

HON. LOUISE M. SLAUGHTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF NEW YORK
    Mr. Regula. Ms. Slaughter.
    Ms. Slaughter. Thank you, Mr. Chairman.
    Nice to see you.
    Mr. Regula. Nice to see you.
    Ms. Slaughter. You know why I am here, of course.
    Mr. Regula. I suspect I do.
    Ms. Slaughter. And it is good to be here with a buddy.
    Mr. Regula. I have to suspend for a minute, I have to 
testify in front of the Commerce-State Justice on an adjacent 
project. So our great colleague and member of this committee is 
going to preside during the next several witnesses.
    I think I have heard the message earlier.
    Ms. Slaughter. Yes, we preach to the converted here.
    Mr. Regula. So this will be great for Mr. Wamp to hear.
    Ms. Slaughter. Before you go, I want to tell you how much I 
love that poster there from the Cuyahoga Valley. That's really 
beautiful.
    Mr. Regula. It is one of the projects this committee made 
happen.
    Ms. Slaughter. I feel better just looking at it.
    Mr. Wamp [assuming chair]. Thank you to the best 
subcommittee chairman in the House of Representatives, 
anywhere. You are wonderful.
    Go ahead and preach, Ms. Slaughter.
    Ms. Slaughter. Thank you, Mr. Wamp. As a Kentuckian, 
youknow I can warm up to it.
    But I do appreciate the opportunity to be able to address 
you this morning on the National Endowment for the Arts and 
establishment of the Women's Rights Historic Trail in Western 
New York. In addition, my written testimony expresses support 
for the National Endowment for the Humanities, the Institute of 
Museum and Library Services, and the restoration of the Susan 
B. Anthony House in Rochester.
    Mr. Chairman, I urge the subcommittee to fund the National 
Endowment at the Administration's request of $136 million. The 
funding increase would be used to largely support three major 
projects: Arts Reach, Leadership Initiatives and Partnership 
Funds.
    The Arts Reach program helps increase direct NEA grants to 
communities that have not previously had opportunities to 
benefit from the Federal seed money for their cultural 
endeavors. The program will help communities develop a cultural 
plan with input from the Chamber of Commerce, the social 
service agencies, the police, the Mayor, the local artists and 
other community leaders.
    With help from the NEA, the community leaders will be able 
to use the arts to build stronger communities. And Arts Reach 
will enable communities to undertake endeavors such as building 
performance and exhibition spaces, enhancing opportunities in 
arts education, and developing arts alternatives for youth at 
risk.
    Leadership initiative funding will contribute to the 
national initiatives that make the arts a basic part of K-12 
education to strengthen arts education research and increase 
creative opportunities for youth at risk.
    With all the recent studies about the development of the 
human brain and the PET scans which now allow us to see it 
happening, we know that arts are a vital part of early 
childhood development. Stimulation of the brain through the 
arts contributes to greater academic achievement. For example, 
the college board has reported that four years of arts studies 
significantly increases the SAT scores between 50 and 64 
points.
    In addition, researchers at the University of California at 
Irvine found that music training, specifically piano 
instruction, is far superior to computer instruction in 
dramatically enhancing children's abstract reasoning skills 
that are necessary for learning math and science. Leadership 
initiative grants will help more children to benefit from 
exposure to and education in the arts.
    The partnership funds will enhance the vital relationships 
among the Federal, State and local arts organizations, which 
help to expand the access to the arts throughout the country. 
Working together, the different levels of government help 
create strong communities and leverage additional funding from 
private sources.
    I am very proud of the NEA's initiatives and believe that 
the $136 million funding level is essential to carry them out. 
On Arts Advocacy Day this past March, hundreds of arts 
advocates from throughout the country gathered in Washington, 
as well as the Conference of Mayors, to let us know that the 
arts are important to our constituents.
    A young woman, an actress, Victoria Row, she had a story 
about the programs that received the grants and the NEA that 
enabled her to grow as an individual, to overcome tough 
economic odds, she was a foster child, to develop her skills, 
enhance her self-esteem and succeed in the arts world. She is 
using that great talent now to benefit others who need that 
same kind of help.
    You have all heard me talk about this for years. I think we 
are getting a lot of help out there now with the Conference of 
Mayors and now with the new PET scans and what we know about 
the developing brain.
    I am going to put my complete statement on record, but I 
just would like to tell you, I think this is terribly 
important, and it is awful if the United States decides it has 
no interest in art in this country, when we know that when we 
expose a child to art, we make a better person, a better 
student and better in every way.
    So let me give you a couple of examples for that. In my 
district, there is a little group called Sunshine Two. They 
have had very few NEA funds, but they are three deaf and three 
hearing performers that work together. They travel all over the 
country promoting deaf-hearing interaction and deaf awareness.
    The performances affect countless individuals in the deaf 
and hearing communities throughout the Nation. It lets little 
deaf children know they are not alone.
    In Abilene, Texas, the cultural affairs council developed a 
downtown cultural district, facilitated the renovation of 
downtown cultural facilities, persuaded several area museums to 
move into the district. With the help of a grant from the NEA, 
the council was able to breathe economic life into the district 
by supporting festivals, exhibitions and performances which 
brought in over 42,000 visitors.
    The same thing is happening in Providence, Rhode Island, in 
Peekskill, New York, dying areas were really brought back to 
life by arts programs. As a matter of fact, one of the most 
interesting things to me was with the director of the 
Metropolitan Museum of Art, told us that he had sold more 
tickets to his place of business than the New York Mets, Nets, 
Jets and Yankees combined. I thought that was really quite 
telling.
    Another NEA grantee, Arts of Albuquerque, New Mexico, is 
promoting contemporary art and New Mexican arts. And George, I 
know in Washington State that arts programs have done an awful 
lot of good. In fact, one of your Senators is one of the best 
supporters we have, Mr. Gorton.
    So I again will stand up anywhere, any time, and preach the 
benefit of the arts to the students of the United States. 
Everybody has benefitted from it. But also, this year is a very 
important date for us. This is the 150th anniversary of a 
convention in Seneca Falls, New York, where a group of women 
gathered up the courage, remember, in 1848, they didn't even 
own the clothes on their back, they owned no property, no 
anything. They got together in this little town called Seneca 
Falls and decided they would like to do something called 
voting.
    It took them 70 years to get it, but nonetheless, and 
actually, if you recall, it was someone from Tennessee who gave 
us the last vote, to allow that vote. We thank you for that.
    But in any case, this year we want to really celebrate what 
these American women, along with Frederick Douglass, one of the 
great American heroes, who was the only gentleman present to 
speak. So women from all over the country and all over the 
world are going to be converging this year on western New York.
    We have asked for not much money, but just a study of the 
women's rights historical park, that eventually would go 
fromBuffalo to Boston. At this point, because of the celebration, we 
would like to have enough money to go from Seneca Falls, New York, to 
Auburn, New York, to take in all those historic sites, including the 
house of Harriet Tubman, who was very important here, too.
    So that's my plea this morning. And I appreciate extremely 
your consideration and your kindness to me and the good work 
you have done in the past. I look forward to more in the 
future.
    [The statement of Ms. Slaughter follows:]

[Pages 449 - 453--The official Committee record contains additional material here.]


    Mr. Wamp. Ms. Slaughter, you are an effective advocate for 
both the National Endowment for the Arts and for the women's 
rights historical trail. We thank you very much for your 
testimony. Your full testimony will be submitted for the 
record.
    Ms. Slaughter. Thank you.
    Mr. Wamp. And I just want to know before you leave if you 
still get to claim the Kentucky Wildcats.
    Ms. Slaughter. It took me this whole tournament to 
understand it. I watched them play for years, I graduated 
there, that's my school. But what you have to do is have a 
bench that is so deep and so good, and the first half you just 
run everybody to death and let them run up their scores and 
play their little game.
    Then in the last 10, 15 minutes, you have all these people, 
you can run them in for 30 seconds and in and out and just 
clean up the court. Was it not remarkable? Have you ever seen 
anything like it?
    Mr. Wamp. Well, yes, we have a women's basketball team----
    [Laughter.]
    Ms. Slaughter. But I was there, 100 years ago, the first 
time I saw Kentucky lose a basketball game, I thought it was 
against the law. [Laughter.]
    Mr. Wamp. Thank you, Ms. Slaughter.
                              ----------                              

                                          Wednesday, April 1, 1998.

                    LAND AND WATER CONSERVATION FUND

                                WITNESS

HON. ELIZABETH FURSE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Wamp. Representative Furse, you are next. Thank you for 
coming.
    Ms. Furse. Thank you, Mr. Chairman.
    I am not going to read my whole statement, I would like to 
have it in the record.
    What I am here to do is ask for a $3 million appropriation 
from the Land and Water Conservation Fund. This will go to 
complete, almost complete, the Tualatin National Wildlife 
Refuge in Washington County. This is an interesting little 
refuge, because it really started with the city, which had had 
some devastating floods along the river, deciding that perhaps 
a great thing to do would be to expand a wildlife refuge along 
the river.
    Now, the interesting thing is, because of the floods, we 
now have a lot of willing sellers. They would like to sell this 
farm land and allow it to be part of the refuge. We have 
already about 1,000 acres that are in the refuge.
    It is one of the most important stops for mostly ducks and 
geese on the flyway. We estimate that there are at least 30 
species and we think maybe even some of the endangered Alaska 
geese are on that flyway.
    It is also an opportunity for agencies to come together. We 
have a lot of groups coming together on this refuge, because 
Oregon, despite its very good land use laws, is really under 
such a population pressure that the suburbs are moving into 
those farm areas. This refuge is really necessary to one, for 
water control, it is a flood control area, and also for this 
wildlife refuge.
    It is sort of a win-win things, because we have these 
private-public partnerships. We have these people who would 
like to sell this land, which is now pretty well unfarmable, 
because of the huge floods we had in 1996. So I would really 
hope that we could get the money now, because we have the 
opportunity to buy the land now. And we have this pressure 
growing and growing, as wetlands are disappearing.
    This would allow us to actually expand the wetland, but do 
it in a way that the public and private interests are met. So 
it is just a fabulous opportunity and I would hope you would 
help us acquire that land.
    [The statement of Ms. Furse follows:]

[Pages 456 - 457--The official Committee record contains additional material here.]


    Mr. Wamp. Thank you, Ms. Furse, for your advocacy in this 
matter. I might state, too, that a constituent of yours is my 
first cousin, Dr. Greg Skipper.
    Ms. Furse. I'm glad your family had the sense to send a 
member to my district. Thank you.
    Mr. Wamp. He has always been kind of a rebel. [Laughter.]
    Mr. Nethercutt. Mr. Chairman, if I may, I want the record 
to reflect what a good advocate Congresswoman Furse has been, 
not only for environmental issues, but for the cause of 
diabetes. We do a certain amount of work here, Elizabeth, on 
diabetes treatment through the Bureau of Indian Affairs and 
also dental Program through the Indian Health Service.
    I want this subcommittee to appreciate your advocacy and 
also your expertise and your judgment on these issues. I 
certainly, will pay great attention to your comments and your 
testimony before the committee.
    Ms. Furse. I really appreciate that. Of course, you are the 
champion for diabetes and I am grateful to work with you on 
that issue, as I know are many others.
    Mr. Nethercutt. Thank you.
    Mr. Wamp. Thank you, Ms. Furse.
                              ----------                              

                                          Wednesday, April 1, 1998.

                   RECREATION RECONSTRUCTION PROJECTS

                                WITNESS

HON. JOHN E. PETERSON, A REPRESENTATIVE IN CONGRESS FROM THE 
    COMMONWEALTH OF PENNSYLVANIA
    Mr. Wamp. John Peterson from Pennsylvania, if we could have 
your testimony and then we will go vote. I think that will work 
out very well.
    Mr. Peterson. I would like to thank the committee for the 
chance to share with them. I will submit my testimony here for 
the record, and quickly review the projects.
    This is about a couple of projects on the Allegheny 
National Forest. The Allegheny National Forest is a 530 acre 
forest in Pennsylvania. It is the finest forest probably in 
America as far as hardwoods are concerned. If you buy a high 
quality piece of cherry, there is a 50 percent chance it came 
from the Allegheny National Forest. It is the most mature 
hardwood forest in America, and the most productive and cost 
effective forest in America.
    But we have a couple of project needs there. It is also one 
of the most visited forests in the east. We have the first 
project at Willow Bay, it is phase five of that project. It 
includes a parking lot for 50 cars, a pavilion, a picnic area 
and reconstruction of an existing picnic area for a small 
amount of $190,000. That is a part of the President's requested 
budget.
    The second project that is even more vital to the forest is 
a new district office at Marionville, allowing them to 
consolidate their offices. They have 25 employees there, they 
are working out of two small office buildings, a trailer and 
two warehouses in different locations.
    This project would save $20 million over a period of time 
so it would be cost effective to the forest to have this new 
facility. We ask for the allocation of $1.75 million for this 
project, and hope that you can include it in this year's 
budget. It has been requested for 10 years, so I think after 10 
years, it is about time to do it, because it will be cost 
effective for the forest.
    One final problem before we go to vote, the third issue I 
would like to share with you is PILT funding. I submitted a 
letter to the committee last week, where Congressman Hanson and 
I authored and 57 members signed, so we have 59 members 
requesting full funding of PILT. Just to make a short argument 
for that, this year's authorization will be $255.5 million. 
Last year's funding was $120 million.
    I want to say this as clearly as I can say it. If this was 
an urban or suburban program, it would be fully funded, it 
would not be half funded. I think it is time for this Congress 
to make sure that rural America gets this token of payment back 
for all of the land that is taken out of production, all the 
land that is set aside for Americans to enjoy.
    In Pennsylvania, one of the last acts that I helped to get 
passed was we doubled our payment in lieu of taxes from 60 
cents an acre to $1.20 an acre. If we paid rural America an 
appropriate factor, if we paid them what they pay them in 
Pennsylvania, we would have an $840 million appropriation, not 
$255 million, with $1.20 an acre. We are giving pennies per 
acre back currently.
    It just seems to me it is an outrage for rural America that 
we do not have full funding of PILT. I do not think it is 
enough to begin with, for the cost of taking all that land out 
of production and out of our economic base.
    But I respectfully request this committee to look at full 
funding of PILT this year and hereafter, because it is just 
fairness to rural America. And I thank the committee for the 
chance to share my views.
    [The statement of Mr. Peterson follows:]

[Pages 460 - 462--The official Committee record contains additional material here.]


    Mr. Wamp. Thank you, Mr. Peterson, for summarizing your 
testimony and for submitting your full testimony for the 
record. You are an effective advocate, we appreciate that.
    The committee will stand in recess for approximately 10 
minutes, and Ms. DeLauro of Connecticut will be the first one 
up if she is present.
    [Recess.]
                              ----------                              

                                          Wednesday, April 1, 1998.

                    NATIONAL ENDOWMENT FOR THE ARTS

                                WITNESS

HON. STEPHEN HORN, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF MASSACHUSETTS
    Mr. Wamp. The committee will come to order once again. We 
have four members that will testify before the lunch break. Mr. 
Horn has joined us from California. We jumped around a little 
bit, but we will come back to Mr. Horn and then Ms. DeLauro.
    So Mr. Horn, thank you for appearing before the 
subcommittee today.
    Mr. Horn. Well, thank you very much, Mr. Chairman. Would 
you like me to say a few words on the glories of the arts? Or 
are you already convinced. I never testify if you have the 
votes.
    Mr. Wamp. You have five minutes to say whatever is on your 
mind.
    Mr. Horn. Well, I want to say, Sandra Gibson of Long Beach, 
California, is one of the fine examples of arts administration 
in our community. She heads the Public Corporation of the Arts, 
of which my wife has been a former chairman, and one of the 
founders. So we have been very tied into the arts in our 
community, and we are delighted that they all they do. That is 
because the city of Long Beach has been very supportive with 
the room tax, they do not want to admit it, but that is where 
they get the money, and it goes to the arts.
    And the arts, I happen to have believed in since I was a 
five year old and saw a WPA symphony come to Holister, 
California, population 3,500. I grew up in the area that in 
California looked something like Tennessee, beautiful trees, 
rivers, rapids and all that, small communities. I want to see 
small communities in the 1990s and the 21st century have the 
benefit of what I had as a kid in the Depression.
    So I feel very strongly that we need to keep a Federal 
commitment to the arts. We all know the obvious, they enrich us 
culturally. Well, the studies show now, and my colleague, co-
chairman of the Arts Caucus, Louise Slaughter, is quite an 
expert on the studies that have shown that the people who do 
best on college tests and what-not are those that have been 
involved with the arts. The arts obviously enrich us 
economically, and that is why the city of Long Beach has a room 
tax which in essence goes to a lot of the arts.
    Then the block grants, we think, are a little bit of a poor 
alternative. But there is no question we should be encouraging. 
The Assembly of State Arts Agencies I think opposes block 
grants. But we should be encouraging the States to also have 
arts commissions. New York has a marvelous one. They have upped 
the money over the years for the New York one. Governor Wilson 
has helped on the California State Arts Commission.
    I think we need this not just in Federal money, we need 
activity all over the country. But the Federal money, small 
that it is, is crucial to set an example. Now, they might have 
made five mistakes since 1965, but if we held every executive 
agency that we would get rid of them with five mistakes, this 
town would be in greenery and we would have goats on the mall.
    So I would add that what we are talking about, the arts, is 
also what enriches us personally and makes us better people. 
Anybody that does not cry when they hear Beethoven's Ninth 
Symphony and we still all stand up when that is played, that is 
the kind of thing we get from the arts, compassion, aesthetics, 
beauty. All of which I am sure the gentleman from Tennessee 
favors, or I would not have come here. [Laughter.]
    Therefore I am going to yield back three minutes to you.
    [The statement of Mr. Horn follows:]

[Pages 465 - 468--The official Committee record contains additional material here.]


    Mr. Wamp. Mr. Horn, you were preceded by Ms. Slaughter, and 
she did an excellent job of advocating for the arts. We are 
very thankful. We do appreciate all of the local arts directors 
from all around the country, in Tennessee and California and 
New York and other places. You have served your purpose very 
well, Mr. Horn, and we appreciate your testimony today. Your 
full testimony will be inserted into the record.
    Thank you very much.
                              ----------                              

                                          Wednesday, April 1, 1998.

FISH AND WILDLIFE SERVICE: LAND AND WATER CONSERVATION FUND/STEWART B. 
                   MC KINNEY NATIONAL WILDLIFE REFUGE

                               WITNESSES

HON. ROSA DE LAURO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Wamp. Our next witness is the Honorable Rosa DeLauro 
from Connecticut. Ms. DeLauro, it will be you and then Mr. 
Shays and then Mr. Farr. Are you going to do this together? 
Good. The Shays-DeLauro team. DeLauro-Shays, excuse me.
    Ms. DeLauro. Thank you very, very much, Mr. Wamp. We are 
really delighted to be here today and have you listen to us, 
and I join my colleague, Mr. Shays. We are seeking funds for 
the purchase of the remaining critical habitat of the Great 
Meadow Salt Marsh as part of the Stewart McKinney National 
Wildlife Refuge. We have been here in the past. This would help 
to preserve, as well as what we want to do is try to preserve 
Ram Island in the Long Island Sound. That is an important part 
of overall migratory flyway.
    Last year we requested $3.6 million as an appropriation to 
purchase the remaining 30 acres of the Great Meadows Refuge. 
The committee generously granted us $1.1 million in Land and 
Water Conservation Funds, which is being used to buy 12 of the 
remaining 30 acres. We are requesting the remaining $2.5 
million, which will maximize the effectiveness of the already 
$8.9 million of Federal funds invested in this purchase.
    With these funds, the remaining tidal wetlands that make up 
the 444 acre Great Meadows Salt March can be purchased, 
completing the purchases. The Great Meadows purchases have 
enabled the Stratford, Connecticut Development Company to 
determine what land is ecologically less valuable, allowing it 
to move forward with planned development after more than four 
decades. So in terms of the economic development of the area, 
it is helpful.
    Great Meadows is critical to the regional economy. It 
protects the regional water supply as well as coastal wetlands. 
The marsh provides a premier habitat for endangered and 
threatened species.
    With the completed purchase of Great Meadows and its 
mixture of habitats, the McKinney Refuge will be of sufficient 
size and ecological variety and complexity to become a valuable 
preserve for generations to come.
    This has truly been a public-private partnership success 
story in our State, with State and local efforts, as well as 
the Federal Government participating and trying to complete the 
purchase of the Great Meadows Marsh.
    In addition, we wish to bring to your attention an 
opportunity this year for the Fish and Wildlife Service to 
protect Ram Island, which is off the coast of Stonington, 
Connecticut, in the eastern Long Island Sound. This island 
provides rookeries for colonial wading birds, as well as it is 
a shoreline habitat for a number of species of birds, including 
the piping plover, which have nested on Ram Island in the past.
    It is a 16.3 acre island. It is lightly developed. This 
level of development which is currently there is not 
threatening to the bird population. But if there is increased 
development on Ram Island, then it would be the loss of this 
habitat. That is why we are trying to protect the island from 
further development, and try to accomplish that in the near 
future.
    So including Ram Island into the refuge will also allow for 
the island to be managed in order to increase quality of the 
habitat for the species that are already there. The island is 
valued at approximately $1.5 million. A non-profit conservation 
organization has signed an option that would enable this island 
to be part of the McKinney refuge.
    So we are seeking this level of funding in order to acquire 
this island and to reinforce the habitat of the piping plover.
    We thank you for allowing us to come before you this 
morning. You have been generous to us in the past in helping us 
realize this goal. And we look for your favorable 
consideration.
    [The statement of Ms. DeLauro:]

[Pages 471 - 473--The official Committee record contains additional material here.]


    Mr. Wamp. Thank you, Ms. DeLauro, a distinguished member of 
the appropriations committee herself. Mr. Shays.
    Mr. Shays. Thank you, Mr. Wamp.
    I have to tell you, this is probably one of the more 
important issues for our area. And it is important for the 
country as well to recognize that estuaries, where salt and 
fresh water mix, is where most origination of fin fish and 
shellfish come. That's where you get most of your fin fish and 
shellfish. It is obviously a major commercial source, as well 
as recreational area.
    But we have some estimates, 50 million people who impact 
Long Island Sound. And we impact it not in a positive way.
    We can spend lots more money for Government programs, or we 
can do what nature does so well, it purifies the water with the 
wetlands that it has. But we have lost 90 plus percent of our 
wetlands.
    This is a remaining area that helps purify the water of 
Long Island Sound, helps deal with the toxin problems, with the 
whole problem of the loss of oxygen, the nutrigens that get 
into the Long Island Sound, it filters that out as well.
    We are here first to express our gratitude that we have 
almost completed our task, over 400 acres, and we have 18 
remaining acres for $2.5 million. We hope we can complete that 
and complete the McKinney Wildlife Refuge in that area, named 
after my predecessor. And that is our first priority,without 
any hesitation.
    Second priority, we want it to show up on your radar 
screen, it that there are 16 acres, Ram Island, that can be 
purchased for $1.5 million. I am amazed that a private 
developer has not seized the opportunity to outbid that price. 
Sixteen acres in Long Island Sound, an island.
    But they have not yet, and we would like to get it before 
the price becomes $5 million or $10 million, and we come back 
to you and say how important it is to get this island.
    So we thank you very much for the opportunity to be here, 
and appreciate the fact that this committee has made possible 
an effort to save Long Island Sound. We are very grateful to 
this committee.
    Mr. Wamp. This committee will continue to be sensitive to 
the needs and do our very best to meet the needs you have 
brought before us today. Your full statement will be submitted 
permanently.
    I want to make note of the fact that with Representative 
Horn and then DeLauro, Shays, Farr and Wamp all in the same 
room, you might misinterpret this to be a bipartisan finance 
reform meeting. [Laughter.]
     But this is the Interior subcommittee hearing. We thank 
you for your testimony.
    Ms. DeLauro. Thank you so much.
    [The statement of Mr. Shays:]

[Pages 475 - 477--The official Committee record contains additional material here.]


                                          Wednesday, April 1, 1998.

    U.S. FOREST SERVICE; NATIONAL ENDOWMENT FOR THE ARTS; NATIONAL 
      ENDOWMENT FOR THE HUMANITIES; U.S. FISH AND WILDLIFE SERVICE

                                WITNESS

HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Wamp. Our last witness this morning will be the 
Honorable Sam Farr from California. Thank you, Mr. Farr, who is 
a well-known campaign finance reform advocate.
    Mr. Farr. Thank you very much, Mr. Chairman, and thank you 
for your support.
    I was just sitting here realizing that this committee 
probably had more to do with saving America than any other 
committee in Congress. It is very interesting that Ansel Adams 
is displayed over here, for two reasons. One, Ansel Adams, when 
he was a young photographer, photographed Kings Canyon, and 
brought his photographs to Congress at a time when people did 
not travel to places like that, did not have television. He 
just showed his photographs to then-members of this committee. 
And based on those photographs, Kings Canyon National Park 
exists.
    He is now being displayed at the Smithsonian Museum of 
Modern Art. And I went and looked at that exhibit. A curator 
told me that that exhibit has drawn more visitors to the museum 
than any other exhibit they have ever had in the history of the 
museum and in the history of Washington for that museum.
    What is interesting is that people who are drawn to that 
exhibit, some of them have never before been in a museum. So 
here we are in 1998, when everybody is wondering whether these 
issues on the environment are of interest. I think the 
political statement that people are making here in Washington 
about going to Ansel Adams' exhibit is probably a tribute to 
why we need a very strong stewardship. I am here to talk about 
a couple of things.
    Probably one of the most threatened areas, not known 
threatened, in the United States is the Big Sur Coast. Big Sur 
runs from the Monterey Peninsula down to Hearst Castle. It is 
about 70 miles of California coastline. All of it except for a 
very small portion of it is in private ownership. The small 
portion that is not in private ownership is in U.S. Forest 
Service. This is the only national forest in the lower 48 
States that touches an ocean.
    What this committee has been doing is every year we have 
been putting a little bit of money, $1 million, $2 million, 
into a fund for the Forest Service to buy from willing sellers. 
They have a list of about 15 willing sellers who want to sell 
inholdings and property along the cost to the Forest Service, 
and I am back to ask for that.
    I am asking it from a different standpoint. Eventually, I 
would really like us to make a commitment. More people will see 
the Big Sur Coast, this most dramatic meeting of land and 
water, mountains 6,000 feet high going right down into the 
ocean, and there is a public highway right along it, that is in 
the ocean right now with the El Nino storms. But when we 
consider the Everglades, we consider the old growth redwoods, 
more people are going to be seeing the Big Sur Coast, it will 
be more public benefit to money spent in this acquisition than 
any of the acquisitions that are high profile that this 
committee deals with.
    So I am pleading with you to put $2 million at a minimum 
into, again, the land acquisition for the U.S. Forest Service.
    I come to you with a little bit of a carrot. Because since 
last year, just two weeks ago, the Packard Foundation indicated 
they will match, for every dollar we put in, they will match up 
to 50 percent with Packard Foundation money. They have set 
aside $175 million over the next five years for land 
acquisition, with public match money.
    So that is something that this little amount of money will 
leverage a lot more by.
    The second issue I want to come to you with, and I again, 
sitting here, appreciate the fact that you have the Akron Art 
Museum behind you, and the Georgia O'Keefe and the Performing 
Arts Center, Kennedy Performing Arts Center, and over here a 
photograph from Ottawa, when we talk about the arts, what we 
are talking about is this room. Everything that is depicted in 
this room could not have been done without the arts.
    I am co-chair, with Mark Foley, of the Tourism Caucus. The 
reason I am really involved in tourism is that I think if we 
want to sell America to people in this country, to 
peopleabroad, the way you sell it is you bring them here. They look at 
it, they see it, they look at the way we manage things, which gets down 
into local jurisdictions of how you do planning, how you do park 
commissions, what our culture is.
    When you think about it, the arts are the most accurate 
depiction of America's diversity. It is the history of our 
country that is recorded by the arts, it is paintings and 
photography. It is depicted by our music, our dancing, our 
poetry, our theater, our literature and our architecture.
    And why in this debate here in Congress, we get so anti-NEA 
just boggles my mind. The most impressive thing I saw last year 
was where American corporations came out and said they wanted 
support for the NEA. I went to IBM in San Jose and said, why 
are you so interested in National Endowment for the Arts? They 
said, Sam, we cannot exist without creative people. Creative 
people are not just going to always come out of the science 
side of education.
    So the talent that drives the piano, the fingers that 
operate the piano, certainly can operate a computer. And if you 
think of one of the most successful companies in America, it's 
called Silicon Graphics. Silicon is the technology, Graphics is 
the arts.
    So if America is going to stay competitive in a global 
world, we have to invest in the engine of creativity, which I 
believe is the arts. And this money is not money that ends up 
just in big symphonies and things like that. We have K-6 
classes in our local elementary schools in Santa Cruz that have 
a professional artist in every single school. They get about 
$80,000 through the National Endowment and through State 
grants. The rest they raise, the smallest county in California. 
It only has 350,000 population and the land size is the 
smallest.
    So here is a community who really believes in it and puts 
professional artists in the schools, and the classroom teachers 
are saying, this is incredible, we are reaching kids we never 
reached before. Because we could not reach them through 
traditional methods. But we reach them in math through dance, 
we reach them in music, we turn kids on and teachers, classroom 
teachers are really excited about having this.
    So I am a big supporter or the arts, because I think it is 
really our best economics and creativity, and America has to 
remain smarter and quicker and faster and more creative than 
any other country to stay competitive.
    Lastly, the issue I bring before you is two Fish and 
Wildlife Service requests. One is for the Southern Sea Otter 
Research, which is $250,000. The State of California has 
assessed the oil tanker industry fee, and part of that fee goes 
to creating a rehab center for marine-damaged mammals. So if we 
ever have an oil spill, we will have the technology. It has 
just been put together.
    But what we don't have, and it was put in the sea otter 
range, the sea otter is an interesting species. Because this is 
a species where I think we ought to be talking more about what 
this kind of money does. The sea otter was presumed to be 
extinct. In 1947, the first one was sighted. Since 1947, we 
have brought the sea otter population up to a sustainable 
level.
    But since 1995, it has started to decline again, and we do 
not really know why. So what this money does, it is being 
earmarked to be in the, I'm asking for Section 6 account of the 
Endangered Species Act, a cooperative Federal-State program, 
and earmark it for the State of California's Office of Oil 
Spill Prevention and Response. Because that is the area that 
they are studying how you can make sure the sea otter decreases 
can be addressed.
    Frankly, the payoff for the Nation is that there is no 
other center like this. This is the only place they do this 
kind of work. If we can learn how to deal with marine mammal 
decline there, we can apply that anywhere.
    Lastly, the Committee on Water Resources, the Policy 
Committee, it is interesting, less than you would think, really 
not much controversy, bipartisan support, is for the 
appropriation of money for the Rhinoceros and Tiger 
Conservation Fund. Congress has authorized $10 million per year 
in that fund, but we have never appropriated more than 
$400,000.
    We have 70 pending conservation proposals that demand far-
out paces of funds available. Currently what is happening is 
decisions have to be made, because there is limited money for 
the sort of on the ground protection issues, like boots and 
radios for rangers, versus what is really effective, is public 
education, to show why you should not buy products that are 
made from these species, like rhino daggers and traditional 
Asian medicines.
    So we are requesting that the funding for the program be 
increased to $1 million per year to address the conservation 
yields, while reducing the demand through education programs. 
As I said, the authorizers were unanimous on this in committee. 
I think we just passed the bill off the Floor last Monday 
without any debate at all. It was a lovefest.
    So hopefully you can find some resources in here to--yes, 
everybody loves rhinos and tigers--but you can find some funds 
to appropriate in that area.
    I thank you for your concerns and leadership, and I invite 
this committee out any time. I am using my politics in Congress 
to try to develop a place where we really have sustainable 
development. Our agriculture is $2.2 billion, we totally are 
land dependent. Our ocean economy brings the tourists.
    This is an area where I think the rubber hits the road. If 
we can begin to learn how to manage this land appropriately, 
and develop those assets that we have into learning 
laboratories, whether it be parks or forests or whatever, then 
we really can have a sustainable economy for America, not an 
economy that is based on who has the advantage, who can extract 
the most. It has to be balanced, it has to be managed well, and 
you hold the keys to doing that.
    I would love to work with you during the years, as I know 
your leadership is going to grow and your personal 
responsibilities are going to grow here. I look forward to 
having you some time visit my district.
    [The statement of Mr. Farr follows:]

[Pages 482 - 485--The official Committee record contains additional material here.]


    Mr. Wamp. Thank you, Mr. Farr.
    We see very much bipartisan support for the entire concept 
of preservation, sustainability, moving the next generation 
forward. This subcommittee has a great reputation for 
supporting these programs.
    I, too, am grateful for your work. You covered four areas 
in eight minutes extremely well. And any other testimony that 
you need to submit for the record will certainly be accepted.
    We thank you very much for your testimony, and the 
committee will stand in recess until 1:30. Thank you.
                              ----------                              

                                          Wednesday, April 1, 1998.

                     NATIONAL WILDLIFE REFUGE FUND

                                WITNESS

HON. CHRIS JOHN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA
    Mr. Regula. The committee will come to order.
    Mr. John. Mr. John, I do not know every new member.
    Mr. John. I'm a brand new member, from the Seventh District 
of Louisiana. I knew Jimmy Hays.
    Mr. Regula. Oh, I know Jimmy very well.
    Okay, well, go ahead, we will put your statement in the 
record. You tell us briefly what you need.
    Mr. John. Thank you very much for letting me come in a 
little early.
    My request is seeking a $9 million addition to the 
president's request to fully fund the National Wildlife Refuge 
Fund. A little bit of history behind that whole fund, Mr. 
Chairman. Of course, I appreciate what you have to do and all 
the members that are coming in front of you, trying to balance 
a lot of things here. But one of the requests, and the reason I 
am here today at the request of local government in my 
district, but also the local governments across the Nation, as 
it relates the Revenue Sharing Fund.
    I am not promoting a new program, it is basically an issue 
of fairness. A little bit of background behind that program, in 
fact, with all the Federal lands, especially the lands of the 
Fish and Wildlife Service, they are exempt from State and 
Federal taxes, as you are aware.
    Mr. Regula. Yes. You get PILT.
    Mr. John. That is absolutely correct. What we are trying to 
do is go back to the intent of Congress in 1935 that set this 
up to try to offset some of the losses of the sales taxes. It 
has prompted me to come here at the request of Cameron Parish, 
which is a small, rural parish in South Louisiana. About one-
third of it is Fish and Wildlife land.
    I have met with the sheriff, who is obviously the ex 
officio tax collector of all of the dollars there. Over the 
past history of this fund, only about 75 cents of every dollar 
has been appropriated. It comes out, when you look at the 
Administration's Budget for fiscal year 1999, it comes out 
about $9 million short. That's million with an M, $9 million 
short to fully fund that program. Obviously, those monies go to 
local law enforcement, recreation, school board.
    To the tune of in Cameron Parish, that is only about 
$76,000. But that is lot of money for a parish a residency of 
only about 9,000 people. I just wanted to bring that to your 
attention to ask when you are considering all the funding 
requests that you have that you have, that it is relatively a 
small amount of money in a $1.6 trillion. It means a lot to all 
the counties and parishes across the Nation.
    [The statement of Mr. John follows:]

[Pages 488 - 490--The official Committee record contains additional material here.]


    Mr. Regula. We have pretty much eliminated any of the 
``revenue sharing'' type of things, because we have so many 
needs for parks and forests, etc. that are Federal 
responsibilities. I do not know, is there any amount in the 
President's budget for this?
    Mr. John. Yes, he is putting in $10 million, which is short 
by about $9 million. Because another part, the revenues from 
this fund comes from the fees and the tax on the land. But it 
is going to fall about $9 million short of fully funding the 
whole program.
    Mr. Regula. Would this be a new program, or an increase?
    Mr. John. It is not a new program. It is a fund that was 
set up a long time ago, but it has never been fully funded. And 
the local governments are the ones that are taking it really. I 
come from local government, I understand revenue sharing.
    But this is, as Fish and Wildlife Service, an entitlement 
land type of situation. I felt that it was incumbent upon me, 
as I met with them, to try to bring it to your attention. It is 
a small amount of money, but it means so much to a lot of the 
local governments from around the country.
    Mr. Regula. Okay. We do not know yet what we are going to 
have in the way of an allocation. But we will see what we can 
do.
    What did we do on this last year, do you remember?
    Mr. John. We did $10,779,000.
    Mr. Regula. We must have had another persuasive witness.
    Mr. John. Again, it is not a new program, it is just a 
commitment, I think, from Congress to try to get it out.
    Mr. Regula. Well, they are getting it now.
    Mr. John. They are getting about 72 percent, well, actually 
it is going to be 70 percent in this fiscal year, of the fully 
funded formula.
    Mr. Regula. Okay, thanks for coming.
    Mr. John. Thank you very much, Mr. Chairman. I appreciate 
it.
    Mr. Regula. They tell me the sheriff is the real key person 
in Louisiana.
    Mr. John. He is it, my man, so no savoir is the sheriff 
down there. Again, this is just not a local matter for 
Louisiana. It affects a lot of the midwestern States, any Fish 
and Wildlife Service lands.
    Mr. Regula. Okay, thank you.
                              ----------                              

                                          Wednesday, April 1, 1998.

                         OPAL CREEK WILDERNESS

                                WITNESS

HON. DARLENE HOOLEY, REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Regula. Ms. Hooley from Oregon regarding Opal Creek 
Wilderness.
    Ms. Hooley. Thank you, Mr. Chairman. I will take all the 
money you want to give me for Opal Creek. Thank you very much.
    Mr. Regula. Strange, I have not heard that all morning.
    Ms. Hooley. I bet you haven't. [Laughter.]
    I come from a, probably everyone describes their district 
as the most beautiful, but I really do have a gorgeous district 
with a lot of forests, a lot of trees in Oregon. Because of the 
change in the timber harvesting policy, some of my 
communities----
    Mr. Regula. Are you on the coast?
    Ms. Hooley. I am on the coast, in the valley and on the 
mountains. So I cover----
    Mr. Regula. South or north?
    Ms. Hooley. I cover the middle part of Oregon. I have the 
State capital and then I go up to the Cascades and coastal 
range.
    Mr. Regula. What is your capital?
    Ms. Hooley. Salem, Oregon. So I have the Willamette Valley, 
the mid-part of the State of Oregon and the western part of the 
State.
    Mr. Regula. Is Willamette fruit?
    Ms. Hooley. Yes. And Willamette Vineyards.
    Mr. Regula. And Paul and David.
    Ms. Hooley. Paul and David are south.
    Mr. Regula. Opal Creek is a wilderness area?
    Ms. Hooley. It is a wilderness area that Senator Hatfield 
spent a lot of time working on, and now we are trying to finish 
buying the rest of the property.
    Mr. Regula. So your request is for land acquisition money?
    Ms. Hooley. Land acquisition money for Opal Creek, and then 
I have a few others. Are you ready for them?
    Mr. Regula. Well, one at a time.
    Ms. Hooley. Okay. And by the way, Opal Creek protects a 
watershed, so it is very important, and a process was started 
to protect the area.
    Mr. Regula. I am curious, do people use the wilderness, do 
they go into it, do they hike in it? I always wonder whether 
these wildernesses do not shut out a lot of people with the 
wilderness designation.
    Ms. Hooley. Well, it depends on where it is and how hard it 
is to get there, how accessible it is. Some of the forests that 
have never been cut are very, very dark, you really can't get 
into them. But people do use wilderness area a lot for hiking, 
walking and so forth. But again, it just depends.
    One of the things that has happened, obviously, with much 
less tree cutting happening in Oregon, we have some communities 
that have some real problems. One of the first requests I am 
asking, after Opal Creek, is for a jobs in the woods program. 
This is to help retrain people, give them training experiences, 
and in that process, they also work on the woods, so they help 
restore the forest lands, they work on riparian areas and try 
to bring the forest health back, as well as wildlife habitat 
and other management objectives.
    We are respectfully requesting $10 million from BLM. This 
is a joint project with BLM and the U.S. Forest Service. It has 
been in the budget before. It has been terribly successful, and 
we are asking for $10 million again this year.
    Then next, I am asking for $14.8 million for the Pacific 
Northwest Assistance Program, which is the same level it was 
last year. Again, this is really to help those communities that 
have been hit very hard and need to have some economic 
development.
    Mr. Regula. This is part of the program the President had 
when he went to the northwest.
    Ms. Hooley. Yes, it is. And we have been very successful in 
this program, and it just needs to continue doing what it has 
been doing.
    The other thing, not only are my timber dependent 
communities sorely hit, so are some of my farmers. They are hit 
by something very different, and that is geese.
    Mr. Regula. Canada geese?
    Ms. Hooley. Yes, and the dusky goose, which is listed on 
the Endangered Species Act. What we have had is just an 
enormous increase in the number of geese. It is called goose 
degradation. They come in and they just wipe out a field.
    So we have been working with both the State of Oregon and 
Washington, with the State Fish and Wildlife and the U.S. Fish 
and Wildlife Service.
    Mr. Regula. What is your solution, because I have about 300 
myself? I live on a farm.
    Ms. Hooley. You do? Well, we have----
    Mr. Regula. Yes, I have a five acre lake, and sometimes all 
I can see are geese.
    Ms. Hooley. What I am going to ask money for, $579 million, 
to work with not only the Federal Government, but two state 
governments to try and figure out what in fact we do with this 
problem.
    Mr. Regula. I have talked to wildlife people. It is tough. 
Ohio is expanding their hunting season, and that is a solution 
which has been some help. It is almost open season on the 
Canada. There are two kinds of Canada geese, some are resident 
and drive the golf course and the allotment folks crazy, and 
there are those that migrate. So you have the residents that 
come and stay.
    Ms. Hooley. I have domestics and I have migrating. The 
increase has been incredible.
    Mr. Regula. That seems to be almost a nationwide problem.
    Ms. Hooley. It is at the point where literally, they will 
come and sit on top of the cannons that are used to scare them 
away. They are very smart.
    Mr. Regula. For the record, the request is $579,000.
    Ms. Hooley. Excuse me, a little number wrong there. Yes, 
$579,000. Thank you very much.
    Mr. Regula. You were just talking about the number of 
geese. [Laughter.]
    That would be, if we could find a solution, it would be 
beneficial to many parts of the country.
    Ms. Hooley. It is not unique to Oregon, trust me.
    Mr. Regula. Iowa has a lot of problems with it. The only 
thing they have come up with is extending the hunting season.
    Ms. Hooley. I could give you the suggestion my chief of 
staff's daughter had for it, which was--part of the problem is, 
even in hunting season, they have a terrible time 
distinguishing one type of goose from another.
    The other program is, I am requesting $4 million to create 
wildlife refuges on the Oregon coast. We have had groups that 
put a program together, they worked with all levels of 
government, it is some of the most important coastal wetlands 
that we have.
    They also have very high value for the salmon migration in 
the wintering waterfowl and shorebirds. So we are trying to put 
refuges together, and that is $4 million.
    Then finally, the State map is a project sponsored by the 
U.S. Geological Survey. It has been extraordinarily helpful in 
providing information to both the State and the Federal 
agencies in a number of ways. I am requesting $7.2 million, 
which is matching funds, not only for the State, but for the 
university.
    These funds have been used to help define the geology that 
controls ground water, and they help address our critical water 
supply, particularly in the rapidly growing areas.
    Mr. Regula. I assume USGS is giving you some help already?
    Ms. Hooley. Yes. And this is, again, this is money to help 
match the State and the university. It is a partnership program 
that has been terribly successful in dealing with our water.
    [The statement of Ms. Hooley follows:]

[Pages 495 - 498--The official Committee record contains additional material here.]


    Mr. Regula. It is an existing partnership with USGS and 
your State university?
    Ms. Hooley. Right, and the university system. We started on 
recovery plans for some of the larger areas where we had huge 
burns in our timber land, trying to figure out what to do with 
the water. So thank you very much for your time.
    Mr. Regula. Thank you for coming.
                              ----------                              

                                          Wednesday, April 1, 1998.

           LAND AND WATER CONSERVATION FUND: BAR T BAR RANCH

                                WITNESS

HON. J.D. HAYWORTH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ARIZONA
    Mr. Regula. Mr. Hayworth. Do you have a geese problem or 
are you here to discuss Indian programs?
    Mr. Hayworth. Neither, actually. They are challenges and 
opportunities, never problems, Mr. Chairman. I will never 
characterize any of my constituents as offering anything other 
than challenges and opportunities. Especially mindful of the 
record and this august gathering.
    Mr. Chairman, of course I have a complete statement.
    Mr. Regula. It will be a part of the record.
    Mr. Hayworth. I will offer a much more condensed statement 
for you now, and I just want to thank you for letting me come, 
meet you across the table here and testify about a project that 
is especially important to the people of the Sixth 
Congressional District of Arizona. That would be the purchase 
of the Bar T Bar Ranch through the Land and Water Conservation 
Fund.
    Let's take some time and discuss some of the dynamic 
features of the Bar T Bar. I come complete with photographs, 
Mr. Chairman, works of nature.
    Mr. Regula. Is the Bar T, a wholly new acquisition?
    Mr. Hayworth. This would be a new acquisition.
    Mr. Regula. It would be added to Forest Service?
    Mr. Hayworth. Yes. This is a dynamic area. It's up north in 
Coconino County, it has great water. If you will take a look at 
this picture right there, that's Lake Tremain in the photo with 
the long eastward stretching arm. It is the largest privately 
owned lake in the southwest.
    Then the other two photographs, Mr. Chairman, you have 
1,543 acres of irrigated pasture, part of which will be 
restored as marshlands to benefit waterfowl, fish and other 
wildlife species. You can see those really in the photograph.
    Mr. Regula. Is any of this Forest Service land?
    Mr. Hayworth. No, it all abuts Forest Service land. It is 
all up against it.
    Mr. Regula. How big is the ranch, how many acres?
    Mr. Hayworth. Approximately 7,000 acres, Mr. Chairman. It 
is a great big chunk of land that a lot of people want to see 
protected.
    If you take a look at the pictures, we also have about 
4,500 acres of uplands containing valuable habitat for elk, 
pronghorn, antelope and other game species, and 7,000 acre fee 
of water storage rights, which can be utilized to promote 
waterfowl, fisheries and wildlife conservation and enhancement.
    Mr. Chairman, I would also like to submit for the record 
copies of seven editorials from Arizona's largest newspapers 
supporting the acquisition of the Bar T Bar, including three 
editorials that were published in February. As those editorials 
point out, there is very strong public support for this action.
    Mr. Regula. Let me ask you at this point, if we put in a 
condition that whatever we appropriate would be matched by 
State, private, or local, funding would you be able to find the 
matching funds?
    Mr. Hayworth. We are working right now in terms of, we've 
got partnership funds pledged, and perhaps some formula could 
work.
    Mr. Regula. We are trying to leverage, because we have a 
limited number of dollars.
    Mr. Hayworth. Certainly. I understand. But I would ask of 
the record today, Mr. Chairman, you consider increasing the 
Administration's request for the LWCF funding of Bar T Bar for 
fiscal year 1999 to at least $7 million.
    When coupled with other partnership funds that is 
identified in the written testimony, $7 million would enable 
the Forest Service to purchase approximately two-thirds of the 
ranch by early 1999. The remaining third could then be 
purchased using fiscal year 2000 funds. As this will be an 
installment purchase involving water rights, which are 
difficult to separate from the land, increasing the fiscal year 
1999 appropriation would greatly facilitate splitting the 
property along sales lines that obviously makes sense unique to 
that property.
    However, with only the Administration's request of $4 
million, it will be virtually impossible to split the water 
rights equitably.
    The editorials and my more detailed written statement, Mr. 
Chairman, reflects that Bar T Bar presents an exceptional 
opportunity for the public to acquire a broad array of 
recreational, fishing and wildlife experiences. When coupled 
with virtually unparalleled water rights and offers of non-
Federal funding assistance, Bar T Bar presents a compelling 
rationale for priority public acquisition.
    With the time I have here, Mr. Chairman, I would also like 
to bring to your attention another issue that is of importance 
to all Arizonans, and that is the potential drying up of San 
Carlos Lake, which is run by the Bureau of Indian Affairs. As 
you may remember, this lake nearly vanished last summer, due to 
draw-down from agricultural users downstream.
    In response, those of us in the Arizona delegation wrote as 
a group, all of us, to Secretary Babbitt, asking him to release 
$300,000 under the Emergency Drought Relief Act of 1991, which 
he graciously complied with. State and private sources also 
contributed, and with this funding we were able to save the 
lake, which is vitally important to the San Carlos Apache 
Tribe, as well as environmentalists, recreationalists and 
anglers, not to mention those downstream agricultural users.
    Although substantial rain has started to replenish the 
lake, we could face the same problem in coming years. The BIA 
and my staff are working together to find an appropriate long 
term solution to San Carlos Lake. However, it is a complex 
problem that cannot be solved quickly.
    I have, therefore, drafted legislative language that would 
direct the Secretary to release funds from the Emergency 
Drought Relief Act when the lake reaches a certain critical 
level, 65,000 acre feet below which we run the risk of a 
devastating and costly fish kill.
    Mr. Regula. This is pulled out of what reservoir? In other 
words, what is the source of river?
    Mr. Hayworth. The San Carlos-Gila River.
    Mr. Regula. Does that a have a dam on it?
    Mr. Gordon. Coolidge Dam.
    Mr. Regula. Coolidge. And if he releases it, it flows into 
this lake, is that correct?
    The Staff. No, Coolidge is the dam that the lake backs up 
from, from the Gila River coming from New Mexico, from the east 
to west.
    Mr. Regula. But the Gila River, is it dried up?
    The Staff. No, the Gila River is not dried up. The lake is. 
The agricultural users own all the water. So they draw it down.
    Mr. Regula. The lake is below the dam?
    The Staff. No, the lake is above the dam.
    Mr. Regula. Are you saying close the dam and let the water 
back up?
    Mr. Hayworth. No. There are some problems, long term 
problems in terms of infrastructure there that have to be 
addressed in the long term. As we know, with competing 
jurisdictions, turf battles with BIA and everybody else, it 
gets to be a real challenge.
    This language, I think, would be a positive first step that 
I am submitting for the record, and a good short term solution. 
But I would ask, Mr. Chairman, that we take a look at trying to 
find an appropriate long term solution that may involve some 
more appropriations in terms of the infrastructure. I am not 
sure, I guess technically the BIA, under your jurisdiction 
here.
    [The statement of Mr. Hayworth follows:]

[Pages 502 - 503--The official Committee record contains additional material here.]


    Mr. Regula. We will take a look at it.
    Mr. Hayworth. I just very much appreciate it. Again, to 
reiterate about my first opportunity here, the Bar T Bar is 
really of great importance to people across the State. You have 
been very generous with your time and attention, and I thank 
you very much.
    Mr. Regula. Well, we will try. We do not know what we will 
have yet. It depends on the budgeteers. And there is one behind 
you there.
    Mr. Hayworth. Always nice to have the budgeteers here, 
dedicated, hard working folks.
    Mr. Regula. Whisper in Charles' ear.
    Mr. Hayworth. That is right. Thanks again very much. I 
appreciate it.
                              ----------                              

                                          Wednesday, April 1, 1998.

  UMBAGOG NATIONAL WILDLIFE REFUGE; SILVIO O. CONTE NATIONAL FISH AND 
   WILDLIFE REFUGE; PAYMENT IN LIEU OF TAXES PROGRAM; FOREST LEGACY 
          PROGRAMS; SMITHSONIAN FESTIVAL OF AMERICAN FOLKLIFE

                                WITNESS

HON. CHARLES F. BASS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW HAMPSHIRE
    Mr. Regula. Mr. Bass.
    Mr. Bass. Thanks very much. The irony is not lost on me. I 
had to jump out of a Budget Committee meeting going on in the 
Capitol right now to formulate, to put in final form our 
package of recommended cuts.
    Mr. Regula. We will excuse you if you would like to go 
back. I looked at your request, and I will be glad to excuse 
you. [Laughter.]
    Mr. Bass. Actually, this is not so bad, Mr. Chairman. But 
we are being very, with the exception of the last item, 
reasonable this year. I wanted to provide you, if I could, with 
a map of the Lake Umbagog property, which I have become quite 
familiar with. It is in the very northern part of New 
Hampshire. I used to serve on the land conservation investment 
board, which was a $50 million state land acquisition thing.
    We purchased a significant, the green in the bottom and the 
red are State-owned properties. The sort of dark green area at 
the top on the north--the purple in Maine and New Hampshire, 
some of it is in Maine, that is a parcel of approximately 2,000 
acres.
    Mr. Regula. That is the whole lake.
    Mr. Bass. That is the whole lake right there. But that is a 
big lake, the scale is pretty small. That property there is for 
sale. Al the purple you see, three parcels in Maine and New 
Hampshire, at a cost of, it is estimated, but probably pretty 
accurate, of $1.8 million.
    It really completes, almost completes this phase of the 
Lake Umbagog is basically an untouched lake with the exception 
of a little development on the very north end and the very 
south end. There is a little place that is called Little Berlin 
up there, because the houses are, Berlin is a city south of the 
lake, very close to one another. But it is a very high 
priority. I had the pleasure of going there just last Saturday. 
Clearly, it represents an effort that has been undertaken for 
many years by both the State and the Federal authorities.
    The town of Erol, which you know, sometimes you have 
trouble with the localities of these, is very much in support 
of this project. I hope you can give it your best 
consideration.
    The second project is Smithsonian Festival of American 
Folklife. New Hampshire is the featured State in this annual 
festival, which is occurring on the mall here in Washington 
next year. We are requesting an additional $250,000 for the 
Smithsonian to use to make this festival a reality. As you 
know, it showcases local cultures and so forth, and New 
Hampshire is going to be the key State next summer.
    Mr. Regula. I would assume New Hampshire would put up at 
least an equal amount.
    Mr. Bass. Yes, New Hampshire will match. For the most part, 
this has been entirely self-funded in the past.
    A repeat on Silvio Conte. I understand that we are hopeful 
you might be able to include the willing seller-willing buyer 
language, as you did in last year's appropriation.
    And lastly, the President has requested $700,000 for 
operational expenses. There are no land acquisition earmarks at 
this point. We hope you can support the President's request.
    That is all I have.
    [The statement of Mr. Bass follows:]

[Pages 506 - 508--The official Committee record contains additional material here.]


    Mr. Bass. Thank you, Mr. Chairman, I am most grateful for 
your consideration.
                              ----------                              

                                          Wednesday, April 1, 1998.

  LAND AND WATER CONSERVATION FUND: COLUMBIA RIVER GORGE NSA NATIONAL 
                         ENDOWMENT FOR THE ARTS

                                WITNESS

HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Regula. Mr. Blumenauer. You have quite an agenda.
    Mr. Blumenauer. Well, briefly, I will run through a few 
things, if I could. I will not go into too much detail over my 
statement. I did want to reinforce our appreciation for what 
the subcommittee has done in the past for acquisitions in the 
Columbia River Gorge. I think there is no place in America that 
you are going to buy more environmental protection per dollar.
    There are at least $4 million in critical properties that 
can and should be acquired in the next fiscal year. We are 
hopeful that those will be available.
    The President has requested $280,000 in payments to Gorge 
County to compensate for lost tax revenue due to Federal land 
acquisition. This has been a difficult transition for several 
of these counties. I think this would help make the process 
work very well.
    There is a Dallas riverfront trail, it is not in my 
district, it is in Congressman Smith's district, but it makes a 
big difference, as we are moving in and we are working with 
Congressman Bereuter and others for a celebration of the 
bicentennial of the Lewis and Clark.
    Mr. Regula. Did Lewis and Clark follow the Columbia River 
Gorge?
    Mr. Blumenauer. They went through this area, walking on the 
backs of millions of salmon, yes, sir.
    Mr. Regula. Have you read Ambrose's book?
    Mr. Blumenauer. I have, indeed. And last but not least, the 
National Scenic Area Office is requesting $1.169 million under 
the State and Private Forestry Grant. I am hopeful those will 
find their way into the Interior appropriations bill.
    In the past, there has been support for metropolitan green 
spaces program. The President has requested $300,000 for the 
next fiscal year, which is identical to the amount that was 
appropriated in the prior three fiscal years. I think we are 
doing some things in Metropolitan Portland with urban growth 
limits that demonstrate how we can stretch resource dollars. 
Green space acquisition and protection is an important part of 
that, and in the long run it is going to save money and protect 
the environment. I think it is a model that I hope can be 
emulated.
    Last but not least, I have appreciated what you folks have 
done in the past for the National Endowment for the Arts. I 
would like to add my voice in appreciation and willingness to 
do anything I can to support your efforts. I hope that at a 
minimum, the $138 million can find its way.
    Mr. Regula. It is not likely we can get there. You just 
heard the Budget chairman and it looks to me, that we probably 
will be flat funded on about all of our programs. So it will be 
tough to increase much of anything.
    Mr. Blumenauer. Understood. I want you to know that my 
support is here for as much as you folks can do, and I stand 
willing to help in any way.
    [The statement of Mr. Blumenauer follows:]

[Pages 511 - 514--The official Committee record contains additional material here.]


    Mr. Regula. Okay, thank you.
    Mr. Blumenauer. Thank you for your courtesy.
                              ----------                              

                                          Wednesday, April 1, 1998.

                            JOCASSEE GORGES

                                WITNESS

HON. BOB INGLIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH 
    CAROLINA
    Mr. Regula. Mr. Inglis.
    Mr. Inglis. Thank you, Mr. Chairman, for the opportunity to 
come and testify again in favor of your consideration of the 
Jocassee Gorges project in South Carolina.
    The committee last year saw fit to help us with the 
purchase of this property. It happens to be some beautiful land 
that is near some major metropolitan areas in South Carolina. 
It is not in my district, but a lot of the people that would go 
to enjoy it are in my district.
    Mr. Regula. This is a piece of land we have talked about.
    Mr. Inglis. Yes, it is.
    Mr. Regula. You would like it to be added to the Forest?
    Mr. Inglis. That's right.
    Mr. Regula. Yes, it is a good project. As your population 
grows, and obviously it is going to grow in your area, it is 
already growing pretty fast, you are going to need open space.
    Mr. Inglis. That is right. There are three critical things 
I think are important to point out. One is, you funded it 
before, in 1997, you gave us $1 million, in 1998, $3 million. 
We are back this year to ask for the final $3 million.
    Second thing I think is important to point out, I know the 
Chairman feels that it is important that State sources also be 
tapped. In this case, it is about a $30 million purchase. The 
State has come up with $10 million. We are asking the Federal 
Government here for a total of $7 million.
    Mr. Regula. We can do this incrementally. It does not have 
to be all at one time. Is that correct?
    Mr. Inglis. Correct. You have already done one, $1 million 
in 1997, $3 million in 1998, and this will be the final request 
for another $3 million in 1999.
    Mr. Regula. And you have a State match on this.
    Mr. Inglis. We would have more than a match. The total, we 
just indicated, would bring the Federal contribution to $7 
million. The State is contributing $10 million. The rest of the 
$30 million is coming from private sources.
    Mr. Regula. Is this a power company piece of land?
    Mr. Inglis. Yes, Duke Power Company is making this 
available for sale. It is a single landowner, which is an 
amazing gift, really. This would otherwise be absolutely 
wonderful property to develop. Developers would love to have 
this.
    So Duke Power is being very kind to make it available.
    Mr. Regula. I am sure they are offering it at a reasonable 
price, too, as a public spirited gesture.
    Mr. Inglis. They are. Of course, they are negotiating even 
now on trying to keep that price going down.
    The third thing I think is important, and I know is 
important to the Chairman, is that this is contiguous 
toexisting U.S. Forest Service property. So it just expands the holding 
somewhat.
    For those three reasons, I hope that the committee once 
again sees fit to look favorably on this project, and I very 
much appreciate your help in the past.
    [The prepared statement of Mr. Inglis follows:]

[Page 517--The official Committee record contains additional material here.]


    Mr. Regula. It is a very worthwhile project. I think South 
Carolina is becoming a retirement State as opposed to Florida 
and some of the other States. I find more and more people say 
it is the moderate climate they find appealing, and the 
recreational facilities.
    Mr. Inglis. That is right.
    Mr. Regula. What kinds of hunting would be in there, do you 
have any idea?
    Mr. Inglis. It would be multi-use, and there is a great 
deal of hunting there. Deer, of course, also I believe some 
bear. They have a two week bear season in South Carolina. It is 
an interesting mix of uses.
    Mr. Regula. Any streams or rivers in it?
    Mr. Inglis. Yes, a number of streams that come through 
these gorges. Just beautiful, beautiful land.
    Mr. Regula. It is unspoiled at this point.
    Mr. Inglis. Yes, it really is spectacular. You are going to 
have to come see it. Particularly since, now, this is not in my 
district, you understand, but my people go there, including my 
most important constituent who is into this sort of thing, 
that's my 12 year old son, who you recall was able to push the 
button last year on the Floor on this.
    So he has gotten me into canoeing and that kind of thing.
    Mr. Regula. Do you have that kind of stream availability?
    Mr. Inglis. Oh, yes. There is a lake, Lake Jocassee, it is 
a power lake. It's the first of a series, and it is a very 
deep, very cool----
    Mr. Regula. It's dammed, then?
    Mr. Inglis. Yes. Probably in the 1950s.
    Mr. Regula. They are not using it any more?
    Mr. Inglis. No, it is in use.
    Mr. Regula. They have reserved the right to use the power?
    Mr. Inglis. Yes.
    Mr. Regula. Okay, thank you.
    Mr. Inglis. Good to be with you, thank you.
                              ----------                              

                                          Wednesday, April 1, 1998.

                   MIDEWIN NATIONAL TALLGRASS PRAIRIE

                                WITNESS

HON. JERRY WELLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Regula. Mr. Weller.
    Mr. Weller. Good afternoon, Mr. Chairman. Good to be with 
you again. Let me just begin by saying thank you for the 
support that your subcommittee under your leadership and Mr. 
Yates' leadership the last three years has given for the 
development of the Midewin National Tallgrass Prairie, which is 
part of the Joliet Arsenal Redevelopment, around a 19,000 acre 
conservation area, the largest of its kind. Of course, it is 
right in the center of a population of about 7 million people.
    Mr. Regula. Is it woods or is it just prairie grass?
    Mr. Weller. Well, there are a few trees out there. 
Actually, the wooded area is going to be part of what will be 
the second largest national veterans cemetery in the Nation, 
which is the Nohafe Woods are, but predominantly it is grass 
lands and former farm land that is being converted to tallgrass 
prairie, and I expect there will be reintroduction of some 
buffalo and even elk, they are talking about, which are native 
to Illinois. I did not know that prior to getting involved in 
this project.
    Mr. Regula. Does Illinois have any military cemetery or 
veterans cemetery now?
    Mr. Weller. There are several, but they are basically at 
capacity. There was a shortage, and the cemetery, of course, is 
separate from this particular project. But this will serve the 
entire Chicago region, one and a half million veterans.
    But I came today, I wanted to ask the continued investment 
of your subcommittee. The last three years, you have invested 
$7 million in the development of the Midewin National Tallgrass 
Prairie. I wanted to come by and again ask for continued 
support. In this request, I ask $3.3 million, $1.6 million for 
operations, $1.2 million for design and planning for a visitors 
center, $500,000 for roads and parking.
    Development has been underway, and of course, the sooner we 
can finish the development, the sooner we can open it up 
generally to the public.
    I do want to note that besides the Federal funds that you 
have invested over the last three years, this has been a 
public-private partnership, major donations both by the 
corporate community, corporate neighbors, and also the State of 
Illinois, which has invested $2.3 million in non-Federal monies 
in the last three years. That includes $932,000 from the State 
of Illinois.
    The legislation, which we passed a couple of years ago, 
gives the Forest Service the ability to collect fees to help 
support the operations. Of course, they have not had any 
visitors yet. Until we can finish development, they are going 
to be unable to collect fees.
    I would also like to point out that hundreds of volunteers 
have already begun contributing time for restoration of the 
prairie. I have even spent a Saturday out there planting.
    Mr. Regula. What would you go there to see besides tall 
grass?
    Mr. Weller. It is home to a number of endangered species, 
the upland sandpiper is probably the most well known.
    Mr. Regula. Okay. So at the visitor's center, you focus on 
the wildlife.
    Mr. Weller. There is plenty of wildlife. Of course, 19,000 
acres is a lot of open space. There will be hiking and 
bicycling trails, picnic areas and so forth. I do want to point 
out, we are working with Metro, which is the mass transit for 
rail for the Chicago metropolitan area. Both the Veterans 
Administration, the Forest Service and the industrial park 
which is part of the Joliet Arsenal Redevelopment, has the 
potential to generate thousands of visitors a day.
    In fact, the VA, they are looking at 2,000 visitors a day. 
We are interested in eventually bringing Metro, to have a 
station located at the prairie.
    Mr. Regula. It would help a lot with school groups, and 
with a lot of people. Is it literally tall grass?
    Mr. Weller. There is some tall grass out there, that is 
right. Grass of varying size. One thing, there are certain 
types of birds out there, I think the upland sandpiper is one 
of them, that likes shorter grass, which is one of the reasons 
they want to make sure, there is currently some cattle out 
there, but if we are going to replace the cattle with buffalo, 
that will keep the grass grazed in certain areas. Certain types 
of birds prefer that.
    [The statement of Mr. Weller follows:]

[Page 521--The official Committee record contains additional material here.]


    Mr. Regula. You said you want to reintroduce buffalo and 
elk.
    Mr. Weller. Buffalo and elk are two of the species they 
would like to reintroduce out there, according to the Forest 
Service and Department of Natural Resources. Like I say, I did 
not know that elk was native to Illinois, but they are.
    Mr. Regula. Okay, thank you.
    Mr. Weller. Thank you, and we would appreciate your 
continued help and support.
                              ----------                              

                                          Wednesday, April 1, 1998.

                       NORTHWEST INDIANA PROJECTS

                                 WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Regula. Mr. Visclosky.
    Mr. Visclosky. Mr. Chairman, thank you very much.
    I understand my entire statement will be entered into the 
record, and I want to thank you for all of your past help and 
support, the committee's help and support and the staff's help 
and support.
    I have a number of requests pending and I look forward to 
working with you and the staff as you approach markup.
    [The prepared statement of Mr. Visclosky follows:]

[Pages 523 - 526--The official Committee record contains additional material here.]


    Mr. Regula. Okay, we will look at them. Are any of these 
ongoing?
    Mr. Visclosky. They are all very worthwhile, Mr. Chairman.
    Mr. Regula. Did we finish the dunes?
    Mr. Visclosky. We finished acquisition of Crescent Dune, 
and you were very instrumental in making sure we had a 
significant earmark two years ago, Mr. Chairman. I do 
appreciate that very much. So that has been preserved.
    We would need $6.4 million to complete acquisition of all 
authorized properties in the park. This year, there is a 
request for about $550,000 for existing hardship cases as a 
subset of that $6.4 million.
    Mr. Regula. Okay, thanks for coming.
    Mr. Visclosky. Thank you very much.
    Mr. Regula. Was that land owned by a power company?
    Mr. Visclosky. Yes.
                              ----------                              

                                          Wednesday, April 1, 1998.

                    NATIONAL WILDLIFE REFUGE SYSTEM

                                 WITNESS

 HON. JOHN TANNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE
    Mr. Regula. Mr. Tanner.
    So what you have is part of this?
    Mr. Tanner. Actually, I do not know what you have there. 
There are seven Federal reservations, reserves, refuges, 
whatever one wishes to call them, and they are all in Tennessee 
and they are all in our district, along the Mississippi River. 
This is the first regional conservation plan, Mr. Chairman, 
that brings together the management strategies and goals of the 
North American Waterfowl Management Plan, the Western 
Hemisphere Shore Bird Reserve Network and Partners in Flight.
    It brings them all together, and it is, I think, the idea 
that we will promote wildlife of all kinds, not to be specific. 
People do one thing for ducks and one thing for wild turkey and 
so forth. This brings everything together on the theory that 
all of them will benefit, whether they be waterfowl, 
shorebirds, song birds, game birds, whatever.
    Mr. Regula. By the way, it encompasses more than one State?
    Mr. Tanner. Yes, there are six States. What they are trying 
to do, and the executive director of the Tennessee Wildlife 
Resource Management Agency, Gary Myers, who is a good friend of 
mine, I worked with him when I was in the General Assembly in 
Tennessee, has been very active in this effort. It is based on 
the premise of partnership, usingpublic monies and leveraging 
them with matching private monies and using willing sellers to acquire 
some of this to restore bottom land, hardwood and hydrology, wetlands 
hydrology and so forth.
    I bring it to your attention, it is I think a product 
worthy of at least consideration.
    Mr. Regula. You are asking for funding to set up this 
regional effort?
    The Staff. Right. It is already set up, Mr. Chairman. What 
they have done is the funds that have been spent so far have 
been primarily spent on acquisition from willing sellers. Now 
they are getting to the point where it is time to start 
implementing the conservation plans that are now being set up. 
That is what the funding request is designed to address.
    Mr. Regula. So this will be matched with State and private 
money.
    The Staff. Absolutely.
    Mr. Regula. I like these programs. We try as much as 
possible to get matching, because it leverages the dollars so 
much.
    [The statement of Mr. Tanner follows:]

[Pages 529 - 532--The official Committee record contains additional material here.]


    Mr. Tanner. I want to thank you for having this and letting 
us come down here. This is unusual, and we appreciate it very 
much.
    Mr. Regula. We have a full day of it. But you know, these 
are the things that are important to people in their districts.
    Mr. Tanner. You all are doing a good job. This is important 
stuff, because if we do not do it now, it will disappear.
    Mr. Regula. What we are talking about here is 100 years 
from now, and all these open spaces will be extremely valuable 
as the population expands, the work week shortens, and people 
are more stressed out. They need a place to go. We are going to 
do as much as we can with the monies available. I often think 
about, somebody had a vision in Central Park, in New York City. 
I do not know who did it, but somebody sure did look ahead.
    The Staff. Some of the best brook trout streams in America 
are now asphalt covered in New York City, and Long Island.
    Mr. Regula. Yes. We have to save open space.
    Mr. Tanner. Thank you.
                              ----------                              

                                          Wednesday, April 1, 1998.

                 BACKBONE TRAIL, SANTA MONICA MOUNTAINS

                                WITNESS

HON. BRAD SHERMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. I want to express my 
appreciation for your holding this hearing.
    I am here today to discuss the Backbone Trail in the Santa 
Monica Mountains. As you know, 14 million people live within an 
hour's drive of that park. I am here to request first that the 
committee and subcommittee approve the list put forward by the 
President on the $699 million.
    Mr. Regula. I will have to say to you at the outset that we 
are not going to take the whole list as it is. The list 
reflects the President's priorities.
    Mr. Sherman. More particularly, the one particular line 
item therein, of $5.5 million for the completion of the 
Backbone Trail.
    Mr. Regula. What will it take to complete the whole project 
out there?
    Mr. Sherman. The whole project could be as much as $200 
million. However, the vast majority of those funds will be 
available from State and local funds. And of course, this is 
not a project that is going to be completed this millennia.
    Mr. Regula. What is the Backbone Trail? I saw it when I was 
out there, it follows a spine in the mountains.
    Mr. Sherman. That is it. With this $5.5 million, we will be 
able to complete the Backbone Trail, which will be 65 miles 
long, connect up the different areas within the park, both 
Federal ownership and State and county ownership. You will be 
able to take a 65 mile hike, it will take you a while, really 
from Santa Monica to Point Magoo in Ventura County.
    Mr. Regula. On the ridge, would any of that money be 
provided by the State?
    Mr. Sherman. That 65 miles goes over property acquired with 
State and local funds, as well as Federal funds. I believe more 
of the land is owned by State and local than Federal. The $5.5 
million is just to fill in about 3 miles of the 65. That 
particular fill-in, if you just look at those three miles, 
those three miles would be Federal.
    But if you look at the entire 65 miles, I would venture to 
say, and I know what the ratio of expenditure is in the park as 
a whole. I have not charted it for the Backbone Trail itself. 
In the park as a whole, the ratio is about a dollar and a half 
of State and local funds for every dollar of Federal funds.
    Mr. Regula. Is there any reason the State could not 
participate in this three miles?
    Mr. Sherman. The State is focusing on other priorities 
within the park. And I guess you could look at every project in 
the park and say, every project has to be both State and 
Federal. On the other hand, the State is doing a lot of things 
in the park that the Federal Government is not chipping in on. 
The ratio of Federal to State funds in this park, I think, is 
better than any park I can identify.
    Mr. Regula. What makes this one tough is that the land is 
so expensive.
    Mr. Sherman. But if you value it per acre----
    Mr. Regula. What would this be per acre?
    Mr. Sherman. I don't have those figures with me, since I am 
here focused mostly on 1999. We can certainly, and will get you 
those figures.
    Mr. Regula. The Backbone Trail is three miles long and how 
wide?
    Mr. Sherman. It varies. You have to acquire particular 
parcels. At some parts, it's going to be rather narrow.
    Mr. Regula. I would be interested in what the total acreage 
is in the three mile parcel. If you would just get it to the 
staff.
    Mr. Sherman. Will do.
    I am here today just as much to focus on the 1999 budget as 
on the 1998 budget.
    Mr. Regula. Okay. What if we conditioned some of it on 
State participation? I will talk to Doug Wheeler and see what 
the State's feeling is. I know the State is involved. There is 
a State park in the area and some county facilities.
    Mr. Sherman. There are, in fact. The regular State park 
department plus the Santa Monica Mountains Conservancy. It is 
more complicated to have each individual partial acquisition 
involve more than one buyer. But if there was a condition that 
while the Federal Government was spending the $5.5 million in 
the President's list, or whatever amount is appropriated in 
1999, if it was conditioned on local and State efforts, being 
maintained at the same level per year as the Federal effort, 
that might very well be simple.
    It is tougher to coordinate two or three buyers per parcel.
    Mr. Regula. I can understand that. Maybe the State could 
get some of the other parcels that are part of the ultimate. 
The boundary must be far beyond what has been acquired.
    Mr. Sherman. Roughly half of the land is in governmental 
ownership within the boundaries. So there are important 
parcels, including two I have come to talk to you about here 
today.
    I believe the hearing is focused on fiscal year 1999, but 
as you point out, the fiscal year 1998 is also very important. 
The focus of what I would request for 1999 builds upon the 
Backbone Trail. So if I am faced with a question----
    Mr. Regula. This is all Santa Monica, though?
    Mr. Sherman. Santa Monica Mountains National Recreational 
Area, yes. And the Backbone Trail, which is in the President's 
list for all the funds necessary to complete it, is even more 
important than the additional projects.
    Mr. Regula. Your number one is Backbone.
    Mr. Sherman. Number one is Backbone.
    Mr. Regula. Okay. Then your second priority would be these 
other tracts.
    Mr. Sherman. Exactly. And these tracts are adjoining the 
Backbone Trail, and will facilitate the use of that trail, not 
just be people, but by animal populations.
    Mr. Regula. Are any of these threatened with development?
    Mr. Sherman. Yes. And yet, we are dealing with willing 
sellers. This is not an expropriation or even a threatened 
expropriation situation.
    [The statement of Mr. Sherman follows:]

[Pages 536 - 537--The official Committee record contains additional material here.]


    Mr. Regula. Okay, we will look at all of them.
    Mr. Sherman. Thank you very much for your time.
    Mr. Regula. We do not know what we are going to have yet in 
the way of an allocation.
                              ----------                              

                                          Wednesday, April 1, 1998.

NATIONAL WILDLIFE REFUGE SYSTEM, NEW JERSEY COASTAL HERITAGE TRAIL, NEW 
                   JERSEY PINELANDS NATIONAL RESERVE

                                WITNESS

HON. JAMES SAXTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Regula. Mr. Saxton. Okay, Jim. You have quite an agenda 
here.
    Mr. Saxton. Mr. Chairman, I guess I would just like to 
offer to have my entire statement in the record.
    Mr. Chairman, as you probably know, New Jersey is the most 
densely populated State in the country. And that is one of the 
reasons for the rather lengthy agenda.
    Mr. Regula. Are you per square mile the highest population 
density in the country?
    Mr. Saxton. Highest in the country, yes. More people per 
square mile than any other State. In my district, you have been 
quite frankly, very, very helpful with regard to the Forsythe 
Refuge in expanding it. It is perhaps kind of an unusual type 
of refuge, because the parcels that we add almost annually are 
very seldom contiguous. We try to identify sensitive lands, 
wetlands, and uplands, to protect the wetlands, to acquire each 
year based on scientists' recommendations.
    Mr. Regula. The refuge is not a contiguous piece of land.
    Mr. Saxton. That is correct. It starts in what was Bill 
Hughes' district, which is now Frank LoBiondo's district. And 
there is some bay front, a large section of bay front in there 
in Atlantic County.
    Then it skips over some towns, and we have acquired some 
lands in Burlington County.
    Mr. Regula. Will it not be difficult to administer?
    Mr. Saxton. That is one of the problems we have. However, 
in spite of the difficulties that are involved with acquisition 
of lands that stretch from Mr. Pallone's district through Mr. 
Smith's district, through my district and through Mr. 
LoBiondo's district, these are sensitive lands that migratory 
birds have traditionally used.
    And in the case of this year's request for additional 
acquisition, we have a 480 acre parcel which is prime for 
development. It fronts on Route 9, which runs parallel to 
Barnaget Bay and goes down to the bay.
    Mr. Regula. Does any of this help to connect the parcels 
that are now separated?
    Mr. Saxton. In some cases it may. However, that has not 
been ours or Interior's primary objective. The primary 
objective has been to acquire sensitive lands. In spite of the 
fact they are not contiguous, and in most cases, probably will 
not be contiguous, because of development that has occurred 
throughout the area, but rather to have as a primary objective 
to identify those lands that are the most environmentally 
necessary and sensitive, and to acquire them, rather than to 
have them developed.
    Mr. Regula. How do they administer this? Do they just leave 
these parcels in the raw state for the migrating birds to set 
down there? They do not keep people on each one of them, I 
assume.
    Mr. Saxton. That is correct. The parcels are by and large 
intended to remain in their natural state. In some cases they 
actually revert to a more natural state. In the case of this 
480 acres, it was at one time used as a game farm. And it has 
dwellings and buildings on it which will be removed. Over time, 
Mother Nature will help it revert to its natural state.
    Mr. Regula. Are there any State lands inter-mixed with 
this?
    Mr. Saxton. I cannot represent that that is so. However, I 
cannot tell you assuredly that is not so.
    Mr. Regula. How many acres? Do you have any idea what is in 
it now?
    Mr. Saxton. Approximately 10,000 acres.
    Mr. Regula. How many acres are in New Jersey? This is a 
fairly populous area, is it not?
    Mr. Saxton. Yes. The southern part of New Jersey has two 
strips of population center, if you will. One strip runs west 
of the New Jersey Turnpike, between the turnpike and the 
Delaware River. The other strip of population runs from the 
Garden State Parkway east to the ocean. In this case, we are 
talking about that strip of land that runs from the parkway to 
the ocean, and that is in which these various parcels are all 
located.
    Mr. Regula. Does any of this front on the ocean?
    Mr. Saxton. Most of it fronts on the bay, but not on the 
ocean. There is a barrier island system between the bay and the 
ocean.
    Mr. Regula. But you have one headquarters?
    Mr. Saxton. Currently there is one headquarters. It is 
located in the section which was formerly known as Brigantine, 
which is where the headquarters for the Forsythe currently is.
    One of my other objectives here today, Mr. Chairman, was to 
bring to your attention the need for an additional 
administration building, for which we are requesting $200,000, 
which would be located in the northern section of the refuge.
    Mr. Regula. This would be a separate building. It will not 
involve more people, though.
    Mr. Saxton. That is correct.
    The land acquisition for this year, the request is $3.3 
million. And we have the request for $200,000 for that.
    I would like to bring to your attention a new concept that 
we have been exploring in the Resources Committee. We passed a 
bill in the House which originated in the Resources Committee 
to provide for a volunteer program for the refuges, or to 
enhance the current volunteer program, because of the 
maintenance backlog. We are requesting $1,050,000 for the 
national implementation of that volunteer program. There are 
many instances----
    Mr. Regula. Would this be just the Fish and Wildlife 
Service?
    Mr. Saxton. This would be for the refuge system.
    Mr. Regula. The whole system.
    Mr. Saxton. We believe that with a minimum investment, we 
can leverage that investment into a great deal of labor and 
contribution from the private sector. There are in some cases 
volunteer coordinators on the refuges now. However, Interior 
agrees that with some upgrading in the funding that we could 
expand the volunteer program, it would be very beneficial and 
very cost effective.
    So we are making that request for that additional money as 
well.
    Mr. Regula. Volunteers are a very important component of 
all our land agencies, parks, forests, etc.
    Mr. Saxton. We also at the Forsythe have an operation and 
maintenance backlog, for which we are requesting $475,000, and 
there are a variety of things I will not go into that that 
money will be used for.
    The final item on my agenda are funds for an education 
program. The southern part of New Jersey, in the center of the 
State, I told you about the population sections on either side, 
west of the turnpike and east of the parkway. The center part 
of the State is known as the Pinelands National Reserve. And we 
are requiring $500,000 to implement the Pinelands Interpretive 
program, which is an educational program for school children 
and other individuals.
    Mr. Regula. Is that managed by the Fish and Wildlife 
Service?
    Mr. Saxton. Yes, it is.
    Mr. Regula. Or is that the National Park Service?
    Mr. Saxton. It is actually administered by the State of New 
Jersey, with oversight from the Division of Fish and Wildlife.
    [The statement and a correction letter of Mr. Saxton 
follow:]

[Pages 541 - 545--The official Committee record contains additional material here.]


    Mr. Regula. Okay. We finished the forest, didn't we.
    Mr. Saxton. Yes, sir, we ran the track.
                              ----------                              

                                          Wednesday, April 1, 1998.

                   KEWEENAW NATIONAL HISTORICAL PARK

                                 WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Regula. Okay, the next on the list is Mr. Stupak.
    Mr. Stupak. Thanks, Mr. Chairman.
    Mr. Chairman, I want to talk a little bit today about my 
national parks up in northern Michigan. First, I would like to 
mention, our first priority is the Keweenaw National Park, 
where we are requesting $950,000 appropriation.
    Mr. Chairman, as you have heard me testify before, before 
this committee, the uniqueness of the park in that area 
requires $4 of State and local money for every $1 the Federal 
Government puts in.
    Mr. Regula. Did you say it is required?
    Mr. Stupak. Right in the enabling statute.
    Mr. Regula. Okay. That's fine.
    Mr. Stupak. And to date, the State, local and private 
interests have put in about $16 million in the park. Yet there 
has never been a specific Federal commitment towards the park. 
As time passes, we have seen that support for the park will 
decrease among the private and local community if the Federal 
Government does not step up to the plate.
    In the past we have been told that, well, we don't have a 
general management and the park is not completed yet, so 
therefore you cannot expect anything. We are just going through 
the printing and the final comment, by June of this year, it 
will be done. So fiscal year 1999 is the perfect opportunity to 
get us some money up there.
    The $950,000 is not a lot of money. In fact, their wish 
list is much, much more. But the midwest region, they have 
indicated to use that they urgently need the $950,000 money to 
be appropriated. Some will go for staffing, a quarter of a 
million of that would go for pre-acquisition costs, and 
$100,000 is for the advisory commission.
    The reason for the advisory commission, again, this is sort 
of a unique park, different than other parks, in that terms of 
property ownership, the Federal Government role is limited to 
those structures that are truly in the national interest and 
fundamental to the park concept. The non-Federal side, that is 
where the park advisor commission comes in, and they really 
have control over that, they are ready to begin their work, but 
they need the $100,000.
    So altogether, we crunched everything for Keweenaw National 
Park, which our request would be millions, they said, if you 
can get us an additional $950,000, that would be excellent. Mr. 
Chairman, if there is a number one priority, that would be it.
    At the same time, I would also ask the subcommittee's 
insight on how we can best deal with this park. It is a unique 
concept, we have never tried it before. To get the funding 
flexibility requires to fully take advantage of the unique 
partnership we do have here.
    Secondly, Mr. Chairman, Sleeping Bird Dunes National 
Lakeshore, I am not talking about the leases this time, in 
their management plan in 1992, they indicated $800,000 for a 
parking lot and restrooms. The reason why that is important in 
this park, there is a state highway that goes right down the 
middle of it. There is a river there, the Platte River, where 
everyone does canoeing. There is one canoe livery station left. 
According to the master plan, that is the way it is going to 
be.
    But we have probably about 55 percent of the days in July 
and August through Labor Day weekend, people are parking all 
over the road, trying to cross the State highway, because we do 
not have adequate parking. So we are asking for that $800,000, 
directing the Park Service to put in the $800,000 for 
additional parking and restrooms.
    They have the money. Remember in Michigan we are charging 
the fees for visitation.
    Mr. Regula. Is this a fee park?
    Mr. Stupak. This is a fee park. They all are except 
Keweenaw, because of the uniqueness of it.
    Then third is the Isle Royal Park. Even that is a fee park, 
Mr. Chairman, but that is one of the parks that has really been 
neglected. I know all the parks are not funded to the full 
possibility but we are asking for $1.05 million, just over a 
million dollars above the President's request for Isle Royal. 
Again, each one of these requests, it is not just me, but the 
midwest regional office and the documents are attached here 
which supports my funding request for each one of these.
    Picture Rocks National Lake Shore, thanks for your help in 
the past on the road issue there. And there again, we just need 
about $500,000 there to do some important maintenance projects. 
And again, I have a detailed summary attached by the midwest 
regional office. As far as the road, H. 59 and Picture Rocks 
that you have been a great help to us on, hopefully this bill 
that is going through Congress today on the Floor, ISTEA, we 
will grab a little money of there to take care of that.
    So again, thanks for your direction there.
    Last but not least, PILT payment. I know you understand the 
program extremely well. You know the issue. Some parts of my 
district, 70 percent of the county is owned by the Ottawa 
National Forest. Since we rely on those PILT payments, and you 
know since 1977 it has been underfunded, we have increased the 
authorization levels four years ago, but we never put any money 
into it. Whatever the committee could do would certainly be 
appreciated.
    With that, Mr. Chairman, I guess that summarize it. 
Keweenaw Park is one that needs a shot, just to show to the 
locals that we are serious with our commitment.
    [The statement of Mr. Stupak follows:]

[Pages 548 - 555--The official Committee record contains additional material here.]


    Mr. Regula. Priority wise, that would be your first choice.
    Mr. Stupak. That would be my first choice. Thank you.
    Mr. Regula. Thank you.
                              ----------                              

                                          Wednesday, April 1, 1998.

             INDIAN HEALTH SERVICE/BUREAU OF INDIAN AFFAIRS

                                WITNESS

HON. DALE KILDEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Regula. Mr. Kildee, you are next.
    Mr. Kildee. Thank you, Mr. Chairman.
    Good afternoon. I am here as both co-chairman of the 
Congressional Native American Caucus and also as a member of 
the Resources Committee. I want to thank you for this 
opportunity to address the fiscal year 1999 budget request for 
the Indian Health Services, IHS and the Bureau of Indian 
Affairs.
    I respectfully request that the subcommittee approve an 
increase of $267 million for IHS, provide an increase of $1.1 
million for BIA tribal priority allocations to the Little River 
Band of Ottawa Indians, and increase funding for school 
construction and tribal courts.
    The President's fiscal year 1999 budget request for the 
Indian Health Service is $2.118 billion, which reflects an 
increase of $19.7 million over fiscal year 1998. This amount 
represents less than a 1 percent increase, the lowest of all 
the agencies in the Department of Health and Human Services.
    Mr. Regula. In truth, it is a reduction, because of the 
step grade pay raises and inflation. We are very aware of it. 
In fact, I put a memo out on the fact that I thought the 
President really shortchanged Indian health.
    Mr. Kildee. Mr. Chairman, you could not have summarized it 
better.
    Mr. Regula. We are very sensitive to that problem.
    Mr. Kildee. I very much appreciate it. I was going to 
mention the very things you mentioned more eloquently than I 
have there. So I am very happy that you recognize that.
    With respect to the President's Bureau of Indian Affairs 
budget request for fiscal year 1999, I urge you to support the 
budget request for $110 million increase for the operation of 
Indian programs that includes $33.8 million increase in tribal 
priority allocations, TPA.
    Mr. Chairman, on March 5th, Mr. Robert Gearhardt, the 
tribal chairman of the Little River Band of Ottawa Indians of 
Michigan, whose reservation is in Mr. Stupak's district, 
testified before your subcommittee about an error in the TPA 
account that needs to be corrected in order for the Little 
River Band to receive its fair share of the TPA funding. The 
Band is now receiving about 50 percent less per member than 
other comparably situated tribes. I would strongly urge you to 
correct this error and give the Band a TPA base of $1.1 million 
for fiscal year 1999.
    They are a new tribe. It is incredible what they are doing 
with their self-sufficiency, but they need this TPA account 
increased.
    I support the proposed increase of $86.6 million in BIA 
funding for school construction. The Indian community will use 
this funding increase for replacement of schools, construction 
and education facilities, improvement and repair.
    Mr. Regula. Let me say, we are very sensitive to all the 
Indian needs. It is very difficult to do all that we know needs 
to be done, health, education, law enforcement. It is 
difficult.
    Mr. Kildee. The budget request earmarks part of this 
funding to complete school construction as you know, in 
Arizona, Iowa and Nevada. I think the completion of that should 
be a priority, and I know you have been very resourceful on 
that.
    Mr. Regula. It is just a matter of having the funds.
    Mr. Kildee. While I support the President's request for 
increase in funding, the estimated need for school construction 
exceeds $800 million. This unmet need causes me great concern. 
I do know you have a real problem in trying to meet that fully. 
But if you can address it in some fashion, I certainly would 
appreciate it.
    Mr. Regula. We will do the best we can with what we have.
    Mr. Kildee. Thank you.
    Mr. Regula. We are sensitive to all these problems with the 
Native Americans.
    Mr. Kildee. I recognize you have to balance the need with 
what is available, and the demands of the budget agreement.
    The budget request provides $25 million for the law 
enforcement initiative. The Department of Justice fiscal year 
1999 budget for the initiative is $125 million. The BIA and DOJ 
combined funding of $150 million for the law enforcement 
initiative would improve public safety in Indian Country.
    I am disappointed that the President's budget did not 
request an increase in funding for tribal courts. The $10 
million with the Department of Justice to establish the Indian 
tribal courts program is not an adequate increase for funding 
the tribal courts. So I strongly urge you to increase the 
funding for these courts.
    Mr. Regula. They talked to us about that.
    Mr. Kildee. I appreciate that, Mr. Chairman.
    Mr. Chairman, I ask that your subcommittee provide funding 
for programs and services under the BIA and IHS to assure that 
the needs of our Nation's first Americans are adequately met, 
and our collective goal for a stronger economic base in Indian 
Country is fully realized.
    This concludes my remarks about the BIA and IHS budget 
request for fiscal year 1999. I thank you for what you have 
done in the past, you have been sensitive to the needs, and I 
do realize you have only a certain amount of money. I used to 
serve on the Budget Committee, and I found out the Budget 
Committee was fairly irrelevant. You make the real decisions 
here. After six years on the Budget Committee, I was not 
convinced there was a need for it any more.
    [The statement of Mr. Kildee follows:]

[Pages 558 - 561--The official Committee record contains additional material here.]


    Mr. Regula. I was on the Budget Committee six years myself.
    Mr. Kildee. But I do know that combined with your 
sensitivity to Indian needs and fiscal situation that you will 
try to do your very, very best.
    Mr. Regula. Okay, thank you.
                              ----------                              

                                          Wednesday, April 1, 1998.

 NATIONAL ENDOWMENT FOR THE ARTS/NATIONAL ENDOWMENT FOR THE HUMANITIES/
               INSTITUTE FOR MUSEUM AND LIBRARY SERVICES

                                WITNESS

HON. JERROLD NADLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Regula. Mr. Nadler, you can see we are getting backed 
up here, so anything you can do to speed it up, we will 
appreciate it.
    Mr. Nadler. I will speed it up. Mr. Chairman, I have a 
lengthy statement which I will hand you.
    Thank you, Mr. Chairman, for the opportunity to testify 
before you today in support of funding for the National 
Endowment for the Arts, National Endowment for the Humanities 
and the Institute for Museum and Library Services. I urge you 
to fund these programs at the level requested by the President, 
$136 million each for the NEA and NEH, and $26 million for the 
Office of Museum Services within the Institute of Museum and 
Library Services.
    Last year, funding for the NEA was cut to its lowest level 
in two decades. It is time for a change. I will not go through 
all these well drafted paragraphs about how the NEA is vital to 
our society, to our health, to our culture, and to our economy. 
You can read it into the record the testimony from last year, 
it has not changed. And also it is in the statement there.
    But the NEA, I do want to say the following. The NEA 
supports the arts. One of the ways it supports the arts is by 
stimulating the growth of local arts agencies. Before the NEA, 
only five agencies had State funded arts councils. Now they all 
do.
    Because of the formula changes that we enacted last year, 
these State arts agencies will play an even larger role in our 
communities, and NEA's budget should increase so that every 
State can foster thriving artistic communities.
    The NEA, however, does much more than just fund local arts 
agencies. It supports nationally important work, like the 
Vietnam Veterans Memorial, public television programs, and 
numerous touring artists groups that bring excellent art to 
local communities all across the Nation. Not to New York City, 
without the local touring groups we would still have them in 
New York, but to rural and small communities all over. The 
State arts agencies obviously cannot do it. States are not 
going to use their limited funds for touring groups to spend 
most of their time in other States.
    The NEH is also vital for the reasons I stated in the 
written statement, as is the Office of Museum Services. So I 
urge you to fully fund the Administration's request, so that we 
as members of Congress can live up to our constitutional 
obligation to promote the general welfare, help our citizens 
truly pursue happiness to the fullest meaning of the word.
    Let me make a special comment. Last year I came before this 
committee and urged funding for the NEA. As you know, the 
committee recommended closing the agency and providing $10 
million for that purpose only. I believe very strongly that was 
a serious mistake. I further believe that what happened to the 
NEA on the Floor of the House was a disgrace. The Rules 
Committee singled out the NEA for harsh treatment and refused 
to allow Sid Yates to offer an amendment to restore funding for 
the NEA on the Floor of the House.
    Mr. Regula. Well, as you know, there is no authorization, 
and that is part of the problem.
    Mr. Nadler. I understand that, there is no authorization. 
And that is a part of the problem. Nonetheless, you refused to 
allow to do it, it routinely waives similar points of order on 
other things.
    Mr. Regula. And the policy of Gerry Solomon has been that 
there is no waiver if the authorizing chairman does not agree 
to one. And in this instance, Mr. Goodling would not agree. You 
understand.
    Mr. Nadler. I understand. But let's be real. There is a 
very strong, or there was at least, I don't know if there still 
is, there was a very strong debate within the entire House, not 
just any committee, over the NEA. The majority of the House 
wanted the NEA to continue.
    To refuse the opportunity to vote on that question, whether 
the NEA should continue, which is a rather fundamental 
question, was wrong. The rule was almost defeated because of 
that. It came within one vote of being defeated because members 
felt so strongly. And frankly, it left you, Mr. Chairman, in a 
difficult position in the conference.
    Mr. Regula. I know very well.
    Mr. Nadler. I am sure you do. I think we all ought to make 
your job in the conference less difficult this year. So I hope 
this committee will report funding for the NEA. I think we had 
the big battle last year. We do not need a repeat of that big 
battle on the Floor of the House, another rules vote, another 
conference.
    We did it, we got it out of the system. Whoever made 
commitments did their part to fulfill commitments. Let's do the 
rational and reasonable thing, and whatever the level of 
funding is going to ultimately end up being, we don't have to 
go through this ``sturm nach drang'' again. Let's report a 
reasonable level of funding.
    [The statement of Mr. Nadler follows:]

[Pages 564 - 567--The official Committee record contains additional material here.]


    Mr. Regula. Okay, thank you.
    Mr. Nadler. Thank you, Mr. Chairman.
                              ----------                              

                                          Wednesday, April 1, 1998.

     FISH AND WILDLIFE SERVICE: SAN DIEGO NATIONAL WILDLIFE REFUGE

                                WITNESS

HON. BRIAN P. BILBRAY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Bilbray, you are next.
    Mr. Bilbray. Thank you, Mr. Chairman.
    I appreciate the chance to be able to appear here today.
    As your subcommittee prepares for the 1999 year, I would 
like you to consider some of the items that we have already 
discussed, and probably the major one is our flagship project 
in San Diego, multi-species management and conservation 
program.
    I think you understand that this is a classic private-
public partnership, local, State and Federal agencies working 
to perform something that sadly is all too often missed, and 
that is a balanced, sound resource management plan. You are 
aware of the progress of the program. I appreciate the fact 
that you have been very supportive.
    Mr. Regula. We are pushing the HCPs. I think it is a great 
way to solve a difficult problem.
    Mr. Bilbray. It is a great way to be cooperative, 
proactive, not punitive and reactive.
    Mr. Regula. Exactly.
    Mr. Bilbray. As you did in the last year, I think you 
recognize this is a bipartisan effort, with many counties, San 
Diego, Riverside, Orange County, a huge population base. I am 
particularly interested in the Bureau of Land Management's 
efforts on Old Time Mountain in San Diego County and the 
further strengthening of the San Diego National Wildlife 
Refuge.
    As you are aware, the Fish and Wildlife Service is 
presently in the middle of a public comment period of the 
potential of designating the South Bay unit of the refuge, 
which would encompass parts of San Diego South Bay region. As 
you and I have discussed in the past, I would ask the 
subcommittee to closely monitor the evolution of this process. 
There are legitimate concerns which have been expressed by both 
the environmental community and local communities and other 
jurisdictions about the public comment period and the 
possibility of extending it through mid-June.
    I have attached for your review two articles from the 
Imperial Beach Sun, which reflects two different perspectives 
which I have heard repeatedly by my constituents about the 
potential South Bay unit, along with a letter from the City of 
Coronado, which actually has probably the largest percentage of 
the proposed refuge in their city.
    My concern is that the Fish and Wildlife Service understand 
that this is a chance for them to leave the old processes 
behind and move towards a more cooperative one, and that the 
South Bay Unit of the San Diego Refuge effort, there must be a 
consensus acquired before we move forward with this issue, that 
the consensus and the agreement should incorporate all the 
stockholders to avoid undue conflict.
    I would ask the subcommittee to take special interest in 
ensuring that this process ultimately occurs prior to any unit 
designation being made. I appreciate your actions on this item. 
All the talk in the world of cooperative effort, if the Federal 
Government is just going to come in and mandate without the 
community actually being participating in the process I think 
is counter-productive.
    In fact, we want to make sure the surrounding communities 
are not just supportive but actually are partners, so that they 
are able, we want the system to be surrounded by allies.
    Mr. Regula. Yes. That way it will work.
    Mr. Bilbray. Hopefully. Mr. Chairman, I would also like to 
call on a more negative issue, the fundamentally unacceptable 
situation which exists regarding a long suffering proposal of 
low level radiation disposal facility in Ward Valley. You are 
familiar with the history of this project, which is so 
important to the medical treatment and research facilities and 
high-tech, biotech companies in my district, and all throughout 
the State of California.
    Mr. Regula. Is this not a problem for another agency of 
Government?
    Mr. Bilbray. Actually, I think it falls under your 
jurisdiction. This is the sad part about it. The situation has 
been completely mismanaged by the Department of the Interior. 
The Interior Department is who is actually controlling this, 
and this has been our frustration, and the Bureau of Land 
Management.
    Mr. Regula. We are familiar with the form of the protest, 
of course.
    Mr. Bilbray. Right. Sadly, the situation has gotten to 
where the American Indian movement----
    Mr. Regula. Is being used, I think.
    Mr. Bilbray. Basically has taken possession of U.S. 
territory, public lands, and have controlled access to the 
point to where BLM rangers are disarmed when they want to come 
onto the property, and the AIM security is controlling the 
property, not the United States Government.
    More disturbing, Mr. Chairman, are the recent allegations 
basically pointing out that there is an intention by the 
Department of the Interior to collaborate with the activists. 
What is sad about this is that at the same time these 
allegations are being made, Secretary Babbitt has asked Calvin 
Gover, the Assistant Secretary of BIA, to negotiate with the 
activists who are illegally occupying the site.
    Now, let me point out that I have several memos from the 
State of California and other material which further expands on 
the documents that this troubling situation is developing, 
which I would like to include in the hearing.
    Mr. Regula. This will all be in the record.
    Mr. Bilbray. Thank you. The potential for violent conflict 
under this volatile circumstance is extremely unsettling. The 
precedents which will be set by this incident, the Federal 
Government negotiating with lawbreakers for the return of 
illegally seized Federal property, will have wide ranging 
negative ramifications.
    Nothing has changed to warrant further delay with this 
facility. There are no new legitimate questions or 
environmental or scientific or a legal nature which has arisen 
that might justify Interior's incompetent handling and outright 
cynical political manipulation of this important public 
project. Interior still does not have the authority, expertise 
or jurisdiction to properly address the situation, much less 
the finding that would be required to conduct tests which they 
claim are needed, but they are now allowing themselves to be 
blocked from providing.
    Mr. Regula. Has not California already done tests?
    Mr. Bilbray. California wants to do tests and have done it, 
but now the Department of the Interior is saying, oh, we want 
to do our own tests before we turn it over. Now they are 
saying, well, we cannot do those tests because we cannot get on 
the land, so we cannot turn over the land.
    I appreciate your understanding of the situation, I just 
think we need to highlight, and waited, and working within the 
law that the Federal Government mandates has cooperated with 
the National Academy of Sciences and everybody along theline. 
The Administration, and I say this as someone who is pretty darned 
moderate, I do not get upset about issues too often, the Administration 
has cynically manipulated this and dragged it on for political reasons. 
I will be frank with you, I think they meant to drag it along only so 
long and now it is out of hand, out of control.
    I appreciate your consideration of the matter, Mr. 
Chairman.
    [The statement of Mr. Bilbray follows:]

[Pages 571 - 572--The official Committee record contains additional material here.]


    Mr. Regula. Thank you.
    Mr. Bilbray. Thank you.
                              ----------                              

                                          Wednesday, April 1, 1998.

                   GLEN ECHO PARK, C&O NATIONAL PARK

                               WITNESSES

HON. CONSTANCE A. MORELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF MARYLAND
    Ms. Morella. Thank you, Mr. Chairman, it is a delight to be 
here with you. I know the tremendous pressures placed upon you 
time-wise and in terms of arranging the appropriation are 
enormous. So I particularly appreciate it.
    I am here to talk to you about two little important issues. 
One of them has to do with, two treasures that we all love, one 
of them is the C&O National Historical Park. We all recall the 
devastating damage to it, and you all helped out. The Park got 
$65 million in damages throughout the 184.5 mile park. Park 
staff and over 7,000 volunteers have worked tirelessly to 
complete the needed repairs.
    Appropriations from Congress and donations from individuals 
and businesses really did help to support high priority repairs 
throughout the park, and I thank you.
    Mr. Regula. Is it pretty much back to normal?
    Ms. Morella. No, it really is not, but they are working on 
it. What they really need to do is look long range in terms of 
a contingency fund, contingent upon natural phenomena.
    Mr. Regula. It is open?
    Ms. Morella. It is open, oh, yes. People are using it 
constantly.
    The C&O Canal park staff and consultants have identified an 
additional $4.9 million in crucial repairs needs that are 
currently not funded. I have included with my statement a copy 
of their priority list. The park needs our support in 
continuing the flood recovery program with additional funds for 
important projects. Many of those high priority repairs are 
within my district in Montgomery County, Maryland, where as you 
know, millions of visitors enjoy the recreational opportunities 
provided by the park.
    As park staff have evaluated damaged structures and 
features and prepared designs for various repair projects, 
sustainability has been a primary concern. The park has 
actively sought input from other agencies, consultants and 
specialists to aid in identifying the most cost effective, 
sustainable ways.
    Mr. Regula. You have the area west of 495?
    Ms. Morella. Yes, I do. Part of the park is in my district, 
not all of it, obviously.
    Mr. Regula. How about where they run the boat? Is that in 
your district?.
    Ms. Morella. Not up in Cumberland, but there is a boat at 
Hungerford Tavern, where the Great Falls merge from Virginia 
and Maryland. That is where they had such tremendous damage, 
and that is where most of your visitors will go there and bring 
their guests and members of Congress go and bring their 
constituents.
    But it goes all the way up to Cumberland.
    Mr. Regula. I understand that.
    Ms. Morella. So I hope that you will help the park with 
that small amount that they need so desperately. It needs 
additional design funds to evaluate projects that would enhance 
the capability of the park to endure future floods. And when I 
mentioned the needs long range, I am hoping to in the future 
work with them in some public-private partnership to have this 
kind of contingency fund for natural disasters.
    Mr. Regula. I am sure they use a lot of volunteers.
    Ms. Morella. They used AmeriCor, all the groups came in and 
volunteered.
    I want to point out one other issue you know I am 
interested in, that's Glen Echo Park. Glen Echo Park is a tiny 
facet of the National Park System. It is a regional treasure 
for the Washington, D.C. area. It is a truly unique facility, 
it has a long tradition. It started out as a Chataqua think 
tank, an amusement park, whatever. It now continues to be a 
rich source of entertainment, educational and cultural 
activities for thousands of residents in the area.
    As you know, I have worked for the preservation of my park 
during my Congressional period. You have been very supportive 
in the past. I hope to get you out there again with Deborah and 
others. With your support and leadership in previous years, the 
park received the desperately needed funds they needed for 
construction, repair andrehabilitation. That was basically what 
you all did.
    Mr. Regula. Is there any chance the State or local 
community will take it over?
    Ms. Morella. To a degree. That is actually what I am 
mentioning in here, we did have a major public hearing. We 
walked through the park, the State, local and myself, Federal 
people with the park people. There previously had been sort of 
a town meeting, but not as much as the constituents would have 
liked, that the Park Service had with Audrey Calhoun, G.W. 
Parkway.
    But when we had the last one, which was planned, where 
people testified, we found that the people who use the park, 
these are the cooperators who have the yurts where they teach, 
all the art facilities, the carousel, the adventure theater, 
the puppet theater and a number of amenities there.
    Mr. Regula. Is the park east or west of 495?
    Ms. Morella. It is McArthur Boulevard, it is west.
    Now, when this group came together, inside, yes, on the 
western side.
    Mr. Regula. I noticed the Glen Echo exit on the beltway.
    Ms. Morella. Yes, it takes you right there. I appreciate 
that. My human compasses.
    At any rate, during that discussion, there is a desire for 
doing a public-private kind of partnership. And a task force 
has now been set up by the county to do that. But they want a 
Federal presence, and they should have it.
    Mr. Regula. Does the Federal Government now administer it?
    Ms. Morella. It does.
    Mr. Regula. Does it have a superintendent?
    Ms. Morella. Absolutely. Audrey Calhoun heads G.W. Parkway 
as part of it. Which is why sometimes it works along like an 
orphan. So there is a desire for this kind of partnership that 
could be worked out, and there is a task force for it.
    What we did find, in listening to the cooperators who want 
to stay there, is that they operate on one year leases. That 
means they have to compete every single year.
    Mr. Regula. The concessionaires?
    Ms. Morella. Concessionaires, right. And also, for the 
Spanish Ballroom, the Spanish Ballroom got a grant from the 
State of Maryland, which had to be matched, $300,000 to be 
matched by the Park Foundation. They matched it, $600,000. The 
public works put a proviso on that bond bill, and said that you 
have to have the Spanish Ballroom in existence as a ballroom 
for 10 years. Maybe it was 15 years. Ten or 15 years.
    They could not do it, because the park said, the lease had 
to be for one year at a time. Ridiculous.
    So therefore, the bond bill is held up until we get some 
clarification from the Park Service. And I think your committee 
can make sure we have it.
    Also, if we can do something with longer term leases, this 
is not in my statement specifically, with longer term leases 
for these cooperators, then they are willing to invest more 
into it, because it becomes an investment, and they don't have 
to go through that hassle. If I could get some statement from 
this committee that that could be worked out, and bring it to 
one of those task force meetings, I think it would really help 
to expedite a plan without that being one of the barriers.
    At any rate, I ask for your assistance with Glen Echo Park.
    [The statement of Ms. Morella follows:]

[Pages 576 - 578--The official Committee record contains additional material here.]


    Mr. Regula. We will continue to discuss it.
    Ms. Morella. Excellent. I appreciate that very much. It is 
indeed a national treasure.
    Mr. Regula. We need to find a long term solution for it.
    Ms. Morella. I think we will be able to do it. But the Park 
Service has to have a presence, and there are some things they 
have to preserve, I think, in terms of what their mandate is. 
But I think we could help to generate that partnership.
    Mr. Regula. How big is it?
    Ms. Morella. They have a park facility, where people can 
sit and have snacks. There are no real recreational fields. But 
they have a beautiful carousel. People walk through it.
    Mr. Regula. It is kind of an amusement park.
    Ms. Morella. It used to be. It is really now it's more 
cultural amusement. They do have some big fairs there. They 
used to have the Irish festival. They now have the folk 
festival. They get people from all over the region, and other 
States, too. Well, you should see the turnout we got at that 
hearing that indicates the tremendous interest.
    Thank you very much, Mr. Chairman. You are great as usual, 
and you have a great staff.
                              ----------                              

                                          Wednesday, April 1, 1998.

           DAYTON AVIATION HERITAGE NATIONAL HISTORICAL PARK

                               WITNESSES

HON. TONY HALL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
HON. DAVE HOBSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Regula. Mr. Hall. Tony, I will let you speak for all of 
Ohio.
    Mr. Hall. Okay. Mr. Chairman, I really want to thank you 
for all the help you have given us in Dayton, and certainly in 
my district and Dave Hobson's district, you have been 
tremendous right from the start with our national park. So 
today, I am joining with my Ohio colleague, Mr. Hobson, to 
request $1.6 million for the National Park Service to 
complete----
    Mr. Regula. This will finish it.
    Mr. Hall. This will finish the building.
    Mr. Regula. How much is being provided by the local 
community?
    Mr. Hall. They intend to raise $1.7 million.
    Mr. Regula. So they are going to have at least a 50-50 
match.
    Mr. Hall. I do not know if it is that much. Because when 
you consider you gave us some money last year----
    Mr. Regula. Well, yes, prospectively it would be.
    Mr. Hall. Actually, the non-Federal match is about a 
quarter of the total project.
    Now, the $1.6 million for the national park, I'm pleased to 
inform you, has really been revised down. The Park Service, 
originally, when they estimated the cost, was off for two 
reasons. They made a mistake when they calculatedthe cost per 
square foot. They included non-construction costs, which they should 
not have. They included some exhibits, and they were very expensive. 
That is not Federal.
    The second reason is they refined some earlier rough 
estimates. And they just found it did not cost as much. The 
community still intends to raise $1.7 million.
    We are as you know requesting the money because of our 2003 
committee. We expect the large crowds from the United States to 
visit, and we are just trying to get it ready.
    I have a complete statement.
    [The statement of Mr. Hall follows:]

[Pages 581 - 582--The official Committee record contains additional material here.]


    Mr. Regula. It will be part of the record. Without 
objection, we will put Dave Hobson's statement in here at the 
same place.
    Mr. Hall. I thought he would be here, I know he will be 
shortly. But you have been really helpful to us. If it was not 
for you and Mr. Vento, we would have been in trouble a long 
time ago.
    Mr. Regula. It is on our license plates, right?
    Mr. Hall. Yes. You have been great, thanks.
    Mr. Regula. Mr. Hobson, we put your statement in the record 
with Tony Hall's. So you don't have to do it. I just though 
they ought to be together.
    Mr. Hobson. Yes. If I might, I have a little statement I 
would like to read to you, Mr. Chairman.
    Mr. Regula. Without objection.
    Mr. Hobson. First of all, it is a pleasure to be here today 
with you to talk about the restoration of the Hoover Print 
Block, which is part of the Dayton Aviation Heritage National 
Historical Park located in both Montgomery County, Ohio, and 
Tony Hall's district, my neighbor, and in Green County, in my 
district.
    I want to thank the committee for providing the first phase 
of funding for the Hoover Print Block project in last year's 
Interior appropriations bill. And I also want to assure you, 
Mr. Chairman, that the misunderstanding about the scope and 
cost of this project has been cleared up. That is the 
particular reason I want to get this into the record. Most of 
the Park Service's original concerns about the cost, I believe, 
have been addressed.
    In addition, the costs of the project are coming down from 
the original estimate, which is in my experience, rather 
unusual around here.
    Today, Tony and I are requesting $1.6 million from the 
National Park Service for phase two to complete restoration of 
the Wright Job Printer Center at the Hoover Block Building by 
the year 2003, the 100th year anniversary of powered flight. We 
originally had expected that the need for three phases of 
funding, however, the $1.6 million we are requesting today will 
complete the Federal share of this project, and there will not 
be a need for any funding in phase three, which was originally 
estimated at around $1.2 million.
    As you may recall, the Wright Brothers printed a tattered 
newspaper in the Hoover Print Block building, a newspaper 
established by the famous black poet, Paul Lawrence Dunbar, 
which is something I fought for to have included in this 
project when the Senate had some problems with it. But I'm very 
pleased that it has been maintained.
    By the way of background, the Dayton Aviation Heritage Park 
was established through P.L. 102-419, legislation that 
Congressman Hall and I jointly sponsored and you helped us very 
much on the Floor. I think it was the first thing I did on the 
Floor, and you were very helpful.
    The public law created a public-private partnership 
focusing on the preservation of various historical sites 
associated with aviation and the Wright Brothers. The sites 
included the Wright Brothers cycle shop, the Wright Brothers 
print shop, the 1905 Wright Flyer in Carolina Park, Huffman 
Prairie Flying Field on Wright Patterson Air Force Base, and 
the Paul Lawrence Dunbar House.
    The establishment of the park is a result of a true public-
private partnership. In fact, State and local partners provided 
the startup funding for the park.
    The local community is committed to continuing its support 
of the Dayton Aviation Heritage Park by providing an adequate 
match of about 20 percent for this project. The State of Ohio 
is considering allocating $1.7 million as capital budget for 
the local match.
    We ask that the National Park Service provide $1.6 million 
to complete the renovation work. The community has agreed to 
fund the construction and the installation of the exhibits and 
the audio-visual program. Estimates indicate that this portion 
amounts to approximately 20 percent of the total cost of the 
project.
    Restoration of the Hoover Print Block is an important 
component of the 2003 celebration planned to commemorate the 
centennial of powered flight. It is important that Federal 
funds are secured for the restoration prior to the year 2000, 
and any delay I think can prevent that project.
    We really appreciate your help, Mr. Chairman. You have been 
very helpful to this project. I think it is good for the 
country.
    Mr. Regula. The local community and the State of course are 
coming through.
    Mr. Hobson. I think that is something you have established 
as a criteria, which I think should be, as an appropriator 
myself and a budgeteer. The reason I was not here earlier, we 
are over wrestling with the budget right now.
    I think this public-private partnership is something good 
to establish, not only for here but other projects. So again, 
thank you very much. We appreciate it.
    Mr. Regula. We hope we can finish the project so it is 
ready to go and timely.
    Mr. Hobson. This, coupled with the Aviation Hall of Fame at 
Wright Patterson, is going to make a really nice addition, the 
two together. Because Wright Patterson right now, they just 
told me there are about 2 million visitors a year to Wright 
Patterson, to the museum, the Air Force museum three. That with 
this I think makes a very good historical program for the area.
    So we thank you very much for this.
    [The statement of Mr. Hobson follows:]

[Pages 585 - 586--The official Committee record contains additional material here.]


                                          Wednesday, April 1, 1998.

CHATTAHOOCHEE NATIONAL FOREST AND CHICKAMAUGA AND CHATTANOOGA NATIONAL 
                             MILITARY PARK

                                WITNESS

HON. NATHAN DEAL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    GEORGIA
    Mr. Regula. Mr. Deal.
    Mr.  Deal. Thank you, Mr. Chairman. I want to reiterate my 
appreciation to you and your staff for all the assistance you 
have given to me in two projects that are very important to my 
district, roads and mountain trout. I especially appreciate the 
fact that Debbie and Loretta would come down and visit these 
facilities, especially the Chickamauga-Chattanooga National 
Battlefield.
    What I would like to request is, you have been most helpful 
over the last several years in trying to finalize this bypass 
around the park. In the report language last year, the final 
version said that the Park Service was to complete it by 
December 31, 1999. Since that does overlap into this next 
fiscal year, I would simply request that we repeat that 
direction in the report.
    Mr. Regula. Are they moving on it?
    Mr.  Deal. They have been receptive. As always, they say 
contingent upon the highway money, trust fund money being 
appropriated. As you know, we were able to route it through 
that funding.
    But I think if we could simply repeat the report language.
    Mr. Regula. I will make a note on that.
    Mr.  Deal. All right. The second is with regard to the 
trout fish hatchery that is in my district. The President has 
recommended $280,000 for continued operation costs this year, 
and I would request the committee to approve that.
    [The statement of Mr. Deal follows:]

[Pages 588 - 589--The official Committee record contains additional material here.]


    Mr. Regula. There is no possibility of the State taking 
this one, is there?
    Mr.  Deal. No, we had explored that. I think the fish 
hatchery people have determined that it is somewhat unique, 
because this is a replacement of trout streams that were, in 
effect, changed as a result of the building of Federal dam 
projects.
    Mr. Regula. All right.
    Mr.  Deal. If we could just sustain the President's 
recommendation, it is a small amount of money for that.
    Mr. Regula. I noticed you have part of the Chattahoochee?
    Mr.  Deal. Yes.
    Mr. Regula. You have a new chair, is that correct?
    Mr.  Deal. The Chattahoochee River, which is the corridor, 
yes, the river originates up in the mountains of my district 
and goes on, flows through into his district. I believe you 
visited.
    Mr. Regula. Where is the break, in your district?
    Mr.  Deal. My district is right at the point where the dam 
forms Lake Lanier, which backs up the Chattahoochee River.
    Mr. Regula. There is a large size community north of 
Atlanta on the Chattahoochee, I cannot remember the name of it.
    Mr.  Deal. There is a huge area along the Chattahoochee in 
Gwynette county, and Cobb County area as well, that Newt has. 
Gainesville is the primary area in my district, it is primarily 
around Lake Lanier, which is the dammed up portion of the 
Chattahoochee River. And it goes on north into the mountains 
where the headwaters are. That is where this Chattahoochee Fish 
Hatchery is located.
    Mr. Regula. I am hopeful we can get the Chattahoochee taken 
care of. There is a population explosion that is taking place 
from Atlanta north, when you overfly it as we did, you really 
see it.
    Mr.  Deal. Yes. And it would take a little bit more 
pressure off of Lake Lanier, which is of course just about had 
all the pressure it can take in my district.
    Mr. Regula. I understand that. Of course, the local 
community, both industry and local groups, are very, very 
forthcoming in support for it.
    Mr.  Deal. Right. Well, it is a beautiful river. And 
certainly, we lost a significant part of it when we dammed it 
up and formed Lake Lanier. But below the dam, the park you 
visited certainly needs to be preserved.
    Thank you very much.
    Mr. Regula. Thank you.
                              ----------                              

                                          Wednesday, April 1, 1998.

         MONGAUP VISITOR CENTER NATIONAL ENDOWMENT FOR THE ARTS

                                WITNESS

HON. BENJAMIN A. GILMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Regula. Mr. Chairman, Ben Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Regula. I am still willing to offer you all the 
sovereign States that we have in this committee.
    Mr. Gilman. Mr. Chairman, I thank you for allowing me to 
come before the subcommittee, and I thank you for your 
consideration. I am here with regard to a river in my area 
called the Upper Delaware. Joe McDade and I, back in the late 
1970s, introduced a measure to make this a wild and scenic 
river. It is a beautiful river. Probably the last of the wild 
scenic rivers in the northeast. We have canoeists and boaters 
and fishermen come from all over the northeast.
    Mr. Regula. Is it presently designated?
    Mr. Gilman. Yes, it is designated.
    Mr. Regula. You just need some money?
    Mr. Gilman. I need some money for a tourist information 
center. They come from all over, but there is no information 
center. What we are asking for is sufficient funding to provide 
a decent tourist information center.
    It is called the Mongaup Visitor Center. It contains----
    Mr. Regula. Our expert here says it is some of the best 
fishing in the country.
    Mr. Gilman. No question about it. Some of the best fishing 
is right in that area.
    Mr. Regula. Let me ask you, Ben, are you talking about a 
visitor center, or are you just talking about a kiosk where 
people can get information?
    Mr. Gilman. Not just a kiosk. It would be somewhat of a 
little museum, information center, but also provide good 
information and bring young people to the center, so that they 
would learn about it.
    Mr. Regula. How much money are we talking about?
    Mr. Gilman. I think it is $6.9 million for what is called 
the Mongaup Visitor Center for the Upper Delaware.
    Mr. Regula. Could Pennsylvania come up with half of it?
    Mr. Gilman. Do we have any contribution by Pennsylvania at 
all? We have been discussing it.
    Mr. Regula. The reason I ask is, we have not been building 
visitor centers simply because we are trying to take care of 
what we have with limited resources.
    Mr. Gilman. Yes.
    Mr. Regula. What I have tried to do on many of these 
projects is to leverage the money we have by saying, we will do 
half if the State and/or local community, or the private 
sector, will provide funding. You heard me talking about the 
Chattahoochee. In that case Coca-Cola and a couple of other big 
companies in Atlanta are going to put up about two-thirds of 
the cost of acquiring land.
    Mr. Gilman. I think it would be worthwhile exploring that 
with the State. We did that, as you may recall, with the 
Sterling Forest project which you helped us with.
    Mr. Regula. Are there any State facilities nearby? Or is 
this just a wild river, totally Federal?
    Mr. Gilman. Open lands, totally Federal. No major State 
facility or Federal facility nearby. Adjoining it is Mark 
Twain's home there right alongside the river. That's an 
historic museum.
    Mr. Regula. There is nothing there at the moment?
    Mr. Gilman. Nothing. I think there is a kiosk there, but a 
small, little kiosk.
    Mr. Regula. This would be in the National Park Service. We 
need to talk with them, we need to see if they can scale back. 
$6.9 million is a pretty large amount.
    Mr. Gilman. They have worked with this. There is no 
opposition, incidentally, in local government. Everyone 
supports it.
    But we certainly would welcome anything your good committee 
can do to help us. It is something they have been planning for 
years, and I know Joe McDade joins with us in the request.
    I would also like to add my support for the National Arts 
program. I have been a long time supporter, as you know, and I 
want to continue to support it.
    Thank you, Mr. Chairman, for your time.
    [The statement of Mr. Gilman follows:]

[Pages 593 - 594--The official Committee record contains additional material here.]


                                          Wednesday, April 1, 1998.

              HUDSON RIVER VALLEY NATIONAL HISTORICAL AREA

                                WITNESS

HON. MAURICE D. HINCHEY, A REPRESENTATIVE IN CONGRESS FROM THE 
    COMMONWEALTH OF MASSACHUSETTS
    Mr. Regula. Okay. Mr. Hinchey. Hudson River Valley, this is 
a heritage corridor, right?
    Mr. Hinchey. Yes, sir. Mr. Chairman, it certainly is. I 
feel very comfortable here today talking to you about American 
heritage areas. Because I know you to be someone who really 
appreciates these.
    We have, as you know, as a result of the law that was 
passed last year with your help, thank you very much, a number 
of these American heritage areas now around the country. I am 
here today to ask for an appropriation of $1.5 million for the 
American heritage area in the Hudson River Valley.
    Mr. Regula. Do they have their match?
    Mr. Hinchey. They will, yes. I believe they will.
    Mr. Regula. I think we have a limit of a million a year on 
those. I am not sure, but I think the way the bill was 
structured, it was a million a year, provided there was a local 
match for a 10 year period.
    Anyway, what you are requesting today would be the $1.5 
million.
    Mr. Hinchey. Yes. I am under the impression that that is 
within the--yes, I am told the request is well within the 
funding limits authorized for the Hudson Valley in that P.L. 
104-333.
    Mr. Regula. I assume that was the Omnibus Parks bill we 
passed some years back.
    Mr. Hinchey. I believe it was, Mr. Chairman.
    The reason I feel comfortable in making this request at 
this time is that, because I do so in the knowledge that this 
money can be used very effectively, very appropriately, totally 
in consistence with the intention of the law, and can be used 
right away.
    The reason for that is, the American heritage area in the 
Hudson Valley overlays a pervious Hudson River Valley greenway. 
The management entity for the heritage area in the Hudson 
Valley is already in place. They are all set to go, and this is 
a program that can be up and running almost immediately.
    Mr. Regula. Is this a greenway that follows the river?
    Mr. Hinchey. Precisely.
    Mr. Regula. How many miles is it?
    Mr. Hinchey. It is approximately 150 miles.
    Mr. Regula. That is quite an extensive area, then.
    Mr. Hinchey. Yes. It runs from the Westchester County New 
York City border, in other words, it begins just north of the 
city line, and from Westchester County north, on both sides of 
the river, and it goes as far as a Federal dam in Troy, which 
is just above Albany.
    So it may be 160 miles.
    Mr. Regula. Is it bikeable? Part of it?
    Mr. Hinchey. Yes, good parts of it are. There is a trail 
system that is in the development stage, under the auspices of 
the previous greenway. And they are developing trails and 
bikeways.
    Mr. Regula. This in a sense is an expansion of what had 
been an existing greenway.
    Mr. Hinchey. Well, it is a very healthy augmentation.
    Mr. Regula. Okay.
    Mr. Hinchey. Yes. The geographical lines are exactly the 
same. It is overlaying the greenway. This was a greenway 
project, and this lies right over the greenway project. But of 
course, it does a great many other things beyond that, which 
the greenway was planning to do.
    There are a number of major historical sites, including the 
first national historic site in the country, Washington's 
headquarters, located in the City of Newburg, Atlanta, the 
church residence.
    Mr. Regula. So this is far beyond the river, it is an 
expanded greenway.
    Mr. Hinchey. Yes. It goes some distance on both sides of 
the river. It fluctuates as you go up, it is not completely 
uniform.
    [The statement of Mr. Hinchey follows:]

[Pages 597 - 598--The official Committee record contains additional material here.]


    Mr. Regula. Okay, we will see. It depends on our allocation 
what we can do. As you can imagine, we have a lot of good 
projects. We are going to stretch our funds as far as we can.
    Mr. Hinchey. I know you will, Mr. Chairman.
    I appreciate it very much.
                              ----------                              

                                          Wednesday, April 1, 1998.

                    NATIONAL ENDOWMENT FOR THE ARTS

                                WITNESS

HON. RICK LAZIO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Regula. Mr. Lazio, I think you are the one we have been 
waiting for.
    Mr. Lazio. I want to thank you personally, frankly, for the 
work that you have done for the whole 602(b) area throughout 
your subcommittee, and what you do for us, a lot of hard 
decisions are made. Sometimes I know you have to say no. But I 
want to ask that you say yes on a particular program, one that 
we have talked about privately for several years. It is the 
National Endowment for the Arts.
    If I can, I want to begin by just thanking you for the 
efforts, for the changes that have been made in those programs. 
We desperately need an authorization program, but I think 
within the confines of appropriations. Last year, the changes 
that you made went a long way toward building confidence.
    Mr. Regula. I believe that is true, Rick, from everything I 
can ascertain. We have our colleagues down there. We have 
expanded the program to do a lot more outreach and try and 
avoid the egregious kinds of things that created difficulty in 
the past.
    Mr. Lazio. I want to thank you for that. There has been a 
tremendous increase in the amount of arts activity throughout 
the Nation. Just to sort of summarize, I think some of these 
are interesting. Since 1965, the number of professional non-
profit theaters have grown from 56 to over 425. Large 
orchestras have increased from 100 to over 230. Opera companies 
from 27 to over 120, here in our own backyard in Washington, 
the purchase of the old Woodies building for a new opera center 
I think has had incredible attention.
    Dance companies from 37 to over 400. Throughout a lot of 
small towns in America, countless small chamber orchestras and 
choral groups, museums, art centers, cultural festivals, have 
sprung up. People are looking at them not just in terms of the 
quality of life issue, but as a way of bringing people together 
to build a better sense of community.
    We have proven the fact that there is a very significant 
economic accelerator that occurs as a result of the arts 
spending.
    As you know, as a result of your work, about 7.5 percent of 
all NEA arts funding now is dedicated to help develop arts 
programming in undeserved areas. That has specifically helped 
us, I think, reach the outcome of this broad based pluralistic 
effort in terms of the arts.
    In my home State arts provide about 175,000 jobs. It is one 
of the reasons why Governor George Pataki is such a big 
supporter of public funding for the arts. Non-profit arts 
organizations alone have an economic impact of nearly $4.1 
billion. Although I do not have it here, I think the spinoff in 
terms of tax receipts is somewhere in the neighborhood of $300 
million, very significant.
    One of the things I want to mention is the fact that one of 
the more promising innovations in reaching out to every 
community and for the NEA not to be perceived as elitist or 
focused on big cities like New York or Washington, is a new 
program called ArtsREACH. It was designed to improve the 
geographic distribution of NEA grants to States which are 
historically undeserved. The program will provide direct 
planning and technical assistance grants to communities in 
targeted States to create coalitions of cultural organizations, 
and help local government and community arts organizations work 
together to ensure that the arts are an integral part of 
achieving the community's goals.
    ArtsREACH will help local artists and civic leaders to use 
the arts to build stronger communities, help artists and art 
organizations become more involved in communities, and 
strengthen arts education programs.
    These kinds of programs I would say, Mr. Chairman, are the 
ones that will have the most meaning on small towns and 
communities throughout America. There are many areas that have 
significant resources and can support the large orchestras, the 
large ballet groups, the large opera house.
    Mr. Regula. That is the reason we reduced the maximum 
funding to any State. I found a ballet company composed of all 
volunteers. I said, why don't you apply for a grant. They said 
the rules are that if they are not professional, they do not 
get any money. We changed that.
    Mr. Lazio. I want to acknowledge the fact that your hard 
work to try and build confidence and to have a more equitable 
distribution in lowering the State block grant formula by 5 
percent, placed a 15 percent cap on the collective amount any 
one State could receive, while in New York that probably does 
not inordinately----
    Mr. Regula. We excluded the national organizations from the 
cap.
    Mr. Lazio. Exactly. Which I think was a very thoughtful 
approach. At the same time, even coming from New York, I think 
the net effect is that it gets out to the grass roots, the 
small towns, the communities. And that is exactly the 
communities that are least likely to have exposure to the fine 
and performing arts, and makes a real difference.
    So I would ask you to build on your great work that you 
have done, the reforms you have made.
    Mr. Regula. Let me ask you to do something. Talk to some of 
our colleagues.
    Mr. Lazio. I will. I will be speaking to them. I want them 
to appreciate the fact that these changes have been made. We 
are seeing the effects of them, and you have put a lot of hard 
work into this program. It would be appropriate, and is 
supported by both sides of the aisle, that we step up to the 
plate and have a commitment to publicfunding for the arts.
    [The statement of Mr. Lazio follows:]

[Page 602--The official Committee record contains additional material here.]


    Mr. Regula. You are aware of where some of the opposition 
lies.
    Mr. Lazio. I have the scars and bruises to prove it, Mr. 
Chairman. I want to thank you for your personal commitment.
    Mr. Regula. Thank you. The committee is adjourned.
    [Committee Note.--Several Members of Congress were unable 
to attend the hearing to present their statement. The 
statements follow:]

[Pages 604 - 628--The official Committee record contains additional material here.]







                           W I T N E S S E S

                              ----------                              
                                                                   Page
Anderson, D.W....................................................   175
Bass, Hon. C.F...................................................   504
Bereuter, Hon. Doug..............................................   428
Bilbray, Hon. B.P................................................   568
Bloomfield, Sara.................................................   357
Blumenauer, Hon. Earl............................................   509
Clyburn, Hon. J.E................................................   398
Cubin, Hon. Barbara..............................................   416
Deal, Hon. Nathan................................................   587
DeLauro, Hon. Rosa...............................................   469
Deutsch, Hon. Peter..............................................   440
Eshoo, Hon. A.G..................................................   384
Faleomavaega, Hon. Eni F.H.......................................   612
Farr, Hon. Sam...................................................   478
Ferris, W.R......................................................   193
Frankel, D.B.....................................................   259
Furse, Hon. Elizabeth............................................   454
Gantt, H.B.......................................................   325
Gilman, Hon. B.A.................................................   590
Gordon, Hon. Bart................................................   373
Hall, Hon. Tony..................................................   579
Hamilton, Hon. L.H...............................................   617
Hayworth, Hon. J.D...............................................   499
Heyman, I.M......................................................     1
Higgins, K.O.....................................................   107
Hinchey, Hon. M.D................................................   595
Hobson, Hon. Dave................................................   579
Hooley, Hon. Darlene.............................................   491
Horn, Hon. Stephen...............................................   463
Inglis, Hon. Bob.................................................   515
John, Hon. Chris.................................................   486
Kennedy, Hon. P.J................................................   388
Kildee, Hon. Dale................................................   556
Lazio, Hon. Rick.................................................   599
McGovern, Hon. James.............................................   378
Mica, Hon. J.L...................................................   402
Miller, Hon. George..............................................   422
Morella, Hon. C.A................................................   573
Nadler, Hon. Jerrold.............................................   562
Neal, Hon. Richard...............................................   378
Newman, C.B......................................................     1
O'Connor, J.D....................................................     1
Oberstar, Hon. J.L...............................................   614
Pallone, Hon. Frank, Jr..........................................   409
Pelosi, Hon. Nancy...............................................   392
Peterson, Hon. J.E...............................................   458
Powell, E.A., III................................................    77
Radanovich, Hon. George..........................................   606
Rahall, Hon. N.J.................................................   609
Robinson, M.H....................................................     1
Saxton, Hon. James...............................................   538
Schaefer, Hon. Dan...............................................   604
Shanklin-Peterson, Scott.........................................   107
Shays, Hon. Christopher..........................................   469
Sherman, Hon. Brad...............................................   533
Slaughter, Hon. L.M..............................................   446
Stabenow, Hon. Debbie............................................   618
Stupak, Hon. Bart................................................   546
Tanner, Hon. John................................................   527
Vento, Hon. B.F..................................................   389
Visclosky, Hon. P.J..............................................   522
Weller, Hon. Jerry...............................................   518
Weygand, Hon. Robert.............................................   378
Wilker, L.J......................................................    87
Wolf, Hon. Frank.................................................   436
Young, Hon. Don..................................................   620








                               I N D E X

                              ----------                              

                              Smithsonian

                                                                   Page
Additional Committee Questions...................................    44
Affiliations Program.............................................    10
America's Smithsonian............................................ 8, 34
Biographies of Principal Witnesses...............................     4
Budget Needs.....................................................    36
Budget Program Increases.........................................    45
Budget Request...................................................    12
Business Ventures................................................    68
Capital Planning.................................................    13
Closing Remarks..................................................    43
Collections on Exhibit, Percentage of............................    22
Condition of Smithsonian Buildings...............................    35
Digitization of Images...........................................     9
Educational Programs.............................................    10
Electronic Accessibility.........................................    53
Facilities Requirements..........................................    22
Future Expansions................................................    68
Holt House.......................................................58, 72
Home Page.....................................................9, 40, 41
Intermodal Surface Transportation Efficiency Authorization 
  (ISTEA)........................................................    69
Leased Space.....................................................    23
Lease-Purchase Proposals.........................................    63
Letter of Explanation from Michael H. Robinson...................    32
Management Efficiencies..........................................    24
Media Productions................................................    40
Museum Closures, Notification of.................................    64
Museum of the American Indian, Private Funding...................    28
National Air and Space Museum....................................    70
National Air and Space Museum, Extension of Dulles Airport.......    67
National Museum of American History..............................    69
National Museum of Natural History...............................    51
National Museum of the American Indian...........................48, 71
National Museum of the American Indian, Architectural Contract...    29
National Museum of the American Indian, Construction.............    61
National Zoological Park.....................................30, 42, 55
National Zoological Park, Backlog Maintenance....................    24
Opening Statement................................................     8
Operations.......................................................    73
Partnerships.....................................................    65
Political Correctness............................................    27
Priorities.......................................................    39
Questions Submitted by Representative Sidney R. Yates............    71
Renwick Museum...................................................    71
Repair and Restoration...........................................60, 71
Research.................................................11, 36, 37, 39
Research, Peer Review............................................    26
Security.........................................................33, 63
Star Spangled Banner.............................................33, 63
Testimony of I. Michael Heyman, Secretary........................    15
Visiting Students................................................    40
Web Access for Educational Programs..............................    10

                        National Gallery of Art

Committee Questions for the Record...............................    81
    Fixed Cost Increases.........................................    83
    Maintenance Backlog..........................................    82
    Request to the Office of Management and Budget...............    82
    Security Guard Services......................................    81
Statement by Director, Earl A. Powell II.........................    77

                         John F. Kennedy Center

Additional Committee Questions...................................    92
FY 1998 Capital Repair Program...................................    89
FY 1999 Operations and Maintenance Program.......................    89
Introduction.....................................................    87
Kennedy Center Artistic and Education Programming................    90
Performing Arts for Everyone.....................................    90
Sources of Income................................................    87
Use of Appropriated Funds........................................    88

                    National Endowment for the Arts

Additional Committee Questions...................................   138
Agency Computing System Expenses.................................   136
Allocation of Endowment's Administrative Resources...............   132
Arts Education............................................119, 127, 132
Arts Education and the Endowment.................................   132
ArtsREACH Initiative......................................111, 114, 116
Chairmanship of Jane Alexander...................................   131
Congressional Notification of Endowment Grants...................   135
Congressional Representation on the Council......................   126
Congressional Representation on the Council......................   133
Distribution of Endowment Grants.................................   129
Endowment and Conference of Mayors...............................   112
Endowment Application Process....................................   135
Endowment Efforts in South Carolina..............................   113
Endowment Grants to the Sarasota Area............................   134
Endowment Hearings in Past Years.................................   127
Endowment Tracking of Grants.....................................   136
Expansion of NEA Grant Distribution..............................   116
Fifteen Percent Cap and Multi-State Grants.......................   134
Funding for Amateur Arts Organizations...........................   128
FY99 Funding for the Endowment.................................113, 129
Honoring Representative Yates....................................   131
Implementation of 15 Percent per State Cap.....................126, 134
Leonard Slatkin and Arts Education...............................   112
Membership of the National Council on the Arts.................110, 126
Museum in Grand Forks, North Dakota..............................   110
NEA Administrative Budget........................................   112
NEA Partnerships with Other Federal Agencies.....................   112
Oral Histories...................................................   133
Implementation of Directives in FY98 Interior Bill...............   133
President's Request Level for FY99...............................   114
Presidential Millennium Initiative...............................   136
Reach of Multi-State Grants......................................   117
Role of the Arts in Community Planning...........................   115
State Arts Agencies' Funding.....................................   116

                         Woodrow Wilson Center

Committee Questions for the Record...............................   178
Statement by Acting Director, Dean W. Anderson...................   175

                 National Endowment for the Humanities

A ``User-Friendly'' HEH..........................................   210
Additional Committee Questions...................................   213
    From Congressman Yates.......................................   248
Battling Cynicism in American Life...............................   206
Brittle Books and Other Preservation Efforts.....................   204
Chairman's Previous Relationships with NEH.......................   209
Economic Impact of NEH Grants....................................   208
Funding Needs....................................................   204
Geographical Distribution of Grants..............................   210
Income Recovery Policy...........................................   207
Initiatives and Higher Education.................................   204
Millennium Activities............................................   206
NEH and the Millennium...........................................   212
Opening Remarks..................................................   193
Presidential Papers Projects/U.S. Newspapers.....................   205
Regional Humanities Centers Initiative...........................   207
Setting up Regional Humanities Centers...........................   211
State Support of State Humanities Councils.......................   211
Summary Statement of William R. Ferris...........................   193

                    IMLS--Office of Museum Services

Questions for the Record from the Committee......................   265
Statement of Director, Diane B. Frankel..........................   259

                        Commission of Fine Arts

Questions for the Record from the Committee......................   277

               Advisory Council on Historic Preservation

FY 1998 Level of Operation.......................................   290
FY 1999 Request..................................................   290
Highlights of Program Direction..................................   290
Mission and Program Focus........................................   289
Questions for the Record Submitted by the Committee..............   292
    Submitted by Mr. Skeen.......................................   315
Summary..........................................................   291

                  National Capital Planning Commission

Questions for the Record from the Committee......................   331
Statement of the Chairman, Harvey B. Gantt.......................   325
    A Strategic Plan to Chart the Future.........................   329
    Commission Adopts New Plan for Washington....................   325
    Geographic Information System--Forging the Partnership.......   327
    Next Steps--Bricks and Mortar................................   326
    Planning the Capital in Big Ways and Small...................   328
    Protecting the Mall, The Nation's Gathering Place............   327
    What America Told Us.........................................   325

                       Holocaust Memorial Council

Questions for the Record from the Committee......................   360
Statement by Sara Bloomfield.....................................   357

                              <all>
</pre></body></html>
